<html>
<title> - LEGISLATIVE HEARING ON H.R. 2433, H.R. 1941, AND H.R. 169</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         LEGISLATIVE HEARING ON
                  H.R. 2433, H.R. 1941, AND H.R. 169

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2011

                               __________

                           Serial No. 112-24

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
68-453                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 15, 2011

                                                                   Page

Legislative Hearing on H.R. 2433, H.R. 1941, and H.R. 169........     1

                           OPENING STATEMENTS

Chairman Jeff Miller.............................................     1
    Prepared statement of Chairman Miller........................    18
Hon. Bob Filner, Ranking Democratic Member.......................     1
    Prepared statement of Congressman Filner.....................    19
Hon. Cliff Stearns, prepared statement of........................    20
Hon. Corrine Brown, prepared statement of........................    21
Hon. Russ Carnahan, prepared statement of........................    21

                               WITNESSES

Bishop, Hon. Sanford D., Jr., a Representative in Congress from 
  the State of Georgia...........................................     3
    Prepared statement of Congressman Bishop.....................    22
Erie Community College, Williamsville, NY, Hon. Jack Quinn, 
  President......................................................     6
    Prepared statement of Mr. Quinn..............................    22

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Veterans Affairs, Curtis L. Coy, Deputy Under 
  Secretary for Economic Opportunity, Veterans Benefits 
  Administration, statement......................................    25

U.S. Department of Labor:

  Hon. Raymond M Jefferson, Assistant Secretary, Veterans' 
    Employment and Training Service, statement...................    29
  Ismael Ortiz, Jr., Deputy Assistant Secretary, Veterans' 
    Employment and Training Service, supplemental statement......    31
U.S. Department of Defense, statement............................    35
American Legion, Robert Madden, Assistant Director, National 
  Economic Commission, statement.................................    37
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director, statement................................    40
Iraq and Afghanistan Veterans of America, Tom Tarantino, Senior 
  Legislative Associate, statement...............................    43
Military Officers Association of America, VADM Norbert R. Ryan, 
  Jr., USN (Ret.), President, letter.............................    45
National Association of State Workforce Agencies, Robert L. 
  Simoneau, Deputy Executive Director, statement.................    46
Paralyzed Veterans of America, statement.........................    51
Veterans of Foreign Wars of the United States, Ryan M. Gallucci, 
  Deputy Director, National Legislative Service, statement.......    54
Veterans of Modern Warfare, John F. Morgan, President/Chief 
  Executive Officer, letter......................................    56

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Hon. Jack Quinn, President, Erie 
    Community College, letter dated July 26, 2011, Mr. Quinn's 
    responses....................................................    57
  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Hon. Eric K. Shinseki, Secretary, U.S. 
    Department of Veterans Affairs, letter dated July 26, 2011, 
    and VA responses.............................................    60
  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Robert Madden, Assistant Director, 
    National Economic Commission, American Legion, letter dated 
    July 26, 2011, and Mr. Madden's responses, letter dated July 
    19, 2011.....................................................    61
  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Tom Tarantino, Senior Legislative 
    Associate, Iraq and Afghanistan Veterans of America, letter 
    dated July 26, 2011, and Mr. Tarantino's responses, dated 
    August 15, 2011..............................................    65
  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Bob Simoneau, Deputy Executive Director, 
    National Association of State Workforce Agencies, letter 
    dated July 26, 2011, and Mr. Simoneau's responses............    67
  Hon. Bob Filner, Ranking Democratic Member, Committee on 
    Veterans' Affairs to Ryan M. Gallucci, Deputy Director, 
    National Legislative Service, Veterans of Foreign Wars of the 
    United States, and Mr. Gallucci responses, dated September 7, 
    2011.........................................................    70


                         LEGISLATIVE HEARING ON
                   H.R. 2433, H.R. 1941, AND H.R. 169

                              ----------                              


                         FRIDAY, JULY 15, 2011

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Stearns, Bilirakis, Roe, 
Stutzman, Denham, Runyan, Filner, Brown, Michaud, McNerney, 
Donnelly, Walz, and Carnahan.

              OPENING STATEMENT OF CHAIRMAN MILLER

    The Chairman. Good morning, ladies and gentlemen. This 
hearing will come to order.
    And I want to get right to the meat of things. Sixty 
thousand veterans were added to the unemployment rolls in the 
month of June bringing the total number to over one million 
veterans out there that are unemployed today. And that is 
unacceptable.
    I have a full opening statement that I want to enter into 
the record. And without objection, I will do so.
    [The prepared statement of Chairman Miller appears on p. 
18.]
    The Chairman. And we have a long series of votes, so I'm 
going to waive the rest of my opening statement and turn to the 
Ranking Member, Mr. Filner.

              OPENING STATEMENT OF HON. BOB FILNER

    Mr. Filner. Thank you, Mr. Chairman.
    The statistic you quoted shows how important this hearing 
is and how important it is that we address the issue of jobs 
very seriously.
    We read about the results of veterans who come home often 
with invisible wounds who cannot find the dignity and security 
that work provides. We see that evidenced in the skyrocketing 
suicide statistics, domestic violence, substance abuse, and 
even, of course, in rising homelessness amongst our veterans.
    Each of these bills before us today seeks to address the 
needs and I want to comment on H.R. 169, which requires the 
U.S. Department of Veterans Affairs (VA) to highlight the 
VetSuccess site on its main Internet page. I hope that the VA 
will do that.
    Mr. Chairman, I appreciate your efforts in trying to make 
meaningful change in our veterans' lives and you have 
introduced some legislation, including H.R. 2433, which is 
before us today.
    I have some problems with H.R. 2433, Mr. Chairman. I do not 
think we can call it a jobs bill, because it is a retraining 
bill. That is good, but it does very little to create jobs for 
veterans regardless of how this is going to be portrayed.
    It focuses on contracting out the Transition Assistance 
Program, (TAP), which is a big discussion that I think we need 
to have about whether contracting out is the right way to go.
    While I fully support widening the opportunities for our 
veterans by providing them with additional skills, I think we 
have to be realistic about how we frame the bill.
    You pointed out the statistics and clearly we have to do 
something.
    I also want to point out that in order to pay for the 
legislation, your bill would extend higher loan fees for our 
veterans that utilize the VA Home Loan Guarantee Program and 
then use these monies to pay for the monthly stipend and 
retraining costs that are created by the bill.
    Mr. Chairman, your party has been threatening the whole 
stability of our economy by arguing that if you extend a fee or 
you do not extend a tax cut, you are raising taxes.
    By extending the higher rates for 10 more years, what we 
are doing is not only raising taxes but taxing a specific group 
of veterans for using their benefit. Your leader, Mr. Cantor, 
said we do not believe you ought to be raising taxes right now 
in this recession.
    So let's be consistent about how we apply the beliefs that 
we are throwing around on the Hill. If allowing the Bush tax 
cuts to expire was characterized as a tax increase, then not 
allowing these higher rates to expire can also be characterized 
as a tax increase.
    Let's be clear about what we are doing and say in plain 
language that we are raising taxes on veterans. So let's be 
transparent about the shell game and how we are paying for it 
so we are not back here later trying to figure how we deal with 
unintended consequences.
    Even worse, I think in my opinion, is that in order to pay 
for the bill, you will charge our veterans more fees so they 
benefit in one program, so we can pay for other veterans and 
their benefits in another program.
    In this economy when our national housing market is in the 
tank where we on this Committee have worked so hard to protect 
our veterans from home foreclosures, we must carefully weigh 
our actions and be sure that the actions we take are not going 
to make it more difficult for a veteran to purchase or keep a 
home.
    We also have Mr. Bishop with us today who has a viable 
alternative and he is going to explain that. It is going to 
require broad job skill training. It is a companion bill to 
Senator Murray's bill, S. 951.
    What Mr. Bishop's bill does is require servicemembers to 
learn how to translate the skills they learned in the military 
into the working world. It will ensure that more veterans have 
jobs waiting for them when they leave the military by 
streamlining the path to private and Federal employment.
    It requires the U.S. Department of Labor (DoL) to take a 
hard look at what military skills and training are translatable 
into the civilian sector and work to make it simpler for our 
veterans to get the licenses and certification that they need.
    I support H.R. 1941, the companion to Senator Murray's 
bill. It passed the Senate Committee unanimously and I hope we 
can do it here. I think it is a whole step forward.
    The questions that we have to ask ourselves today, Mr. 
Chairman, are these the policies we want to pursue, what impact 
will extending these fees that you have in your bill have on 
the housing market, and the ability of our veterans to utilize 
the VA Home Loan Program.
    Again, I think we could have looked at these questions and 
worked them out by going through the Subcommittee process. I 
also have not seen the Congressional Budget Office (CBO) cost 
estimate on this.
    I hope that we can look at these bills in a bipartisan way, 
find the right combination that will, in fact, increase the 
employment opportunities for our Nation's veterans.
    I thank the Chair.
    [The prepared statement of Congressman Filner appears on p. 
19.]
    The Chairman. I thank the Ranking Member. And now I know 
why you would not agree with me to forego our opening 
statements.
    I would remind you or inform you, if you are not aware, 
that the Senate Committee unanimously approved Senator Murray's 
bill. It uses the same fees in order to fund her bill.
    The House approved the GI Bill grandfathering measure that 
use the same fees. And you used funding fees to increase 5 
years ago to pay a host of improvements to veteran benefits.
    So I appreciate you coming to the side of fiscal 
conservatism. I look forward to working with you on those 
issues in the future.
    Now I would recognize our good friend, Mr. Bishop, who has 
joined us to make remarks that he may like to make on behalf of 
his bill today.
    And welcome back, sir. As a former Member of this 
Committee, we are glad to have you back in the Committee room. 
You are recognized for 5 minutes to discuss your bill.

 STATEMENT OF HON. SANFORD D. BISHOP, JR., A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Bishop. Thank you very much.
    And I would like to thank Chairman Miller and Ranking 
Member Filner and the rest of the Veterans' Affairs Committee, 
for inviting me to testify today on behalf of the Hiring Heroes 
Act of 2011.
    As you are aware, the current economic environment has left 
millions of Americans out of work and has made it exceptionally 
difficult to find jobs. This problem is particularly acute when 
it comes to our Nation's veterans.
    Recent data has shown that veterans, especially those who 
have served in Iraq and Afghanistan, are facing an unemployment 
rate of over 27 percent after leaving the service. This 
situation is really unacceptable and it represents a failure of 
us here in Congress to really help our Nation's veterans.
    As the War in Iraq comes to an end and we begin to draw 
down our forces in Afghanistan, even more veterans are going to 
be looking for work further compounding the problem.
    With this in mind, I thank Senator Murray for taking the 
lead on this issue and introducing the Hiring Heroes Act of 
2011 in the Senate.
    It is also for this reason that I am proud to have 
introduced with the help of Ranking Member Filner, Chairman 
Bill Young of the Defense Appropriations Subcommittee, Ranking 
Member Norm Dicks of the full Appropriations Committee, and 
Representative McNerney, the House companion bill to Senator 
Murray's legislation.
    Here in the House, the measure has already gained 55 
cosponsors representing both Republicans and Democrats from 
both ends of the political spectrum.
    I would like to add that this legislation has gained the 
support of various veterans and servicemember groups including 
the American Legion, the Veterans of Foreign Wars, the Military 
Officers Association of America, and Military Families United.
    The Hiring Heroes Act has already passed favorably, as the 
Chairman noted, out of the Senate Veterans' Affairs Committee 
and it is my hope that this Committee will follow the Senate's 
lead and quickly send the measure to the full House for 
consideration.
    Now, let me discuss briefly the details of the legislation. 
Along with modernizing Federal hiring practices, the bill makes 
participation in the Transition Assistance Program mandatory 
for separating servicemembers. It requires that each 
servicemember receive an individualized assessment of jobs for 
which they may qualify.
    It creates new programs aimed at improving the transition 
from servicemember to civilian life including a Competitive 
Grant Program for nonprofit organizations that provide 
mentoring services and job training that lead directly to job 
placements.
    It also aims to break down the barriers between the U.S. 
Department of Defense (DoD), the Department of Labor, the 
Department of Veterans Affairs, and it makes it easier for 
servicemembers to smoothly transition to veteran status.
    Finally, I would like to stress that we have an obligation 
to help our veterans land on their feet when they come home and 
we have an obligation to help them find good-paying jobs to 
support their families.
    These are the members of our society that have risked the 
most for our country. Our current system, although well-
intended, simply does not focus enough on our servicemembers' 
transition into civilian life.
    Providing more support to our Nation's veterans is simply 
the right thing to do. And I look forward to working with my 
colleagues on both sides of the aisle toward passing the Hiring 
Heroes Act of 2011.
    I would like to thank the Committee for inviting me to 
testify and I will be happy to respond to any questions that 
the Committee might have.
    [The prepared statement of Congressman Bishop appears on p. 
22.]
    The Chairman. Thank you very much, Mr. Bishop. We 
appreciate you being here to present this important piece of 
legislation.
    Also, I would like to ask unanimous consent that all 
Members can submit their opening statements for the record.
    I also ask unanimous consent that the following 
organizations' statements or letters of support be inserted 
into the record, U.S. Department of Defense, Paralyzed Veterans 
of America, Veterans of Modern Warfare, Military Officers 
Association, and the Disabled American Veterans.
    Hearing no objection, so ordered. For the record, all of 
the veterans service organizations supported.
    If you could, tell us what you think the most important 
component is, not the outcome, but the most important component 
is of the legislation that you are proposing.
    Mr. Bishop. I think the most important component is being 
able to coordinate the efforts of all of the Federal agencies 
to make sure that the veterans have a seamless transition. 
Obviously gainful employment is extremely, extremely important 
to veterans. The lack of gainful employment often contributes 
to homelessness as well as joblessness.
    And, of course, to the extent that we on behalf of the 
American people can give the right kind of transition, the 
tools to facilitate that transition, I think the better we will 
serve the people who serve America because, after all, they 
paid the price for the freedoms that we enjoy in this country. 
And we owe them that debt.
    The Chairman. Does your bill fund any retraining for 
unemployed vets other than the few that would be granted 
additional vocational rehabilitation and education (VR&E) 
benefits?
    Mr. Bishop. Say that again?
    The Chairman. I said does your bill fund any retraining for 
unemployed vets other than the few that would be granted 
additional VR&E benefits?
    Mr. Bishop. Well, it creates a Competitive Grant Program 
for nonprofit organizations that provide mentorship and job 
training programs that are designed to lead to job placements.
    It requires the DoD, DoL, and the VA to jointly contract 
for a study to identify the equivalencies between certain 
military occupational specialties and related skills and 
potential civilian employment.
    And it allows DoD to create a program to provide work 
experience with civilian employees and contractors to 
facilitate that transition for servicemembers that are on 
terminal leave.
    It requires DoD, DoL, and the VA to collaborate in 
eliminating the barriers.
    So there are some additional requirements, but, the 
Congressional Budget Office has scored the legislation and the 
report from the Congressional Budget Office indicates that if 
enacted on net, the bill would decrease direct spending by $227 
million over the period from 2012 to 2016 and by $179 million 
over the period from 2012 to 2021.
    In addition, the CBO estimates that implementing the bill 
would have a discretionary cost of $160 million over the 2012 
to 2016 period assuming that the appropriation of the necessary 
amounts are made.
    But as you can see, the savings clearly outweigh the 
expenditures and I think that it is a very sound investment 
long term and short term and it is the right thing to do.
    The Chairman. Thank you very much.
    Mr. Filner.
    Mr. Filner. Just briefly.
    Thank you, Mr. Bishop, for being here and for introducing 
your bill.
    I would like to point out that the Chairman mentioned that 
Senator Murray's bill has a similar funding mechanism that I 
criticized in his bill. That does not mean I am for that part 
of Ms. Murray's bill.
    I would just clarify that your bill does not include that 
funding mechanism at this moment, right?
    Mr. Bishop. No, it does not.
    Mr. Filner. All right. So we can fully support your bill.
    Thank you, Mr. Chairman.
    The Chairman. Any questions from any Members?
    [No response.]
    The Chairman. Mr. Bishop, thank you very much for being 
here today.
    Mr. Bishop. Thank you very much and I appreciate the 
consideration of the Committee.
    I think it is a good bill and I hope that we will do the 
right thing for our veterans as this Committee has always done 
over the years. And I thank you for your service.
    The Chairman. Thank you very much.
    Our second witness, we will ask him to come forward. Many 
of you may remember that he is a former Member of this 
Committee and Chairman of the Benefits Subcommittee, the 
Honorable Jack Quinn who formerly represented that tropical 
haven known as Buffalo, New York. Congressman Quinn is now 
President of Erie Community College demonstrating once again 
there is life after Congress.
    Welcome back to the Hill. Welcome to this Committee. And 
you are recognized for the customary 5 minutes.

    STATEMENT OF HON. JACK QUINN, PRESIDENT, ERIE COMMUNITY 
     COLLEGE, WILLIAMSVILLE, NY (FORMER MEMBER OF CONGRESS)

    Mr. Quinn. Thank you, Mr. Chairman. And, boy, is there ever 
life after Congress, Mr. Chairman.
    Let me begin by stating that I have a prepared statement 
that will be part of the record today and I will limit my 
remarks to just 5 minutes verbally with you.
    Mr. Chairman and Ranking Member Filner, I never thought I 
would talk about the good old days, but I am able to now and I 
see this room and my office just down a door or two in Cannon. 
Bob was my Ranking Member when I chaired.
    And, Bob, I officially want to thank you for those years 
and your work on behalf of veterans.
    Mr. Stearns, a lot of hours here and Mr. Michaud, the new 
folks I do not know, but I want to officially from the world of 
education talk with you for a few minutes today about the bill 
that is for discussion.
    And rather than the other folks who will testify here this 
morning, it looks like I am the only one that can talk about 
the education side of this.
    Mr. Miller and Mr. Filner, that is what I would like to do. 
You all will figure out how it is paid for and what ends up 
getting passed. I am out of that business for now. I wish you 
luck and tell you we need the help. But I would like to spend a 
few minutes just talking about the education side of this, if I 
may.
    And as President of Erie Community College in Buffalo, New 
York, we are about, just to give you a snapshot for the 
Members, we are about 20,000 students at our college on three 
separate campuses, downtown Buffalo, the suburbs north of 
Williamsville and south in Orchard Park in Hamburg, 
represented, by the way, by three able Members of Congress for 
our college-wide system.
    And hearing the number this morning of a million veterans 
who are unemployed is enough to have all of us sit up and pay 
attention.
    What I wanted to briefly say is that all schools face, as 
we look at our veteran students, the transition from wearing a 
uniform under the most difficult circumstances to the 
relatively unstructured civilian student life.
    I understand that Assistant Secretary Jefferson has a 
project underway to revise the Transition Assistance Program. 
Hope he considers the concept that will help a veteran 
determine whether he or she is ready for college and choose the 
right school.
    I also welcome the bill's Reauthorizations of Licensing and 
Credentialing Program.
    And one of the things I worry about as the President of our 
college in Buffalo at Erie Community and the State University 
of New York (SUNY) system in New York is to provide the right 
education and training opportunities to meet these needs of 
local employers by making it clearer what a veteran needs to 
meet in these local licensing requirements. We can structure 
the program the way they are the most needed.
    And, Mr. Chairman, I do want to point out the questions 
already talked about, the skills that are transferable with our 
veterans and would point out something you already know, that 
the United States Military is the largest training operation in 
the world.
    And I would submit to you now in the education field, 
particularly at a community college, almost all of what we 
train our veterans for are transferrable. Unlike a 4-year 
institution, at a community college, you already know, whether 
it is Erie Community College in Buffalo or anywhere across the 
country, our work many times deals with training and on-the-job 
readiness. And I would submit to the Committee, the full 
Committee that our veterans are ready to do just that.
    Recent numbers show that community colleges remain a top 
choice for veterans using their GI Bill education benefits. 
When we go back and look at numbers in 2008 and 2009, 40 
percent of veteran students used their education benefits at a 
community college. Almost half of our veterans are at community 
colleges.
    That is important for us as the educators and it is 
important for all of you as you put the local laws in place.
    Two of the things that always crop up when you talk about 
community colleges as I have learned across the country is the 
low cost of the program and the convenience that they offer as 
driving forces in the decisions that veterans make, low cost at 
the community level and the convenience.
    Veterans will also cite the fact that community colleges 
offer hands-on relevant education and training programs that 
build on their skills. We are constantly working at our level, 
Mr. Chairman, with employers to ensure that the programs, they 
offer students the skills they need for high-demand occupations 
in their areas.
    Community colleges are also extremely nimble in their 
ability to quickly create and modify education and training 
opportunities to stay abreast of those skills.
    And if I may just divert from my written testimony for a 
minute, Mr. Chairman, to share a quick story to give you a 
glimpse, the full Committee of the kinds of training and the 
flexibility community colleges are able to afford.
    There is a utility company up in Buffalo called National 
Grid. They surveyed their workers and found out that the, for 
want of a better word, Mr. Chairman, the pole climbers, the 
folks who get up in bad weather and have to do the things that 
need to be done were going to be retiring very, very soon.
    They came to us to do a skills program in the classroom for 
these folks and they came out and put up a dozen poles on our 
property, put these men and women that were trained for it, 20 
to a class, up on a pole, facilitated the kind of weather that 
you might see in the northeast and Upstate New York on rainy, 
windy days when the power goes out.
    Mr. Chairman, we now run 23 students a year through that 
program. They are certified through the utility company and 
they get out and they are making $22.50 an hour for starters. 
Those become vibrant citizens in our economy in Upstate New 
York and western New York State. And they are helping the 
company and they are helping themselves.
    As I checked our last group of 22, seven were veterans, Mr. 
Chairman. We got them in the school cheap. They are trained and 
they are on the job.
    And I would submit to you this morning that as you look at 
the educational opportunities for a lot of the bills that come 
through the Committee, to keep our community college sector in 
mind. We can expand on the training our vets have received. We 
can match it in most cases and we are able to put men and women 
from the veteran services and from the veterans' ranks on the 
job and working.
    Mr. Chairman, as I mentioned, my remarks are in the record 
fully. And I stand ready to assist the Committee in any way I 
can and answer any questions you may have this morning. Thank 
you.
    [The prepared statement of Mr. Quinn appears on p. 22.]
    The Chairman. Thank you so much for your testimony.
    It is great that you used that one scenario with the 
linemen because one of the things that we would like to focus 
on and you talked about community colleges having the ability 
to be nimble and transform their training programs quickly. We 
have so many of the returning veterans today that are trained 
for certain jobs that could quickly transfer into the private 
sector but because of certification requirements but for the 
different States, and we hope to be dealing with the Governors 
Association and others to help.
    Do you see a way that the community college system could 
help in shortening the training? Obviously the training for a 
medic, a combat medic----
    Mr. Quinn. Uh-huh.
    The Chairman [continuing]. I would say they work under 
pressure. They know their job, but do not necessarily need to 
go through a year's worth of education to become an EMT 
(emergency medical technician).
    So can the community colleges adapt and is that a good 
theory to be working upon?
    Mr. Quinn. Mr. Chairman, the answer is unequivocally yes, 
that they can. And I will give you another quick example to the 
medic.
    When I used to fly back and forth to Buffalo for the 12 
years I was here, I met some mechanics at U.S. Airways and they 
were vets. And this mechanic came to me and said, you know, Mr. 
Quinn, I could take that plane apart and put it back together 
on the tarmac out there and it took me 2 years to get certified 
and licensed through U.S. Air to work on the thing. And that is 
crazy.
    So the short answer is yes, absolutely. I do not speak for 
our national association, the American Association of Community 
Colleges (AACC), but I am involved and close to them. They are 
located right here in Washington, D.C.
    One of the things that we could do is to expand what we do 
at Erie, our affiliations. Right now at our school, 20,000 
students, we have over 400 affiliations and that means we are 
with on the front end some high schools, on the other end some 
4-year institutions. We just signed up with Syracuse University 
and Cazenovia College in Upstate New York.
    We arrange these affiliations, which is nothing more than 
an MOU, a memorandum of understanding, so that our teachers, 
our educators take a look at what was trained, the courses that 
were taken, the training that was taken, and they are able to 
certify or verify that it is almost the exact same thing we are 
teaching in classes and in training at the college.
    Once that is done, I think the paperwork that needs to 
follow would be quick. It would not take long at all. The rub 
is going to be, Mr. Chairman, and we do it often with DoD and 
others, the rub is going to be that we can certify, we can 
somehow check off the box that says it is the same kind of 
training and education.
    I can tell you from hands-on experience it is, it is the 
same old story. We need to get ourselves worked through the 
paperwork.
    The Chairman. You mentioned 4-year institutions, high 
schools. What about vocational technical centers?
    Mr. Quinn. Absolutely.
    The Chairman. Privates?
    Mr. Quinn. Private colleges, sure.
    The Chairman. It is just a matter of assessing and 
certifying?
    Mr. Quinn. It is, Mr. Chairman, and let me point out one 
other thing to you is we looked nationally and locally for our 
community colleges. It is becoming more and more competitive 
for students and we are recruiting students. The beauty for us 
at the 2-year schools is if they choose, they can go on to a 4-
year school. All those courses, all those credits are 
completely transferable.
    The Chairman. Thank you.
    Mr. Quinn. Thank you.
    The Chairman. Mr. Filner.
    Mr. Filner. I just want to thank Mr. Quinn for being here. 
When you are kids together, it is hard to call someone Mr. 
President.
    Mr. Quinn. I have been called worse.
    Mr. Filner. I am glad to see that you finally got an honest 
job. I think what you do in the community college is exactly 
the answer to many of the problems facing our veterans.
    Mr. Quinn. Thank you.
    Mr. Filner. I was critical of Mr. Miller's bill on one 
level, but certainly the retraining part is critical and we 
have to figure out ways to do this more efficiently, as you 
point out.
    Mr. Quinn. Sure.
    Mr. Filner. I hope you will help us with the AACC. Is 
that----
    Mr. Quinn. Exactly.
    Mr. Filner. It has usually been the State. We worked on 
this when you were in Congress. The State certification 
agencies and the bureaucracies there protect the licenses so it 
is hard to break through the bureaucracy. We have to figure out 
a way to do that.
    I appreciate that you are still working on veterans issues 
and you have not aged a bit. You always looked older than all 
of us anyway.
    Mr. Quinn. I think I mean to say thank you. I am not 
certain, Mr. Filner.
    Mr. Filner. But thanks for what you are doing----
    Mr. Quinn. Thank you.
    Mr. Filner [continuing]. And helping us.
    Mr. Quinn. And if I may, Bob, just to say officially on the 
record I stand ready to assist with our association and any 
others that could be of help to the full Committee as you work 
on these issues.
    The Chairman. Thank you.
    Any other Members have questions for Mr. Quinn?
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    It is good to see you again----
    Mr. Quinn. Thank you.
    Mr. Michaud [continuing]. Mr. Quinn. Just a couple of quick 
questions. You talked about the student population. How many 
veterans are currently attending?
    Mr. Quinn. Our school, I will give you a raw number, we can 
figure the percentages later, right now we have about 20,000 
students. That is an unduplicated head count. That is everybody 
who is doing training and degree and certificate programs.
    We hope to be in September at our school at almost 1,000 
vets. So of the percentage that is out there, it is not high 
enough. But as we look at other schools in our area, in the 
western New York State area, we sort of lead the league with 
that because I have hired a director of veterans' affairs. I 
have a club at each of my three campuses, a place for the vets 
to meet, those kinds of things.
    But it is growing and as the colleges, I believe, become 
more competitive for students, I think you are going to see a 
lot of other places engage themselves in the marketing to 
veterans and it is about time. So I would say that number, 
1,000 out of 20,000, not enough. But when the word gets out, I 
think those numbers will go up.
    Mr. Michaud. And how flexible is the college? For instance, 
if you have soldiers coming back from Iraq or Afghanistan, it 
might not be at the same time----
    Mr. Quinn. Right.
    Mr. Michaud [continuing]. That the school enrollment 
begins. How flexible is the college as far as trying to meet 
the needs of the veterans to meet their schedule as well?
    Mr. Quinn. Certainly. And I am prejudiced because I work at 
one. But I would say that is probably a hallmark of all 
community colleges is that flexibility.
    For example, like we have what we call our Pathways 
Program. We do not have any dropouts at our college. We have 
stop-outs. If a veteran or any student comes back and cannot 
get the work the first month or 2--and, frankly, Members, that 
happens with some vets. They are not ready to go to school when 
they come back. They will start it up. They will get going at 
it, but then they find out that for a lot of reasons, they are 
not able to continue.
    We do not call any of those folks dropouts. They are stop-
outs. We bring them back. Our Pathways Program is an ungraded 
system that keeps the students, all students, but veterans in 
particular in the classroom so we do not lose them, so they 
come back. No penalty and no cost.
    And when they are ready to get going to the second phase at 
our college, and most all the community colleges do it, and we 
know that in the best interest of the students and us, it is 
better to have them involved in the college in one way or 
another.
    So I am sold on this whole community college sector like it 
is just the way to go. It is flexible enough. Four years. God 
bless them. They have a mission as well and it is important. 
But for now I just thought when I saw the topic today it is a 
perfect match.
    Mr. Michaud. And what are some of the problems that you are 
hearing from the veterans when they come back as far as, you 
know, do they have childcare at the college for those that 
might have children? What are some of the problems that they 
are talking about?
    Mr. Quinn. Of course veterans present extra special 
problems, but daycare is one because we deal with 
nontraditional students. I had three students last May graduate 
in their eighties from our college. We run a nighttime daycare 
at our school, for example, for our moms.
    Mr. Filner. Do they need daycare?
    Mr. Quinn. Pardon me?
    Mr. Filner. Do they need daycare?
    Mr. Quinn. No, they did not, but their children did.
    So they present lots of problems. Some of them are 
financial.
    What I found out was after dealing with the bureaucracy in 
the Army, the Navy, or the Air Force and Coast Guard, Marines, 
they came back to another educational bureaucracy. When it came 
time to sign up, they talk to the admissions people, to the 
bursar, the financial aid. We have somebody that handles 
Montgomery GI at our school.
    And it is confusing. I mean, sometimes on purpose it is 
confusing if you are part of the government. And so what we 
have tried to do is streamline all of that. I have a one-stop 
phone call at our place where you get the bursar, admissions, 
financial aid, and a counselor all at the same time.
    So I guess the specific answer, besides all of some 
emotional problems, Bob mentioned homelessness. Back at our 
school, we are hooked in with the VA Hospital. We are hooked in 
with the transitional housing assistance that we worked on some 
years ago so that the whole package is deliverable because 
veterans come back and present extra special problems.
    And normally we would not offer housing assistance 
necessarily to a student who is applying at our school. We have 
cobbled it all together in one spot at the Veterans Club.
    Mr. Michaud. So about 20 seconds left. What major industry 
are they being retrained for? Is there any specific sector?
    Mr. Quinn. We are not seeing one that jumps out at us, but 
I am surprised to see a number getting into nursing that were 
not necessarily medical in the service. But as they come back, 
because that is a sector, at least in our economy in Upstate 
New York, where there is a lot of hiring going on, so we are 
finding a transfer to the medical field.
    And then a lot of our trades, our building trades that we 
do and our construction and green construction fields are 
attractive to a lot of folks because the jobs seem to be 
available.
    Mr. Michaud. Okay. Thank you very much.
    Mr. Quinn. Thank you.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    The Chairman. Ms. Brown.
    Ms. Brown. Thank you.
    Mr. Quinn. Hello.
    Ms. Brown. Hi.
    Mr. Quinn. How are you, Corrine?
    Ms. Brown. Thank you for your presentation.
    Mr. Quinn. Thank you.
    Ms. Brown. My real job in life was I worked 16 years at 
Florida Community College in Jacksonville.
    Mr. Quinn. Yes.
    Ms. Brown. So I am a community college lover.
    Mr. Quinn. Thank you.
    Ms. Brown. I do have a couple of questions. I am a 
community college lover. I wanted that to be on the record. But 
I guess my question is, the graduation rate is about 12 
percent----
    Mr. Quinn. Uh-huh.
    Ms. Brown [continuing]. Which is not that high. But I 
understand that education is life-long learning and like you 
said, they move in and out. But what kind of employment 
placement, what kind of success do you have in that area 
because this is a major problem?
    Mr. Quinn. Sure.
    Ms. Brown. I mean, when we have so many veterans returning, 
they cannot get jobs. I mean, it is just amazing. People who 
are out defending our country and when they come back, their 
job is no longer there. And I am so very happy that we have the 
educational opportunities for them to train and retrain, but 
what kind of success do we have?
    Mr. Quinn. Not good enough, frankly. I was lucky enough to 
be invited to President Obama's summit on community colleges 
about 4 or 5 months ago and participated. The President talks 
about those graduation rates not being high enough and what we 
are going to do to address those.
    All the community colleges across the country are involved 
in that. But what I would like to point out in answer 
specifically to your question is I take a little bit of umbrage 
with those graduation numbers all the time. Before you came in, 
I talked a little bit about a pole climbing program we have at 
our college. It sounds silly, but what it does is it puts 
people to work at good-paying jobs with health benefits and a 
small retirement, by the way.
    So I guess, Corrine, I would not get ourselves as focused 
on the graduation rates as much as job placement. And in some 
of these jobs that I am talking about, there is no need for a 
4-year education. There is in some cases not even a 2-year 
associate's degree. Oftentimes it is training. It is the proper 
training and the licensing and the certificate that is 
necessary.
    And so we have at our place and in the SUNY system in New 
York across our 30 community colleges, we have put new emphasis 
on just that, job training and job placement.
    Ms. Brown. Right. I think that is what I was saying because 
when you say graduation----
    Mr. Quinn. Right.
    Ms. Brown [continuing]. That is saying that we are looking 
for a 2-year degree----
    Mr. Quinn. Uh-huh.
    Ms. Brown [continuing]. Or a 4-year degree.
    Mr. Quinn. Uh-huh.
    Ms. Brown. But job placement, you could train, let's say 
you are a nurse----
    Mr. Quinn. Yes.
    Ms. Brown [continuing]. Or you are a technician and you 
have been placed in a job, so the most important thing is, and 
also the support that we give those students while they are in 
school----
    Mr. Quinn. Of course.
    Ms. Brown [continuing]. You know, what kind of support, the 
counseling, the, you know, the assistance----
    Mr. Quinn. Uh-huh.
    Ms. Brown [continuing]. The childcare, the transportation, 
all of those things are important.
    Mr. Quinn. Correct. And the only other thing I would add, 
if I may, is one other thing you will find at the community 
college ranks across the country and New York State is a huge 
emphasis on internship opportunities. We are finding out that 
when we----
    Ms. Brown. Internships, co-ops, all of that.
    Mr. Quinn. Exactly. When we can intern our vets with very 
possibly another veteran who owns some businesses or a 
workforce site in our locality geographically that it is a more 
instant match for us. So we work pretty closely with the 
businesses.
    Ms. Brown. Well, I think one of the weaknesses that I think 
we have over all this is that we probably need to help more 
veterans go into businesses so that they can hire veterans. And 
so I hope that is one of the components of your----
    Mr. Quinn. Yes.
    Ms. Brown [continuing]. Institution. And I guess the last 
thing, what we are doing is that we are taking funds from one 
area for veterans' programs to put it in another. I guess we 
are making decisions about age groups or who will get the 
services.
    How do you feel about that?
    Mr. Quinn. Now that I view this Committee from this angle--
--
    Ms. Brown. Yes, that is what we are talking about.
    Mr. Quinn [continuing]. I like it better, by the way, and I 
would suggest that we find ways to include more money, that 
just to take from Peter to give to Paul and move around, while 
that is useful in an exercise, that is important because you 
get a chance to check on the programs, update them, make sure 
they are working.
    One of the things we are hearing with these numbers that 
the Chairman mentioned when I first walked in this morning, a 
million veterans unemployed is something that Member Bishop 
talked about. Let's get Labor, Defense, VA all together so that 
all, whatever amount of money we are going to have is used the 
right way.
    Ms. Brown. Well, in closing, you know, I look at it like my 
grandmother's sweet potato pie. We have made sure that we have 
funded veterans' programs.
    Mr. Quinn. Uh-huh.
    Ms. Brown. And we are doing big business, but we are not 
doing business with veterans. And that is still in my opinion 
one of the weaknesses as we move forward----
    Mr. Quinn. Sure.
    Ms. Brown [continuing]. Because if I am a veteran, I am a 
disabled veteran and I have a business, then I am going to hire 
other veterans.
    Mr. Quinn. Right.
    Ms. Brown. So we need to put more emphasis and focus on 
that area.
    Mr. Quinn. Thank you.
    Ms. Brown. But thank you very much.
    Mr. Quinn. Thank you.
    Ms. Brown. And it has been a pleasure----
    Mr. Quinn. Thanks.
    Ms. Brown [continuing]. Working with you in the past and 
look forward to----
    The Chairman. Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. I will just be brief.
    Jack, welcome back. It is good to see you. Are you playing 
any basketball or----
    Mr. Quinn. Not as much.
    Mr. Stearns. What is the unemployment rate in Buffalo?
    Mr. Quinn. Buffalo right now we are hovering a trifle above 
9 percent. It is about 8.7, 8.76, I think?
    Mr. Stearns. Okay. The fact that the economy is weak across 
the Nation, and perhaps Upstate New York is no exception, has 
that impacted the funding for the community college from the 
State, which creates sort of extra problems for you?
    Mr. Quinn. Sure. The way that we are funded in New York 
State is that it is the 3 percent that funds the college. A 
third comes from the local companies sponsoring us, in my case 
Erie, a third comes from the State through SUNY, and a third is 
tuition.
    We all know the situation in the States with the economy. 
We have had a cut the last 2 years and had to raise tuition 
$300 a year last year.
    Mr. Stearns. Now, does that kind of economic stress on your 
college, does that affect the services that you can provide? 
For example, are you able to provide, I think you mentioned in 
your opening statement, counseling service for these veterans 
when they come in?
    Mr. Quinn. Yes.
    Mr. Stearns. Because I think one of the key areas is that 
program you talked about, your Stop-outs instead of dropouts is 
very good and tries to improve in some way to say to the 
veterans there is a pathway for you here, do not be 
discouraged.
    But is the fact that some of the veterans need counseling, 
is that a part of the community college and how is that being 
affected with this economy?
    Mr. Quinn. Well, I want to be clear, Cliff, too, that when 
we are stressed and stretched with funding problems, it affects 
all of our students, not just veterans.
    Mr. Stearns. Okay.
    Mr. Quinn. The rub here, of course, as we have said this 
morning and for many years here, our veterans need some special 
attention.
    Mr. Stearns. Right.
    Mr. Quinn. And sometimes when the funding is cut, it is 
disproportionately affected for these veterans. And I have to 
say yes. But I do want to be clear when we talk about funding 
from our situation, States and the local county, that hurts all 
of our students.
    The big thing we are seeing, just again on an education 
note, Mr. Chairman, having to rely on adjunct professors more 
and more instead of full-time professors. And at the end of the 
day, that affects your counseling, that affects the advice that 
students get for courses, for financial aid, all of it.
    So we are stressed and we do not make a distinction except 
I know what you are talking about when you say it is veterans.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Quinn. Thank you, Cliff.
    The Chairman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman and Ranking Member, for 
holding this hearing.
    And, Mr. Quinn, thank you for your service on both sides. 
You are in a very unique position.
    And I, like my colleague, Ms. Brown, am an unabashed 
supporter of community colleges. I think it is a fabulous 
transition. And, of course, this group of folks is the best 
trained and just some of our best folks and we should be 
getting them in. And so I am concerned about this too.
    We work hard on both sides making sure that DoD, that we 
are preparing folks to come out. And I noticed in your written 
testimony you talk about the TAP Program, something we 
struggled with here.
    And I am kind of interested in this because you are making 
the observation that maybe we should make this mandatory like 
the Marine Corps. And I was looking at that.
    Is that because these guys that are Marines, and being an 
Army veteran, I find it hard to believe that there is a higher 
quality of person coming out of there, but is the Marine Corps 
doing a better job of preparing their folks because of that 
program in your opinion?
    Mr. Quinn. I do not know a better job, but I would have to 
say to you when they make it mandatory, it is more complete. I 
am not mincing words because we have some great Army vets. In 
fact, my testimony includes two verbatims, two sort of life 
stories, one Army, one Navy.
    Mr. Walz. Right.
    Mr. Quinn. So I would not say necessarily better. But it is 
like high school. When you force everybody to take driver's ed, 
they are hopefully going to be better drivers. In this case----
    Mr. Walz. The one we struggle with, though, is because you 
understand you are getting into that issue of the commander's 
prerogative to be able----
    Mr. Quinn. Yes.
    Mr. Walz [continuing]. To lead and to be able to demand 
this. But our take is, and I have seen this as being on that 
side of things and having out-processing lectures that were 
voluntary or mandatory----
    Mr. Quinn. Uh-huh.
    Mr. Walz [continuing]. If it is time to go home, I know 
where they are going. So I very much appreciate that. I just 
wanted to kind of get and see. That is something we are 
struggling and looking with.
    But, again, thanks for the work you are doing.
    Mr. Quinn. Thank you.
    Mr. Walz. Fabulous.
    Mr. Quinn. Appreciate the comment too.
    Mr. Walz. I yield back.
    The Chairman. Mr. Donnelly, do you have a question?
    Mr. Donnelly. No, I do not.
    The Chairman. Any other questions?
    [No response.]
    The Chairman. Mr. Quinn, thank you so much. It has been a 
pleasure to visit with you.
    Mr. Quinn. Thank you.
    One disclaimer. I want to be careful that I do not speak 
for AACC. I hope I did not get them in any trouble here this 
morning.
    The Chairman. You said that. We understand.
    Mr. Quinn. Thank you.
    The Chairman. We will be making contact with them.
    Mr. Quinn. Thank you.
    The Chairman. Thank you very much.
    And Mr. Filner said he will handle the trouble part for 
you.
    Members, we have 18 votes, 16 amendments, a motion to 
recommit, a final passage. Here is what I suggest we do.
    We have testimony from everybody for my bill that is before 
us today and the other bills, excuse me, all three bills. So I 
suggest in view of the fact that it may be an hour and a half 
or 2 hours before we are able to return that we take all the 
testimony into the record, hopefully not offend anybody who is 
here today to testify, and call our business done for the day.
    Does anybody have an objection?
    [No response.]
    The Chairman. And if there are any questions for the record 
that need to be added, we will be happy to enter those, 
statements, letters of support, questions for the record.
    No objections. Done. This hearing is adjourned.
    [Whereupon, at 10:46 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. Jeff Miller, Chairman,
                  Full Committee on Veterans' Affairs
    Good morning, ladies and gentlemen. This hearing will come to 
order.
    Let me get right to the heart of what this hearing is about. Six 
hundred thousand veterans were added to the unemployment rolls in June. 
That brought the total number of America's out-of-work veterans to over 
1 million--a staggering figure. It is that fact alone that brings us 
here today to accomplish one goal. Namely, to put America's veterans 
back to work.
    Having a job provides a sense of self-worth and accomplishment. It 
is our workforce that makes America strong. It makes us exceptional, 
and it also averts many of the perils that befall our societies, such 
as homelessness. It is therefore incumbent upon us all to find 
solutions and act.
    Otherwise reaching goals such as eliminating homelessness among 
veterans will be next to impossible if we don't reduce unemployment at 
the same time. There is no better preventive measure than a good-paying 
job.
    We have already set in place the building blocks for many of 
today's veterans. Through the Post-9/11 GI Bill, eligible veterans are 
getting college degrees, enrolling in on-the-job training programs, and 
training in specialized fields such as aviation in higher numbers than 
ever before. Nevertheless, the breadth of the joblessness problem in 
today's economy leads me to the conclusion that additional steps are 
needed.
    To that end, I believe we must advance proposals which embrace 
certain fundamental objectives.
    First, we must re-evaluate programs that are meant to acquaint our 
veterans with the civilian workforce. We owe it to these men and women, 
and every taxpayer, to ensure that these programs are effective and 
that measures are in place to gauge their viability. If they do not 
work, we must find programs that will.
    Second, we must give unemployed veterans of past wars temporary 
access to education programs to acquire skills, especially in fields 
with a shortage of workers, such as technology and health care. Two-
thirds of our unemployed veterans are between the ages of 35 and 64, 
and many face skills and training deficits.
    Veterans of past conflicts are more likely to face significant 
financial obligations such as mortgages and college tuition for their 
children. Imagine looking forward to retirement, only to have to begin 
again.
    Third, we must enforce the job protections in place for veterans, 
especially those who serve in the National Guard and Reserve--14 
percent of whom are currently unemployed.
    Fourth, we must work with the States to eliminate the regulations 
that hinder job growth. Our veterans have skills that are of value in 
the private sector and are being wasted due to unduly burdensome laws 
and regulations across the States.
    It is time for the States to recognize the quality of military 
training and the power of reciprocity.
    We cannot do this in a vacuum, however. We have an obligation to 
these men and women, and to all Americans, to decrease our debt, lower 
taxes that impede growth, and assure employers, especially the small 
businesses that are the engine of our economy and that produce 40 
percent of new jobs, that help and leadership is on the way.
    The Veterans Opportunity to Work Act (the VOW Act), which I have 
introduced, is my attempt at a comprehensive solution. It embraces all 
of the objectives I have just outlined. The VOW Act critically 
evaluates existing programs to ensure they are effective.
    It focuses retraining assistance for veterans of past conflicts, 
who have fewer options available to them.
    It strengthens re-employment rights to Guard and Reserve members. 
And it seeks to eliminate licensing and credentialing barriers 
preventing veterans from immediately applying skills learned in the 
military to a civilian job here at home.
    Furthermore, recognizing that America's small businesses, many of 
which are veteran-owned, are suffering more today than other companies, 
I have also introduced legislation that would provide small businesses 
with a tax credit toward the purchase of capital equipment for every 
unemployed veteran they hire.
    Again, we must think outside the box to solve this problem, and 
H.R. 2433, the VOW Act, is my starting point.
    We have two other bills on the agenda that will round out our 
discussion this morning. First is H.R. 1941, introduced by our 
colleague from Georgia and former Member of this Committee, Sanford 
Bishop, and then we have H.R. 169 introduced by Congressman Stearns.
    So, without further delay, let's get to work.
    I now recognize the distinguished Ranking Member, Mr. Filner for 
any opening remarks he may have.

                                 <F-dash>
   Prepared Statement of Hon. Bob Filner, Ranking Democratic Member,
                  Full Committee on Veterans' Affairs
    Thank you, Chairman Miller.
    All too often we read about the results of veterans who come home--
often with the invisible wounds of war--who can't find the dignity and 
security that work provides. We read about it in skyrocketing suicide 
statistics, problems at home, substance abuse, and even in rising 
homelessness among our veterans.
    Today we are here to review H.R. 169, H.R. 1941, and H.R. 2433. 
Each bill seeks to address the needs of our veterans. H.R. 169 will 
require VA to highlight the VETSuccess site on its main internet page. 
I support making the VA Web site as user friendly as possible.
    I appreciate the Chairman's efforts to make meaningful change in 
the lives of our veterans and their families with this legislation and 
his own bill--H.R. 2433--The Veterans Opportunity to Work Act of 2011.
    But, I also think we need to be clear about what H.R. 2433 IS and 
what it IS NOT. This bill IS NOT a jobs bill where veterans can go get 
a job--instead it is a retraining bill. This bill does very little to 
create jobs for veterans, regardless of how my Republican colleagues 
may portray it. This bill IS about completely contracting out the 
Transition Assistance Program (TAP). While I fully support widening the 
opportunities for our veterans by providing them additional skills, I 
also believe that we need to be realistic about our discussion and how 
we frame this bill.
    Unemployment among veterans, and all of our citizens, is a national 
tragedy. A recent article in the Los Angeles Times dated July 11, 2011, 
stated that ``Unemployment among recently returned veterans, already in 
double digits, is poised to get worse as more soldiers return from Iraq 
and Afghanistan.'' According to the Bureau of Labor Statistics, 
unemployment among Gulf War-era II veterans aged 18-24 was nearly 21 
percent in 2010.
    In order to pay for this legislation, this bill would extend higher 
loan fees on our veterans that utilize the VA Home Loan Guarantee 
Program and then use those monies to pay for the monthly stipend and 
retraining costs created by this bill.
    By not allowing the higher loan fee rates to expire to much lower 
rates and by extending the higher rates for 10 years we are effectively 
taxing a specific group of veterans for using a benefit. The House 
Majority Leader, Mr. Cantor of Virginia, said on July 11, 2011, that 
``We don't believe you ought to be raising taxes right now in this 
recession, in this economy [.]''
    If this is the belief of our colleagues, then we must be consistent 
in how we apply these beliefs. If allowing the Bush tax cuts to expire 
was characterized as a tax increase, then not allowing these higher 
rates to expire can also be characterized as a tax increase. We need to 
be crystal clear as to what we are doing, and say in plain language 
that we are raising taxes on veterans.
    I want to be transparent about this ``shell game'' and how we are 
paying for it, so we are not back here later in this session or in 
following sessions talking about how we had some ``unintended 
consequences'' and we then have to find some way to pay for the pay-
for.
    Simply put, in order to pay for this bill, we will charge our 
veterans more for the use of their benefit in one program so we can pay 
for other veterans and their benefits in another program.
    In this economy where our national housing market is in the tank, 
where we, on this Committee, have worked so very hard to protect our 
veterans from home foreclosures, we must carefully weigh our actions 
and be sure that the actions we take are not going to make it more 
difficult for a veteran to purchase or keep a home.
    But, we also consider today a viable alternative. A bill that will 
require broad job skill training for all servicemembers returning home.
    H.R. 1941, a bill introduced by Mr. Bishop of Georgia which I have 
cosponsored, is the companion bill to Senator Murray's S. 951. This 
comprehensive bill requires servicemembers to learn how to translate 
the skills they learned in the military into the working world. It will 
also ensure that more veterans have jobs waiting for them when they 
leave the military by streamlining the path to private and Federal 
employment.
    This bill requires the Department of Labor to take a hard look at 
what military skills and training are translatable into the civilian 
sector, and work to make it simpler for our veterans to get the 
licenses and certification they need.
    I fully support and endorse H.R. 1941. The companion to this bill 
passed the Senate Committee unanimously and my hope is that we will 
have the same result here in the House. I believe, as does Chairwoman 
Murray, that this bill is a huge step forward in re-thinking the way we 
treat our men and women in uniform after they leave the military.
    Finally, I have questions regarding all of the bills, as I am sure 
many of my colleagues do. First, are these the policies we want to 
pursue? What impact will extending these fees have on the housing 
market and the ability of our veterans to utilize the VA home loan 
program? Why didn't these bills follow the normal course of going to 
the Subcommittee of jurisdiction and how much do they cost--where are 
the CBO cost estimates?
    I look forward to working with my colleagues on both sides of the 
aisle as we address these bills and other legislation that may assist 
our veterans in finding employment when their service is over.
    Thank you, and I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Cliff Stearns

    Thank you Chairman Miller for having this hearing today.
    Unemployment is at a record high today and unemployment in our 
veteran community is higher than at any time that I can remember.
    My bill, H.R. 169, would require that the Department of Veterans 
Affairs have a drop-down menu titled ``Veterans Employment'' on its 
homepage. This drop menu would have links to VetSuccess, USA Jobs, Job 
Central and other appropriate employment Web sites. It would also 
require the Secretary of VA to advertise and promote the VetSuccess Web 
site and require direct outreach to Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) veterans.
    This bill comes out of discussions I had with the VA over the past 
couple of years and from constituents in my district returning from 
their service to our country. While the VA has addressed some of my 
concerns, they continue to miss the underlying reason for my bill: 
customer service and usability. The VA should have a clear link that 
will take veterans to a listing of jobs based on zip code.
    Today, if you are a veteran and are looking for a job whether in 
the private sector or within the government, it can be a daunting task. 
For example, when you go to the VA homepage under quick links is 
``Federal Jobs for Veterans.'' After clicking on the link, you are 
taken to more barricades. This link will take you to ``FedsHireVets'' 
(feds hire vets), which offers useful tips, but you still have to go 
through one more step to access government jobs within your area.
    To find private sector jobs, you have to click on the Veteran 
Service dropdown menu and navigate multiple links on the VA homepage. 
There is no simple link for Veteran Employment or Veteran Jobs. Instead 
you need to know that the VetSuccess program is what you're looking 
for. If you're unfamiliar with veteran programs, you may not know that 
VetSuccess is the web portal for jobs. The title isn't clear. 
VetSuccess might be the link for successful navigation of the VA 
bureaucracy. The title should clearly and simply mention jobs or 
employment.
    Then, once you get to the VetSuccess webpage you must register to 
look up jobs. You can't just type in your zip code and get a list of 
jobs in your local area. My office had to fill out an excessively long 
form, and then monitor our spam filter to catch the verification e-
mail, click the e-mail to prove we're human and then we waited for a 
follow up e-mail to get our password to finally access the VetSuccess 
job portal.
    This is too high a hurdle for something so simple as a job listing 
for veterans. You should be able to go to this site, type your zip code 
and get the job listings. When I go to Monster.com, I don't need to 
register to do a quick lookup for the jobs listed within a specified 
proximity of my home in Ocala. VetSuccess needs to have similar 
accessibility like Monster: immediate access to job listings by zip 
code without hiding behind vague titles in a crowded drop menu with 
excessive registration requirements.
    According to the Bureau of Labor Statistics, unemployment for all 
veterans was 8.2 percent. The purpose of my bill is to get the VA 
thinking about how they should properly address the needs of Veterans, 
provide good customer service and lower the barriers to information. 
This type of employment information should be easily accessible in plan 
language on the VA's homepage and the VetSuccess program should provide 
these job listings without making veterans jump through more hoops. Our 
veterans have sacrificed so much for our safety and liberties. I want 
to ensure our veterans a smooth transition into our workforce after 
their service. Again, I appreciate Chairman Miller having this hearing 
today and I look forward to what we can accomplish and learn from the 
testimonies of our witnesses.

                                 <F-dash>
                Prepared Statement of Hon. Corrine Brown

    Thank you, Mr. Chairman and Ranking Member Filner, for calling this 
legislative hearing today. It is important to discuss the legislation 
that is before this Committee.
    The bills before us today are H.R.169, by my neighbor from Florida, 
Mr. Stearns. This would emphasize veterans' employment on the VA Web 
site. Considering the amount of information available on so many 
issues, it is important to include this information where our veterans 
can access it best.
    H.R. 1941, the Hiring Heroes Act of 2011 is introduced by my good 
friend Sanford Bishop. Thank you, Mr. Bishop, for explaining your 
legislation to the Committee. This legislation would provide 
rehabilitation and vocational benefits to severely wounded members of 
the armed forces. I am pleased to be cosponsor of the legislation and 
look forward to voting for this bill in the full house.
    The third bill is where I have some concerns. I commend the 
Chairman for bringing a bill to allow veterans to receive retraining 
assistance. However, with unemployment of veterans at an all time high, 
and those coming back from the wars in Iraq and Afghanistan not having 
jobs, I don't understand the reasoning of limiting the age of 
eligibility to those between 35 and 60.
    I also don't understand the funding mechanism for the program. In 
this time of budget tightening, and a refusal to discuss tax increases 
for any issue, this bill taxes veterans with higher interest rates to 
pay for more government programs. This legislation doubles the interest 
rates veterans pay for housing loans. Yes the rates have not gone into 
effect yet, but they are law right now, and I am sure in these tough 
economic times our veterans can use the estimated $1.6 billion dollars 
this change in law will cost them.
    The Veterans Home Loan Program is one of the homeowner programs 
that works in this country. The foreclosure rate is much lower than 
anything in the private sector and I don't think changing this program 
will do anyone any good.
    I don't need an explanation of this provision, Mr. Chairman. I can 
recognize hypocrisy when I see it. You are trying to balance the budget 
on the backs of our veterans.
    I cannot support this legislation as it is currently written. I 
hope that by the time we mark up this bill in Subcommittee and then 
full Committee, the provision is fixed.
    Thank you and I yield back the balance of my time.

                                 <F-dash>
                  Prepared Statement of Russ Carnahan

    Chairman Miller, Ranking Member Filner, thank you for hosting this 
legislative hearing to discuss the important issue of putting America's 
veterans back to work.
    In this tough economy, jobs are hard to come by, particularly for 
many of our veterans. Our young returning combat soldiers, and those 
severely injured during military service, have the hardest time 
securing employment. We are also seeing difficulty in older vets 
obtaining employment as well.
    It is vitally important to ensure that our veterans are able to 
secure and maintain employment after returning to civilian life. Not 
only does employment offer salary and benefits, employment also 
provides an important sense of purpose and aides in the transition from 
military to civilian life. We in Congress must work with relevant 
stakeholders to guarantee that opportunities exist for our veterans to 
obtain gainful and meaningful employment.
    I want to thank our witnesses for being here today, and have a few 
questions for them.
                                 <F-dash>
           Prepared Statement of Hon. Sanford D. Bishop, Jr.,
         a Representative in Congress from the State of Georgia

    I would like to thank Chairman Miller, Ranking Member Filner, and 
the rest of the House Veterans Affairs Committee for inviting me to 
testify today on behalf of the Hiring Heroes Act of 2011.
    As you are aware, the current economic environment has left 
millions of Americans out of work and has made it exceptionally 
difficult for them to find jobs. This problem is particularly acute in 
our Nation's veterans community.
    Recent data has shown that veterans, especially those who have 
served in Iraq or Afghanistan, face an unemployment rate of over 27 
percent after leaving the service. This situation is simply 
unacceptable and represents a failure of us here in Congress to help 
our Nation's veterans. As the war in Iraq comes to an end and we begin 
to draw down our forces in Afghanistan, even more veterans will be 
looking for work, further compounding this problem.
    With this in mind, I thank Senator Murray for taking the lead on 
this issue and originally introducing the Hiring Heroes Act of 2011 in 
the U.S. Senate.
    It is also for this reason that I am proud to have introduced, with 
the help of Ranking Member Filner, Chairman Bill Young of the Defense 
Appropriations Subcommittee, Ranking Member Norm Dicks of the full 
Appropriations Committee, and Representative Jerry McNerney, the House 
companion bill to Senator Murray's legislation. Here in the House, the 
measure has already garnered 55 cosponsors, representing Republicans 
and Democrats from both ends of the political spectrum.
    I would like to add that this legislation has gained the support of 
various veterans and servicemember groups including the American 
Legion, the Veterans of Foreign Wars, the Military Officers Association 
of America, and Military Families United.
    The Hiring Heroes Act has already passed favorably out of the 
Senate Veterans Affairs Committee. It is my hope that this Committee 
will follow the Senate's lead and quickly send this measure to the full 
House for its consideration.
    Now let me discuss the details of the legislation:

    <bullet>  Along with modernizing Federal hiring practices, this 
bill makes participation in the Transition Assistance Program mandatory 
for separating servicemembers.
    <bullet>  It requires that each servicemember receive an 
individualized assessment of jobs for which they may qualify.
    <bullet>  It creates new programs aimed at improving the transition 
from servicemember to civilian life, including a competitive grant 
program for nonprofit organizations that provide mentoring services and 
job training that lead directly to job placements.
    <bullet>  It also aims to break down barriers between the 
Department of Defense, the Department of Labor, and the Department of 
Veterans Affairs and makes it easier for servicemembers to smoothly 
transition to veteran status.

    Finally, I want to stress that we have an obligation to help our 
veterans land on their feet when they come home and help them find good 
paying jobs to support their families. These are the members of our 
society that have risked the most for our country. Our current system, 
although well-intended, simply does not focus enough on our 
servicemembers transition into civilian life.
    Providing more support to our Nation's veterans is simply the right 
thing to do, and I look forward to working with my colleagues on both 
sides of the aisle and passing the Hiring Heroes Act of 2011.
    I thank the Committee for inviting me to testify, and I am happy to 
respond to any questions.

                                 <F-dash>
           Prepared Statement of Hon. Jack Quinn, President,
               Erie Community College, Williamsville, NY

    Good morning Chairman Miller, Ranking Member Filner, and to each of 
the Members of the Veterans Affairs Committee.
    As you probably know, as a former Member of this Committee I spent 
12 years here representing the people around Buffalo, NY and I come 
before you today as one who shares your passion for America's veterans 
and to speak on behalf of H.R. 2433, the Veterans Opportunity to Work 
Act.
    I am now the President of Erie Community College in Buffalo, NY and 
I see, on a daily basis, the value of education and training. 
Therefore, I believe that preparing veterans to work in tomorrow's job 
market may be the most important thing this Committee could do for 
those who defend us.
    To that end, I am delighted that Chairman Miller has chosen to 
introduce a bill whose centerpiece is to re-skill the largest cohort--
632,000--of our 1 million unemployed veterans--those who are between 
the ages of 35 and 60.
    The Veterans Opportunity to Work Act would provide up to 12 months 
of Montgomery GI Bill benefits, currently about $1,426 per month, to 
enroll in full time training or education leading to employment in a 
high-demand field as determined by the Secretary of Labor.
    To ensure these funds are being well-spent, the bill also requires 
participants to certify their attendance on a monthly basis, just as it 
has been done for as long as I have been around the Montgomery GI Bill.
    Mr. Chairman, I would like to briefly mention a challenge that all 
schools face with some of our veteran students and that is the 
transition from wearing a uniform, often under the most difficult 
circumstances, to the relatively unstructured civilian student life. I 
understand that Assistant Secretary Jefferson has a project underway to 
revise the Transition Assistance Program and I hope he considers 
content that will help a veteran determine whether he or she is ready 
for college, and choose the right school. I also note that the bill 
would make TAP mandatory. I remember from my time on the Committee, 
that too many servicemembers were not attending TAP. I would hope the 
other services would join the Marine Corps in making TAP mandatory.
    I also welcome the bill's reauthorization of a licensing and 
credentialing program. One of the things I worry about is the ability 
of Erie Community College to provide the right education and training 
opportunities to meet the needs of local employers. By making it 
clearer what a veteran needs to meet local licensing requirements, 
schools can structure their programs more efficiently.
    One more thing about the State employment services--during my time 
on the Committee, I remember hearing from the Veterans Service 
Organizations that too often, DVOPS and LVERs were being diverted away 
from serving veterans to non-veteran work. Therefore, I strongly 
support the bill's provision that would prohibit full time DVOPS and 
LVERs from serving non-veterans.
    I also see that the bill meets PAYGO requirements and in today's 
fiscal climate, that too is a good thing. But as an educator, I would 
like to focus on why Chairman Miller's approach, using community 
colleges and tech schools, is on target.
    As I speak in such strong support for this bill, I cannot reiterate 
enough how community colleges are a perfect fit for veteran students. 
Recent numbers show that community colleges remain a top choice for 
veteran students using their GI Bill educational benefits. In a 2008 
article analyzing Department of Veterans Affairs data, the Chronicle of 
Higher Education found that nearly 40 percent of veteran students used 
their educational benefits at a community college in FY 2007. A more 
recent Chronicle article reported that five of the top fifteen 
institutions serving veteran students using Post-9/11 GI Bill benefits 
were community colleges. Veterans often mention the low cost of 
community college programs and the convenience they offer as driving 
factors in their decision about what institution to attend.
    Veterans also often cite the fact that community colleges offer 
hands-on, relevant education and training programs that build on the 
skills they learned in the military to help them find good jobs. In 
many respects, veterans are much like any other worker seeking the 
skills they need to transition from one job to another. Community 
colleges constantly work with employers to ensure that the programs 
they offer give students the skills they need to qualify for high-
demand occupations in their area. Community colleges are also extremely 
nimble in their ability to quickly create or modify educational and 
training programs to stay abreast of the skills needs of emerging 
industries.
    Community colleges are striving to increase the numbers of students 
who leave their institutions with postsecondary educational 
credentials, and to be successful in that effort we must effectively 
serve veteran students. Numerous studies have stressed the importance 
of attaining a credential to the student's short and long-term career 
prospects. H.R. 2433 is right to focus on degree or certificate 
attainment in a high-demand occupation.
    In other respects, however, returning veterans are not like other 
transitional workers. Many veterans of active duty bring with them 
special needs that tax the resources of our institutions as we try to 
address them. Community colleges have expressed the need for greater 
support in serving veteran students. The increased complexity of the 
veterans benefits programs and the unique physical, mental and other 
challenges faced by veterans of the recent wars are often cited as the 
reasons for this increased need. The Federal response has featured very 
modest efforts to meet this need, including the creation and funding of 
a new Centers of Excellence for Veterans success program in the Higher 
Education Act and an ongoing TRIO program in this area. Private efforts 
in this area, including the American Council on Education's ``Serving 
Those Who Serve'' initiative, have had some impact as well. Increasing 
resources for institutions that serve significant numbers of veteran 
students should continue to be a top priority of the Federal 
Government.
    As you know, today's military requires a high school diploma or a 
general equivalency diploma to enlist. Veterans, as the community in 
general, come from a variety of educational backgrounds and therefore 
require and desire a diverse support system which is unique to the 
community college environment. At ECC our students have a variety of 
educational academic programs and support options to choose from. If a 
student graduated from high school long ago and need to brush up their 
skills before taking a placement test, the RISE Program (Reading 
Incoming Students for Excellence) is a workshop which prepares students 
in math skills, English skills and college success skills. In addition, 
the Pre-Collegiate Studies Program, a more in depth program 10 week 
program exists to build a student's skills before they enter a 
classroom. These programs are typical of the Community College 
environment. Community Colleges offer developmental courses (foundation 
courses) to those students whose academic skills are below the 
proficiency necessary to begin a particular program. Tutoring centers 
exist to support these efforts, as well as, to provide support during 
the completion of their academic program.
    While community colleges have Veteran Affairs Departments, 
advisement and counseling centers they also develop relationships with 
community partners, such as the VA Hospital and Vet Centers to refer 
veterans for services when appropriate.
    One of the most important attributes of a low cost community 
college education is that a student can re-enter the workforce within 2 
years or less by completing a 2 year degree or an even sooner if they 
complete one of the many certificate programs offered. Many students 
transfer to 4 year institutions after benefiting from their community 
college experience.
    I would also like to submit for the record two student veteran 
stories, in their own words. And before I close, I would like to say 
again that it is my hopes that H.R. 2433 gets the support it needs to 
become a reality, especially for Veterans Day this year which falls on 
11/11/11.

                              Tina Terhune

    ``My name is Tina Terhune, I am 34 and am originally from Buffalo, 
NY . Visiting my father in Oregon, he sent me to a semester at college 
after graduating early from high school at age 17. Upon completion, I 
was hooked to continue my education. I joined the Navy at 19, 
completing 4 years active duty and 3 years of Reserves in Buffalo on 
Porter Ave. I knew I was headed for ECC City Campus. I had a 10 year 
laid-out plan to start ECC towards my intended degree into forensics. 
Taking classes at an affordable institution like ECC, my out-of-state 
and military classes processed into electives easier than I thought. I 
hit a snag with my Military money, but was encouraged to continue. 
Faculty guided me towards scholarships and awards available to me for 
female veterans to scholarships and awards to where I exactly served. I 
continue to get pointers on monetary help available to me. Another 
reason I knew I was going to continue with ECC was my mother who 
studied here in the late 1980's. She brought her two daughters to 
class, and I paid attention. Now, I'm packing a full time schedule with 
my club interests. I'm secretary for the vets club at ECC. I play with 
the physical HyPer Club when schedule permits. I'm also trying to 
revitalize the Theatre Club that used to exist as that was my major in 
high school. I'm glad that I didn't think my education stopped after my 
military money ran out. There were other avenues I was not aware of. 
I'm glad for the ECC veteran advisors that kept me to steer the Course! 
I hope to pay it forward with other veteran students who think they 
cannot continue. I'm living proof and I feel I'm working on a second 
chance!

                             Glenn A. Scott

    I'm a 51-year old Army Veteran who served two terms in the United 
States Army. During and after the Army I had a long bout with 
addictions. With alcohol being my drug of choice, I hit several bottoms 
and attended many rehabs.Upon coming to Buffalo from Martinsburg, West 
Virginia on January 4, 2008, I drank and roamed the streets of Buffalo 
homeless. I sought minimal treatment because I wasn't ready to give up 
drinking. Then a moment of clarity hit me. I entered my latest rehab on 
June 18, 2009 and have been sober ever since, with hope and ambitions 
today. I'm currently enrolled in Erie Community College, and I have 
completed two semesters earning a 3.33 GPA. My major is Business/Office 
Management. I'm the Vice President of the Veterans Club in the Student 
Government Association. I have a list of names of people who have 
helped me get to where I'm at today--starting with the college's 
president, countless faculty members, and all the teachers that I've 
had the privilege to study under. ECC's slogan, ``Start Here, go 
anywhere'' really caught my attention. While roaming the streets of 
Buffalo, I'd see that slogan on the side of metro buses. I'd say to 
myself that someday I'd like to go there. Because anywhere is better 
than where I've been, well, that day is here. Today I'm a full time 
student with many goals and ambitions. It took a 12-step program, a 
higher power, and ECC to change my life, and for that, I'm forever 
grateful.''

                                 <F-dash>
         Statement of Curtis L. Coy, Deputy Under Secretary for
        Economic Opportunity, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

    Good morning, Chairman Miller, Ranking Democratic Member Filner, 
and Members of the Committee. I am pleased to present the views of the 
Department of Veterans Affairs (VA) on three bills that would affect 
rehabilitation, training, education, and employment programs for 
Veterans and Servicemembers. I am accompanied today by Mr. John Brizzi, 
Deputy Assistant General Counsel, Office of the General Counsel.
H.R. 2433
    H.R. 2433, the ``Veterans Opportunity to Work Act of 2011,'' would 
make changes in the laws relating to the employment and training of 
Veterans. We are pleased to provide our views regarding sections 101 
and 501 of the bill, but respectfully defer to other departments or 
entities, including the Department of Defense (DoD), the Department of 
Labor (DoL), and the Government Accountability Office, regarding the 
bill's remaining provisions.
    Section 101(a) would require, during the period beginning on 
January 1, 2012, and ending on March 31, 2014, the Secretary of Labor, 
through the Secretary of Veterans Affairs, to provide for monthly 
payments of retraining assistance to certain eligible Veterans. The 
number of eligible Veterans who could participate in this program would 
be limited to 45,000 during fiscal year 2012 and 55,000 during the 
period beginning on October 1, 2012, and ending on March 31, 2014.
    Section 101(b) would provide, generally, that each Veteran 
participating in the retraining program would be entitled to up to 12 
months of retraining assistance, as determined by the Secretary of 
Labor. Such assistance could only be used by a Veteran to pursue a VA-
approved program of education or training on a full-time basis offered 
by a community college or technical school that would lead to an 
associate degree or a certificate and is designed to provide training 
for a high-demand position, as determined by the Secretary of Labor.
    Under Section 101(c), each Veteran participating in the retraining 
program would be responsible to self-certify to VA his or her 
enrollment in an approved program of education for each month in which 
he or she participates in the program.
    Section 101(d) would provide that the amount of the retraining 
assistance under the program would be the amount payable under the 
Montgomery GI Bill-Active Duty.
    Section 101(e) would define an eligible Veteran as a Veteran who is 
at least 35 years of age but not more than 60 years of age; was last 
discharged from active-duty service in the Armed Forces with an 
honorable discharge; as of the date of application for assistance, has 
been unemployed for a period of time determined by the ``Secretary'' 
(unspecified, but most likely the Secretary of Labor), with special 
consideration given to a Veteran who has been unemployed for at least 
26 continuous weeks; is not eligible for assistance under chapters 30, 
31, 33, or 35 of title 38, United States Code; and applies for the 
retraining assistance by not later than October 1, 2013.
    Subsections (f), (g), (h), and (i) of section 101 would provide, 
respectively, for:

    (1)   a report by the Secretaries of Labor and Veterans Affairs (to 
be submitted not later than June 1, 2014) that would reflect specified 
data or information regarding the retraining program's usage by 
Veterans; (2) entry into an agreement between DoL and VA for the 
purpose of carrying out the retraining program; (3) funding for 
payments under the retraining program from VA's readjustment benefits 
account; and (4) the termination of the authority to make payments 
under section 101 to be effective on March 31, 2014.

    While VA supports the intent of providing Veterans with educational 
retraining assistance, VA has several significant concerns regarding 
the implementation and administration of this proposed benefit.
    It is unclear whether DoL or VA would make the final eligibility 
determination under the program. As written, we interpret the language 
to indicate that DoL would accept applications and determine 
eligibility. However, VA would be required to determine if an 
individual is eligible for certain VA educational assistance programs 
prior to issuing payments. This decision could potentially change DoL's 
initial eligibility determination.
    Additionally, it would be very cumbersome for VA to determine that 
an individual remains ineligible for VA educational assistance while in 
receipt of the training assistance. This would require VA to review 
eligibility under multiple educational assistance programs prior to 
issuing each payment. This is even more complicated since individuals 
may become eligible or lose eligibility for certain assistance without 
notice. For example, under the Post-9/11 GI Bill (chapter 33) program, 
there is a transfer of entitlement provision that allows a 
Servicemember to transfer entitlement to a dependent. Although VA could 
determine that a Veteran is not receiving chapter 33 benefits from 
their Servicemember-spouse at the time of application, the Veteran 
could subsequently become eligible under chapter 33 based on a transfer 
of entitlement. A Veteran could also potentially gain eligibility under 
the Survivors' and Dependents' Educational Assistance (chapter 35) 
program as a surviving spouse or a spouse of a Veteran.
    Under the proposed legislation, Veterans eligible for education 
benefits under chapters 30, 31, 33 or 35 will not be eligible for the 
retraining assistance. However, Veterans eligible for benefits under 
chapter 32 of title 38, United States Code, or chapters 1606 and 1607 
of title 10, United States Code would be eligible for this new benefit 
because the proposed legislation is silent on whether or not these 
Veterans would be eligible.
    The proposed legislation would provide retraining assistance for 12 
months towards a pursuit of program of education that leads to an 
associate's degree or certificate. However, we note that most 
associate's degrees require 2 years of study.
    It is unclear whether a person who has previously used VA education 
benefits and either exhausted their benefits or reached the end of 
their period of eligibility would be considered eligible for the 
Veterans Retraining Assistance Program. VA recommends adding language 
to the proposed legislation to clearly state the eligibility criteria 
for the program and the agency responsible for making the 
determination.
    The proposed legislation requires that VA enter into an agreement 
with DoL to carry out the program. VA would need to modify existing 
processing systems to accommodate the Veterans Retraining Assistance 
Program as well as hire and train 120 additional FTE in year one and 
another 12 employees in year two (132 total FTE) to accommodate the 
anticipated increase in claims received. This estimate is based on the 
assumption that applications are received evenly throughout the year. 
However, given the annual limit on the number of beneficiaries, VA 
expects that the bulk of the workload would be received at the start of 
each fiscal year. To process this surge (estimated 65 percent of annual 
limits) in applications, we would need 62 permanent employees, as well 
as additional temporary employees at the beginning of each year. 
Without this level of FTE and temporary employees to administer the 
proposed benefit, the timeliness for processing of Veterans' claims for 
other VA education programs would be severely and negatively impacted.
    To accommodate the time needed to develop an agreement, hire and 
train new employees, and amend or develop systems for processing the 
benefit, VA recommends an effective date of June 1, 2012.
    We will provide an estimate of the cost of enactment of section 101 
for the record.
    Section 501(a) of the bill would amend 38 U.S.C. Sec. 3710(a)(12) 
to extend the Secretary's authority to guarantee loans secured by 
stocks or certificates in cooperative housing. Currently, the law is 
scheduled to expire on December 21, 2011. Subsection (a) would extend 
the provision through December 21, 2016.
    VA supports subsection (a), provided Congress identifies the 
necessary cost offsets. Allowing the authority to expire would limit 
housing options available to certain Veterans, especially those living 
in larger, urban housing markets.
    VA estimates that enactment would result in insignificant costs the 
first year, $0.8 million over the period of FY 2012 through FY 2016, 
and $2.2 million over 10 years.
    Section 501(b) would amend 38 U.S.C. Sec. 3729(b)(2) to maintain 
statutory loan fees at their current rates through October 1, 2021, and 
to delay the time frame in which the loan fees are scheduled to be 
further reduced. Currently, loan fees applicable to various types of 
loans, including initial loans with little or no down payment, loans 
for which Veterans contribute more substantial down payments, and 
subsequent loans, are all scheduled to decrease as of October 1, 2011. 
Another reduction of such fees is set to occur on October 1, 2013. If 
enacted, subsection (b) would extend through calendar year 2021 the 
current fee structure for the first two types: initial loans with 
little or no down payments and loans for which Veterans will contribute 
more substantial down payments. Subsequent-use loans would not be 
affected, and would decrease as currently scheduled.
    VA does not oppose enactment of subsection (b). If Congress were to 
allow the funding fees to reduce as scheduled under current law, the 
program would require a larger appropriation to cover expected loan-
subsidy costs associated with newly guaranteed loans.
    VA estimates enactment of subsection (b) would provide loan-subsidy 
savings in the amount of $206.9 million in the first year, $1.0 billion 
over 5 years, and $2.1 billion over 10 years.
    Section 501(c) of the bill would amend section 501 of the Veterans' 
Benefits Improvement Act of 2008 (Public Law 110-389) by delaying the 
sunset date affecting temporary increases in the maximum guaranty 
amounts. In 2004, as part of Public Law 108-454, Congress amended 38 
U.S.C. Sec. 3703(a)(1) by adding a new subparagraph (C) to redefine the 
maximum guaranty amount as ``the dollar amount that is equal to 25 
percent of the Freddie Mac conforming loan limit determined under 
section 305(a)(2) of the Federal Home Loan Mortgage Corporation Act (12 
U.S.C. Sec. 1454(a)(2)) for a single-family residence, as adjusted for 
the year involved.'' Public Law 110-389 temporarily increased such 
amounts, through December 31, 2011, to the greater of either 25 percent 
of the Freddie Mac conforming loan limit or 25 percent of 125 percent 
of the area median price for a single-family residence. In no case, 
however, could a guaranty amount exceed 25 percent of 175 percent of 
the Freddie Mac conforming loan limit. If section 501(c) were enacted, 
the temporary increase would be extended through December 31, 2014. If 
it were not, the definition of the maximum guaranty amount would again 
be limited, as of January 1, 2012, solely to 25 percent of the Freddie 
Mac conforming loan limitation.
    Provided Congress identifies necessary cost offsets, VA supports 
extending the temporary increase in the maximum guaranty amount enacted 
in the Veterans Benefits Improvement Act of 2008.
    VA estimates enactment of subsection (c) would result in an 
increase to loan subsidy costs by $642,000 in the first year, $6.0 
million over 5 years, and $24.6 million over 10 years.
H.R. 1941
    We are pleased to provide our views on sections 2, 3, 4, 5, and 9 
of H.R. 1941, the ``Hiring Heroes Act of 2011,'' but respectfully defer 
to the views of the DoD regarding sections 6, 7, and 12; the DoL 
regarding sections 8, 11, and 13; and the Office of Personnel 
Management (OPM) regarding section 10.
    Section 2 of the bill would extend through 2014 a provision enacted 
in Title XVI of Public Law 110-181, known as the Wounded Warrior Act, 
which authorizes VA to provide rehabilitative services and assistance 
to certain severely disabled active-duty Servicemembers in the same 
manner as to Veterans. VA proposed a similar provision in its draft 
Veterans Benefits Improvement Act of 2011, transmitted to Congress on 
May 19, 2011. While the provisions differ in the length of the 
extension, VA supports section 2.
    Section 3 of the bill would amend section 3116(b)(1) of title 38, 
United States Code, to expand VA's authority to pay employers for 
providing on-job training to Veterans. Under current law, VA is 
authorized to make payments to employers for providing on-job training 
to Veterans who have been rehabilitated to the point of employability 
in certain cases. By removing the requirement that Veterans be 
rehabilitated to the point of employability before VA can make payments 
to employers for providing on-job training, this section would allow VA 
to make these payments to employers for providing on-job training to 
many more Veterans. VA supports this provision. VA estimates benefit 
costs to be $792,000 for the first year, $4.2 million for 5 years, and 
$9.1 million over 10 years.
    Section 4 of the bill would provide for additional rehabilitation 
programs for persons who have exhausted rights to unemployment benefits 
under State law. Under section 3102 of title 38, United States Code, as 
amended by this section, a person who has completed a chapter 31 
rehabilitation program would be entitled to an additional 
rehabilitation program if the person meets the current requirements for 
entitlement to a chapter 31 rehabilitation program; has, under State or 
Federal law, exhausted all rights to regular compensation with respect 
to a benefit year; and satisfies certain other requirements.
    Section 4 of the bill would also amend sections 3105 and 3695 of 
title 38, United States Code, to limit the period of an additional 
rehabilitation program to 24 months, but also to exempt Veterans 
pursuing an additional rehabilitation program from certain other 
limits. Under current section 3105, a rehabilitation program may not be 
pursued after 12 years following a Veteran's discharge or release from 
active service. Under current section 3695(b), assistance under chapter 
31 in combination with certain other provisions of law is limited to 48 
months. Section 4 of the bill would amend sections 3105 and 3695(b) to 
make these limitations inapplicable to an additional rehabilitation 
program.
    VA supports this provision because it would help VA serve more 
Veterans in need of assistance. VA estimates benefit costs to be 
$51,000 in the first year, $294,000 for 5 years, and $724,000 over 10 
years.
    Section 5 of the bill would amend section 3106 of title 38, United 
States Code, to require an assessment and followup on Veterans with 
service-connected disabilities who participate in VA training and 
rehabilitation. In addition, section 5 would require VA to ascertain 
the employment status of a participating Veteran and assess his or her 
rehabilitation program not later than 180 days after completion of, or 
termination of, his or her participation in that program, and at least 
once every 180 days thereafter for a period of 1 year. VA supports this 
provision. We believe that providing follow-up is an important 
endeavor. No benefit costs would be associated with this provision. VA 
estimates administrative costs to be $4.7 million in the first year, 
$24.2 million over 5 years, and $55 million over 10 years. In addition, 
VA estimates that $250,000 will be needed in FY 2012 to develop an IT 
solution to automate follow-up activity.
    Finally, section 9 of the bill would require VA, DoD, and DoL to 
select a contractor to conduct a study to identify equivalencies 
between skills developed by members of the military through various 
military occupational specialties (MOS) and the qualifications required 
for private-sector civilian employment positions and report on the 
results of the study. This section would also require Federal 
Government departments and agencies to cooperate with the contractor. 
VA, DoD, and DoL would be required to transmit the report with 
appropriate comments to Congress.
    Section 9 would also require DoD to use the results of the study 
and other information to ensure that each member of the military 
participating in the Transition Assistance Program (TAP) receives an 
assessment of the various private-sector civilian employment positions 
for which the member may be qualified as a result the member's MOS. DoD 
would have to transmit the individualized assessment to VA and DoL to 
use in providing employment-related assistance in the transition from 
military service to civilian life and to facilitate and enhance the 
transition.
    VA does not support this provision to enter into a joint contract 
to identify civilian equivalencies of military jobs. Software 
applications that analyze military occupational data and provide 
equivalent civilian jobs currently exist. Therefore, VA believes a 
contract to conduct a study to identify this information is not 
necessary. VA is currently utilizing web software available in the 
public domain that translates military skills to equivalent civilian 
jobs. VA will continue to closely monitor the marketplace to identify 
software that may improve our ability to identify civilian equivalents 
of military jobs.
    VA estimates that if section 9 of H.R. 1941 were enacted there 
would be no benefit cost to VA; however, general operating expense 
costs would be approximately $175,000.
H.R. 169
    H.R. 169 would require that, not later than 60 days after the date 
of enactment of the Act, the Secretary include on the main page of VA's 
Internet Web site a new hyperlink with a drop-down menu entitled 
``Veterans Employment'' that will include direct access to the 
VetSuccess Internet Web site, the USA Jobs Internet Web site, the Job 
Central Web site, and other employment Web sites that focus on jobs for 
Veterans. It would also require the Secretary to promote awareness of 
the VetSuccess Internet Web site by advertising in national media and 
to inform Veterans of Operation Iraqi Freedom and Operation Enduring 
Freedom of the VetSuccess Internet Web site through outreach efforts.
    VA supports efforts to increase Veterans' awareness of the 
VetSuccess.gov Web site and to promote opportunities for employment of 
Veterans through links to appropriate resources. Although we believe we 
are currently accomplishing the purpose of this legislation, we do not 
object to the enactment of this bill. VA's Vocational Rehabilitation 
and Employment (VR&E) program currently conducts outreach to OEF/OIF 
Veterans through the Coming Home To Work (CHTW) initiative and through 
other avenues such as Disabled Transition Assistance Program (DTAP) 
presentations. VR&E informs Veterans of the VetSuccess.gov Web site 
through CHTW and by other means, including DTAP presentations and the 
distribution of QuickBooks.
    One-time costs associated with advertising in national media 
outlets are estimated to be $900,000 during the first year. To conduct 
a recent media campaign, VA's Education Service spent approximately 
$380,000 on developing concepts and materials, identifying and 
targeting appropriate markets, and developing a marketing plan. An 
additional $520,000 was spent on implementation of the marketing plan. 
Implementation included advertising on radio, social media sites 
including Facebook and MySpace, Internet sites including Google and 
Yahoo, print outlets and text messaging services. VA would expect to 
incur similar costs to conduct a media campaign to advertise the 
VetSuccess.gov Web site.
    No additional costs are related to conducting outreach to OEF/OIF 
Veterans to inform them of the VetSuccess.gov Web site because this is 
currently done by VR&E. No additional costs are associated with 
including hyperlinks on the VA main Internet page because VA has 
already budgeted for these types of minor changes.
    Mr. Chairman, this concludes my prepared remarks. Thank you for the 
opportunity to share the Department's views. I would be pleased to 
respond to any questions you or other Members of the Committee may 
have.

                                 <F-dash>
    Statement of Hon. Raymond M. Jefferson, Assistant Secretary for 
  Veterans' Employment and Training Service, U.S. Department of Labor

    Chairman Miller, Ranking Member Filner, and distinguished Members 
of the Committee, I am pleased to appear before you today to discuss 
legislation pending in this Committee aimed at helping our returning 
servicemember transition back to civilian life.
    The Veterans' Employment and Training Service (VETS) proudly serves 
Veterans and transitioning servicemember by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights.
    Secretary Solis has been an incredible source of guidance and 
support, and has made Veterans and VETS one of her top priorities. Our 
programs are an integral part of Secretary Solis's vision of ``Good 
Jobs for Everyone'' and her unwavering commitment to help Veterans and 
their families get into the middle class and maintain financial 
stability. We strive to achieve this vision through four main programs:

    <bullet>  Jobs for Veterans State Grants;
    <bullet>  Transition Assistance Program Employment Workshops;
    <bullet>  Homeless Veterans' Reintegration Programs; and
    <bullet>  Uniformed Services Employment and Reemployment Rights 
Act.

    Your letter of invitation seeks input on three bills: (1) H.R. 169, 
to require the Secretary of Veterans Affairs to include on the main 
page of the Internet Web site of the Department of Veterans Affairs a 
hyperlink to the VetSuccess Internet Web site and to publicize such 
Internet Web site; (2) H.R. 1941, the ``Hiring Heroes Act of 2011''; 
and (3) H.R. 2433, the ``Veterans Opportunity to Work Act of 2011''. I 
will limit my remarks to those provisions of H.R. 1941 that would have 
a direct impact on VETS and the Department of Labor.
    As for the remaining legislation, H.R. 169 would be administered by 
the Department of Veterans' Affairs (VA) and we defer to VA on that 
bill. H.R. 2433 was recently introduced on July 7, 2011, and we have 
not had an opportunity to thoroughly review and formulate the 
Department's views on the legislation in time for this hearing. We 
will, however, provide the Committee with our views in a follow-up 
Statement for the Record.

                H.R. 1941: ``Hiring Heroes Act of 2011''

    Section 6: This section would require the mandatory participation 
of members of the Armed Forces in the Department of Labor's Employment 
Workshop component of the Transition Assistance Program (TAP).
    We believe that all transitioning servicemember who plan to enter 
civilian employment would benefit from attending the Employment 
Workshop, but defer to the Department of Defense (DoD) as to whether it 
should be a mandatory component for all transitioning servicemember.
    Section 7: This section would require DoL to follow-up on the 
employment status of members of the Armed Forces who recently 
participated in TAP. In particular, it would require that DoL contact 
each participating Veteran no later than 6 months after his or her 
completion of the program, and at least once every 90 days thereafter 
over the next 6 months in order to ascertain the Veteran's employment 
status.
    DoL supports the concept of the TAP follow-up, but believes that 
the metrics of our redesigned Employment Workshop would properly 
satisfy this requirement. As you may recall, we recently testified on 
our current initiative to redesign and transform the Employment 
Workshop. As part of the redesign, which is already underway, a 
comprehensive follow-up program will be implemented to track 
participants' success entering the civilian workforce. In particular, 
participants will receive customized coaching by phone or online for 60 
days after they attend the workshop. This will be ``live'' person-to-
person contact and will focus primarily on assisting participants with 
implementing, ``pressure-testing'' (i.e., comparing the written plan 
with the participants' actual desires), and revising their Individual 
Transition Plans. The follow-up component will also incorporate peer 
support techniques. DoL believes that this program may provide the 
information that the Committee desires, and we would like to work with 
the Committee to provide additional information on this initiative.
    Section 8: Among other things, this section would: (1) establish a 
competitive grant program for nonprofit organizations that provide 
mentoring and training to Veterans; (2) require DoL and nonprofit 
organizations to collaborate in order to facilitate the placement of 
Veterans in jobs that lead to economic self-sufficiency; (3) require 
DoL to conduct an assessment of grant performance no later than 18 
months after enactment; and (4) authorize appropriations of $4.5 
million for Fiscal Years 2012 and 2013.
    DoL believes that it currently satisfies the intent of this 
section. We note that this section seems to closely follow the 
parameters of the existing Veterans' Workforce Investment Program 
(VWIP) established under section 168 of the Workforce Investment Act of 
1998. The VWIP provides employment and training support, through grants 
and contracts to service providers, to provide eligible veterans with 
additional assistance to transition to meaningful employment within the 
civilian labor force. It is unclear whether the intent of this section 
differs from the intent of the VWIP. Therefore, we would like to work 
with the Committee to discuss the potential overlap between this 
section and the VWIP.
    Section 9: Among other things, this section would require DoL, DoD, 
and the Department of Veterans Affairs (VA) to conduct a joint study to 
identify any equivalences between the skills developed by members of 
the Armed Forces through various military occupational specialties 
(MOS) and the qualifications required for various positions of civilian 
employment in the private sector.
    Section 9 seems to duplicate existing processes that provide the 
capability to crosswalk Servicemember skills to equivalent civilian 
occupations. We note that there are several tools that meet the need 
for skill equivalencies for separating servicemember, such as the 
Department's Occupational Information Network (O*NET) and DoD's 
Credentialing Opportunities On-Line (COOL). In addition, the TAP 
redesign will include practical exercises to help participants in 
translate their skills, abilities, experience, and training on to a 
resume, as well as create an Individual Transition Plan. We would like 
to work with the Committee to explore ways to strengthen these 
resources and improve the transition of Veterans into civilian 
employment.
    Section 11: This section would require the Department to conduct 
outreach and employment assistance to recently-separated Veterans who 
receive unemployment compensation for more than 105 days.
    The Department supports this section, but requests that the time 
period be changed from 105 days to 15 weeks to coincide with the end of 
a benefit week for purposes of Unemployment Compensation.
    Section 13: This section would reauthorize and modify the 
demonstration program for credentialing and licensing of Veterans 
contained in 38 U.S.C. 4114.
    DoL supports the concept of this section and believes that 
credentialing and licensing Veterans will help in transitioning 
successfully into the civilian sector. This provision does, however, 
raise serious implementation issues.
    Licensing and credentialing are functions performed most often by 
individual States, which means that the demonstration project would 
require DoD to align its military training and assessments to more 
closely match States' civilian licensing requirements. We would like to 
work with the Committee to help resolve these issues so that the 
credentialing and licensing of Veterans can be more successfully 
implemented.
Conclusion
    We are reminded every day of the tremendous sacrifices made by our 
Veterans, Servicemembers and their families. Secretary Solis and the 
Veterans' Employment and Training Service believe that America must 
honor those sacrifices by providing the Nation's bravest with the best 
possible programs and services that we have to offer. We look forward 
to continuing our work with this Committee to do just that.
    I again thank this Committee for its commitment to our Nation's 
Veterans and for providing the opportunity to testify before you. We 
would be happy to work with your staffs to provide technical assistance 
on any of these or future bills, and I would be happy to respond to any 
questions.

                                 <F-dash>
     Supplemental Statement of Ismael Ortiz, Jr., Deputy Assistant 
 Secretary, Veterans' Employment and Training Service, U.S. Department 
                                of Labor

    Chairman Miller, Ranking Member Filner, and distinguished Members 
of the Committee, thank you for the opportunity to present the 
Department of Labor's (DoL or Department) views on an important piece 
of legislation that would significantly impact our Servicemembers: H.R. 
2433, the ``Veterans Opportunity to Work Act of 2011'' (the Act). We 
appreciate your continued support of the Veterans' Employment and 
Training Service (VETS) and look forward to working with Congress to 
help our returning Servicemembers transition back to civilian life.
    To that end, the Department offers the following views on 
provisions of H.R. 2433 that would have a direct impact on DoL and 
VETS. As explained in our analysis, the Department has significant 
concerns with some portions of this bill.
         H.R. 2433 ``Veterans Opportunity to Work Act of 2011''
Section 101_Veterans Retraining Assistance Program:
    Section 101 of the Act would require the Secretary of Labor (the 
Secretary) to provide eligible Veterans with monthly payments of 
``retraining assistance'' to pursue a post-service education at a 
community college or technical school. Although DoL supports the intent 
of this section, we believe the Department of Veterans Affairs (VA) 
should be the lead agency for three reasons. First, the payments are 
funded out of a VA account. Specifically, section 101(h) requires that 
the payments be made from amounts appropriated to the VA's readjustment 
benefits account. Second, the bill would require VA to receive the 
necessary enrollment certifications from participating Veterans. 
Finally, VA is in a better position to determine whether applicants are 
eligible for the program because of VA's access to Veteran's service 
records.
Section 201_Transition Assistance Program (TAP):
    Section 201 would require the Secretary of Labor to contract with 
private entities to provide certain services to members of the Armed 
Forces who are separating from active duty (and their spouses). The 
bill also specifies that the Secretary must enter into these contracts 
within twenty-four months of the date on which H.R. 2433 is enacted.
    DoL has two concerns with this section. First, the twenty-four 
month deadline is far too short. Although VETS intends to transition to 
having all facilitation of the TAP Employment Workshop done by contract 
facilitators, the move will take time. The transition to all 
contractors will take over 2 years to implement fully because of the 
following:

    <bullet>  First, VETS is currently working with a contractor to 
redesign the TAP curriculum that the contract facilitators will 
utilize. In order to maintain stability during the various stages of 
the curriculum redesign of TAP, we believe it most appropriate to 
extend an existing contract that provides VETS with facilitation 
services. It would be unnecessarily complicated to redesign TAP while 
simultaneously transitioning to a new contractor to provide all-
contract facilitators.
    <bullet>  Second, a new award for facilitation services will take 
time to plan, compete, award and execute.
    <bullet>  Third, once a new facilitation contract has been awarded, 
that contractor will need to hire, train, and deploy facilitators
    <bullet>  Finally, Status of Forces Agreements for the new 
facilitation contractor to work in the host countries overseas will 
take months to complete

    In order to continue to provide the Nation's warriors and their 
families with the seamless support they deserve, the timing should be 
revised to provide the Secretary with greater flexibility.
    Second, VETS is concerned that the proposed legislation would 
require the Secretary to contract for services that are already 
assigned by statute to employees in the Disabled Veterans' Outreach 
Program \1\ (DVOP) and Local Veterans' Employment Representatives \2\ 
(LVER) program. Specifically, the bill would reassign the 
responsibility for counseling and placement to contractors.
---------------------------------------------------------------------------
    \1\ Section 4103A(a) of Title 38 of the U.S. Code requires DVOPs to 
``carry out intensive services.'' This broad mandate has been 
interpreted to include counseling.
    \2\ Under section 4104(b)(2) of Title 38, LVERs are required to 
``facilitate employment, training and placement services.''
---------------------------------------------------------------------------
    The DVOP and LVER programs have been very successful, and have 
helped Veterans throughout the United States. In fact, either a DVOP 
specialist or a LVER is out stationed half-time or more in 48 of the VA 
Regional Offices and in 19 satellite offices. The work of these 
individuals helped the Department's Jobs for Veterans State Grants 
(JVSG) Program in providing services to nearly 589,000 Veterans, and 
helped ensure that over 201,000 Veterans found jobs.
    Therefore, due to our concerns regarding the timing of the TAP 
redesign and the conflict this section presents with the statutory 
responsibilities of DVOP and LVER, DoL does not support this section as 
written. However, DoL could support this section if it were amended to 
include more flexibility of time in the implementation of the contract 
facilitators and to preserve the roles and responsibilities of the 
DVOP/LVER positions
Section 202_Mandatory Participation in Transition Assistance Program:
    Section 202 would require the mandatory participation of members of 
the Armed Forces in the Department of Labor's Employment Workshop 
component of the Transition Assistance Program (TAP) unless there is a 
documented urgent operational requirement that prevents attendance. We 
believe that all transitioning Servicemembers who plan to enter 
civilian employment would benefit from attending the Employment 
Workshop, but defer to the Department of Defense (DoD) as to whether it 
should be a mandatory component for all transitioning Servicemembers.
Section 203_Report on Transition Assistance Program:
    Section 203 would require the Secretary of Labor to: (1) report to 
Congress, annually, the number of members of the armed forces eligible 
for assistance under the Employment Workshop portion of TAP who 
participated in the program within 30, 90, and 180 days of being 
separated from active duty, and the percentages of which participated 
in each time frame; and (2) contract out an audit of the program at 
least every 3 years, and submit the results of the audit to Congress, 
VA, DoD, and DoL. This audit would be funded through the JVSG program.
    We believe that the report required in (e)(1) more properly belongs 
to DoD and the Department of Homeland Security (DHS). DoL does not have 
access to the information required in the report. Only DoD and DHS know 
when a Servicemember will be separated from active duty. DoL would 
report Employment Workshop participation information to DoD in order 
for them to note attendance in the Servicemembers' records.
    Since the bill assigns the audit contracting requirement to the 
Secretary of Labor, it appears to require an audit of the Department's 
Employment Workshop, which is the only component under the Secretary's 
direct supervision. As this Committee is aware, TAP is an interagency 
program designed to assist returning Servicemembers as they transition 
back into civilian life. TAP consists of five components and is 
delivered in partnership with DoL, VA, DoD, and DHS. The five 
components include:

    1.  Pre-separation Counseling (3 hours)--This is a mandatory 
component for all transitioning Servicemembers and is provided by the 
military services;
    2.  TAP Employment Workshops (2.5 days)--These are voluntary on the 
part of the transitioning Servicemember and are administered through 
DoL and its State partners;
    3.  VA Benefits Briefing (4 hours)--These briefings are also 
voluntary and administered by the VA;
    4.  Disabled Transition Assistance Program (DTAP) (2 hours)--Also 
voluntary and administered by the VA; and
    5.  One-on-One Coaching--This is a follow-up, provided by the 
military services, to the four components outlined above.

    The TAP Employment Workshop provided by DoL is but one component of 
an interagency program for returning Servicemembers, which addresses 
their unique needs as they prepare to reenter civilian life.
    The Department's redesign of the TAP Employment Workshop, already 
underway, calls for the use of new performance metrics. These metrics 
must be fully integrated and implemented before they can be 
sufficiently evaluated. In particular, the redesign will include 
metrics and gather input from participants at three ``moments of 
truth'':

    1.  At the conclusion of the TAP Employment Workshop--attendees 
will evaluate the delivery, content, approach, resources, and setting;
    2.  During the job search (when attendees are actually applying 
what they have learned)--they will evaluate the relevancy and 
effectiveness of the workshop's content and approach; and
    3.  After securing employment--attendees will be asked how useful 
the workshop was in helping them obtain a job or career opportunity, 
how rapidly the program helped them assimilate into the work culture of 
their new organization, and whether the program helped them become 
positive contributors to their organization.

    The performance metrics for the new TAP Employment Workshop will 
allow for the continual analysis of the workshop and, if necessary, for 
adjustments to be made. We believe the new performance measurement 
system for the DoL Employment Workshop will accomplish the intent of 
the audit provision. Consequently, requiring a separate, outside audit 
every 3 years would not provide a meaningful benefit for the re-
configured TAP Employment Workshop, and could, in fact, detract from 
the implementation of the performance metrics.
    Moreover, we note that the Department's Office of the Inspector 
General currently conducts audits of the Employment Workshop program. 
We believe that this audit could fulfill the Congress's intent, as 
would the Comptroller General review in Section 205, which we discuss 
later. If an additional audit is needed, we believe it would properly 
fall under the jurisdiction of the Government Accountability Office, 
rather than being contracted for by the Secretary of Labor, as required 
by the bill. Therefore, we do not support this section.

Section 204_Transition Assistance Program Outcomes:
    Section 204 would require the Secretaries of Labor and DoD to 
jointly develop a method to assess the outcomes for individuals who 
participate in the Transition Assistance Program. DoL supports the 
intent of this section but notes that the Secretary of VA should also 
be included because subparagraph (f)(3) asks for outcomes associated 
with education benefits that the VA has responsibility for tracking.

Section 205_Comptroller General Review:
    Section 205 would require the Comptroller General of the United 
States to conduct a review of the TAP Employment Workshop and submit 
the results and recommendations for improving the program in a report 
to Congress. DoL supports this section and believes this section 
eliminates the need for the audit required by Section 203 of the Act.

Section 301_Reauthorization and Improvement of Demonstration Project on 
        Credentialing and Licensure of Veterans:
    Section 301 would reauthorize and expand the demonstration project 
that links military skills to civilian jobs through licensing and 
credentialing. DoL supports the intent of this section, but requests 
that the dollar limit be removed. The Department believes it is 
unlikely that a sufficiently rigorous project could be completed for 
less than $180,000. The Department also requests that the potential 
entities for this project be expanded to include all public and private 
entities to allow for the selection of the best proposal. Finally, the 
Department requests that the submission date for the report to Congress 
be extended to 120 days after the close of the fiscal year to allow 
time for the project to be evaluated.

Section 302_Inclusion of Performance Measures in Annual Report on 
        Veteran Job Counseling, Training, and Placement Programs of the 
        Department of Labor:
    Section 302 would create new performance metrics to track the 
employment rate of Veterans who received services from all DoL-
administered job training programs. The provision would also require 
that States track veterans' average salaries and credential attainment. 
The section would also require States to significantly modify and 
expand their processes to collect information.
    The Employment and Training Administration tracks program outcomes 
based on a set of common performance measures for entered employment, 
retention and average earnings for all workforce system customers, 
including Veterans. The Department does not support this provision as 
written because it would in effect create a separate performance system 
for serving Veterans.

Section 303_Clarification of Priority of Service for Veterans in 
        Department of Labor Job Training Programs:
    Section 303 would further clarify Priority of Service under section 
4215 of title 38 U.S.C. and expand what is required in the DoL VETS' 
Annual Report. The update to the definition of Priority of Service is 
in line with the definition that appears in our regulations at 20 CFR 
1010.200(b). DoL would support this change.
    DoL also supports the intent of Section 303's expansion of VETS' 
Annual Report. The bill would require VETS to include: (1) an analysis 
of implementation of providing priority of service; (2) whether the 
representation of Veterans in such programs is in proportion to the 
incidence of representation of Veterans in labor market, including 
within groups that the Secretary may designate for priority under such 
programs, if any; and (3) performance measures to determine if Veterans 
are receiving priority of service and being fully served by DoL job 
training programs. Under the current Priority of Service regulations, 
DoL tentatively plans to collect additional information to provide data 
on Priority of Service in DoL programs.

Section 304_Evaluation of Individuals Receiving Training at the 
        National Veterans' Employment and Training Services Institute:
    Section 304 would require that all Disabled Veteran Outreach 
Program Specialists (DVOP) and Local Veteran Employment Representatives 
(LVER) pass a certification test at the end of their National Veterans 
Training Institute training (currently operated by the University of 
Colorado at Denver). The Department supports this section because it 
will enhance our ability to track performance but requests an effective 
date of 180 days to allow time to make required changes to courses.

Section 305_Pilot Program on the Use of Veterans Employment and 
        Training Grant Funds to Provide Direct Training Services to 
        Unemployed Veterans:
    Section 305 would require the Secretary of Labor to carry out a 3-
year program to make grants to and enter into contracts with any of the 
ten States with the highest unemployment in the Nation. DoL does not 
support this section as written. The Department believes that Veterans 
have access to training under the Workforce Investment Act and 
therefore the diversion of funds from the JVSG for a secondary training 
program is unnecessary.
    WIA offers comprehensive employment services, including job 
counseling, job search and referrals, resume preparation, and other 
assistance. WIA also provides training through community colleges and 
other training providers for those in need of a credential or need to 
change or upgrade their skills. These services are easily accessed 
through WIA's network of nearly 3,000 One-Stop Career Centers 
nationwide, and Veterans receive priority of service for WIA programs 
and all other DoL-funded employment and training services.

Section 306_Requirements for Full-time Disabled Veterans' Outreach 
        Program Specialists and Local Veterans' Employment 
        Representatives:
    Sec. 306 of the proposed bill would add additional language barring 
full-time DVOPs and LVERs from performing non-Veteran-related duties. 
It also adds a requirement that DoL conduct regular audits to ensure 
compliance with this prohibition, and says that if there are 
violations, then a State's grants can be reduced. We believe the 
additional language is unnecessary. The current law, as well as VETS 
policy guidance, already makes clear that the role of DVOPs and LVERs 
is to help veterans find employment, and the audit requirement would 
needlessly divert scarce administrative resources. We recommend that 
the Committee strike Section 306 and maintain the current language in 
Chapter 41 of Title 38 of the U.S. Code.

Section 307_Report on Findings of the Department of Defense and 
        Department of Labor Credentialing Work Group:
    Section 307 would require a joint report by DoL and DoD on reducing 
licensing and credentialing barriers for ten military occupational 
specialties. DoL supports this section but recommends subsection (c) be 
changed to allow the study to be completed within 12 months from the 
date of the award of the contract. The report should be submitted to 
Congress no later than 90 days after the completion of the study. This 
would allow sufficient time for a thorough study to be conducted.

Section 401_Clarification of Benefits of Employment Covered Under 
        USERRA:
    Section 401 would clarify the definition of the terms ``benefit'', 
``benefit of employment'', or ``rights and benefits'' under chapter 43 
of title 38--Employment and Reemployment Rights of Members of the 
Uniformed Services. The Department supports this section.
Section 502_Extension of Homeless Veterans Reintegration Programs:
    Section 502 would extend the Homeless Veterans Reintegration 
Program until 2016. The Department supports extending this program. 
HVRP is the only Federal employment program designed specifically to 
address the employment problems faced by our Nation's homeless 
veterans. HVRP provides services to assist in reintegrating homeless 
veterans into meaningful employment and to stimulate the development of 
effective service delivery systems that will address the complex 
problems facing homeless veterans. Employment is the linchpin by which 
a homeless veteran may start a successful journey back to society, 
regardless of whether the homelessness is long term or short term, 
first time or cyclical.

                               Conclusion

    Again, I thank you for the opportunity to submit our views on this 
bill. We look forward to working with this Committee to provide the 
Nation's bravest and their families with the best possible programs and 
services that we have to offer.

                                 <F-dash>
              Statement of the U.S. Department of Defense

    Chairman Miller, Ranking Member Filner, and Members of this 
distinguished Committee, thank you for extending an invitation to the 
Department of Defense to address pending legislation that would 
significantly affect our Servicemembers: H.R. 169; H.R. 1941, the 
proposed ``Hiring Heroes Act of 2011''; and H.R. 2433, the proposed 
``Veterans Opportunity to Work Act of 2011''.
    The Department defers to the VA on H.R. 169 as DoD does not have 
any specific concerns.
    The Department recommends modifying H.R. 1941 and H.R. 2433, and 
the Department's comments are limited to sections directly affecting 
it.

Summary of the Department's views on pending legislation
H.R. 1941
    The Department's comments on H.R. 1941 are limited to sections 
directly affecting it.
    Section 2: The Department is not opposed to the provisions of 
section 2 that would extend Section 1631(b)(1) of the National Defense 
Authorization Act (NDAA) for 2008 (Public Law 110-181) through December 
31 2014. Section 1631(b)(1) allows Servicemembers, with a severe injury 
or illness to receive vocational, rehabilitation and employment 
benefits (but not compensation) from the Secretary of Veterans Affairs 
to facilitate their recovery and rehabilitation while still a member of 
the Armed Forces. Extending this benefit provides Servicemembers with 
disabilities assistance in identifying the training requirements and 
resources needed to achieve their rehabilitation and employment goals.
    Section 6: The Department continues to work closely with 
Departments of Veterans Affairs and Labor, and the interagency, to 
enable seamless transition from Servicemembers to Veteran. Our efforts 
are consistent and integrated with the President's Veteran Employment 
Initiative to help Federal agencies identify qualified Veterans, 
clarify the hiring process for Veterans seeking employment with the 
Federal Government, and help them to adjust to the civilian work 
environment once they are hired. The President's statement highlights 
the fundamental purpose for that effort--``Honoring our sacred trust 
with America's Veterans means doing all we can to help them find work 
when they come home so they never feel as if the American Dream they 
fought to defend is out of reach for them and their families.'' DoD 
believes that we too must honor our sacred trust with America's 
Servicemembers and do all we can to make their transition to Veteran 
seamless.
    The Department has had recent discussions with the Administration 
to further highlight and advance these principles. The DoD Transition 
Assistance Program (TAP) must be an integral part in our ability to 
achieve the seamless transition. TAP is an important tool to prepare 
Servicemembers for life after they separate or retire from the 
military. Whatever policy decision is made about its mandatory use will 
need to factor provide maximum flexibility for the Service Secretaries 
to ensure that there are waiver authorities available to exempt 
military personnel from mandatory training when appropriate given the 
unique circumstances of individual cases. This should also provide 
Service Secretaries with the tools for managing their personnel during 
transition.
    Section 9: The Department believes that section 9 is unnecessary as 
it duplicates existing processes that provide the capability to 
crosswalk Servicemember skills to equivalent civilian occupations, and 
therefore does not support section 9 of H.R. 1941.
    During mandatory (required by statute) preseparation counseling, 
Servicemembers are informed about the Occupational Information Network. 
The revised DD Form 2648, Preseparation Counseling Checklist for Active 
Component (AC), Active Guard Reserve (AGR), and Reserve Program 
Administrator (RPA) Servicemembers, states, ``counselors will provide 
information on civilian occupations corresponding to Military 
occupations (see Occupational Information Network (O*Net Web site) at 
www.online.onetcenter.org/crosswalk and related programs . . .''
    The Occupational Information Network (O*NET) is under the 
sponsorship of the U.S. Department of Labor/Employment and Training 
Administration. The O*NET program is the Nation's primary source of 
occupational information. Central to the project is the O*NET database, 
containing information on hundreds of standardized and occupation-
specific descriptors. The database is continually updated by surveying 
a broad range of workers from each occupation. O*NET OnLine contains 
crosswalks between the O*NET-Standard Occupational Classification (SOC) 
and the Classification of Instructional Programs (CIP), Dictionary of 
Occupational Titles (DOT), Military Occupational Classification (MOC), 
Registered Apprenticeship Partners Information Data System (RAPIDS), 
and Standard Occupational Classification (SOC).
    Additionally, the Department of Labor's Employment and Training 
Administration has a long-standing record of assisting transitioning 
Servicemembers with O*NET.
    Another program is the United States Military Apprenticeship 
Program (USMAP), a partnership between Secretary of Labor, Secretary of 
Navy and Secretary of Transportation. Out of 300 enlisted Military 
Occupational Specialties (MOS's), 257 are covered under USMAP trades/
occupations employing apprenticeship. Occupations offered through USMAP 
cross over into several civilian industries, including servicing, 
manufacturing and construction, and transportation/utilities.
    Section 10: The Department opposes section 10. The authority under 
this section is too broad in its application and scope. It would appear 
the language would simply allow veterans to be non-competitively 
appointed to the GS system within 180 days of discharge. There appears 
to be no provision on how we would establish qualifications. Given we 
have a myriad of hiring authorities for veterans, we do not see what 
problem this language is trying to solve. Further, it runs the risk of 
making it extremely difficult for someone who is not a veteran to gain 
entry level employment in light on this authority. We run the risk of 
inadvertently giving veterans preference that is far overreaching and 
will likely be challenged by the Merit Systems Protection Board.
    Section 12: The Department is not opposed to the provisions of 
section 12 which would allow the Department to establish a pilot 
program to provide separating Servicemembers, who are on terminal 
leave, work experience with civilian employees and contractors of the 
Department of Defense to facilitate the transition of those members 
from service in the Armed Forces to employment in the civilian labor 
market. The Department realizes the value of programs that improve the 
employment outcomes for our transitioning servicemembers, such as those 
that provide exposure to the civilian work environment while working 
for the Department. The Department of Labor, Veterans Affairs, and 
Homeland Security all jointly develop and contribute to the Transition 
Assistance Program, and we look forward to working with them to improve 
transition outcomes by using new and creative ideas, such as the one 
provided in this section.
H.R. 2433
    Comments on H.R. 2433 are limited to sections directly affecting 
the Department.
    Section 202: As with section 6 of H.R. 1941, we believe TAP is an 
important tool to prepare Servicemembers for life after they separate 
or retire from the military. However, Section 202 would require 
mandatory participation in the DoL Employment Workshop for all 
transitioning Servicemembers and only allows exceptions when ``a 
documented operational requirement prevents attendance.'' As written, 
this section would require personnel to be retained on active duty 
until they have completed this TAP component. Therefore, this provision 
should include a waiver authority to exempt mandatory attendance in 
order to give the Service Secretaries greater flexibility for managing 
their personnel during transition.
    Section 204: The Department believes that section 204 is 
unnecessary and does not support this provision as written. On June 2, 
2011, Secretary Jefferson, Assistant Secretary for Veterans Employment 
and Training Service, Department of Labor, discussed the redesigned DoL 
Employment Workshop in testimony before this Committee's Subcommittee 
on Economic Opportunity. The redesigned workshop will gather input from 
TAP attendees: (1) after the Employment Workshop; (2) during the job 
search; and (3) after they secure employment to assess how useful the 
workshop was in helping them obtain a job. We believe the redesigned 
DoL Employment Workshop, which is scheduled to be implemented November 
2011, accomplishes the intent of the proposed legislation to access the 
effectiveness of transition assistance employment efforts.
    Section 307: The Department supports section 307 mandating the 
completion of the joint Department of Defense and Department of Labor 
Credentialing Work Group study of 10 military occupation specialties. 
We request the Departments be granted sixteen months from the date the 
contract is awarded to complete the study, analysis and submit the 
report to Congress as required by paragraphs b and c of this section.

                                 <F-dash>
            Statement of Robert Madden, Assistant Director,
                 National Economic Commission, American

                           EXECUTIVE SUMMARY

    The American Legion applauds this Committee for the attention given 
to the troubling rise in veterans' unemployment. This slate of 
legislation addresses many of the key concerns of our 2.4 million 
members. The American Legion supports the passage of H.R. 169, H.R. 
1941, and H.R. 2433.
    H.R. 2433 addresses one of the little known facts of veterans' 
unemployment, which is though the percentages of younger, unemployed 
veterans is slightly higher, the vast majority of the ranks of 
unemployed veterans are of an older age group and require different 
needs such as retraining of job skills and other skills not necessarily 
covered by education benefits directed at younger veterans. Reaching 
these veterans would provide real and tangible job skills needed in the 
changing employment market.
    Both H.R. 1941 and H.R. 2433 recognize the essential nature of a 
mandatory Transition Assistance Program (TAP) which is fully supported 
by The American Legion. There is no reason this necessary hand off 
between the military and civilian worlds should not be made mandatory.
    Furthermore, better understanding of credentialing and 
certification is necessary to help civilian employers recognize the job 
skills learned in service closely mirror those required in the non-
military world. There is no good reason a military driver should not be 
equally qualified to drive trucks in the civilian world, or that a 
corpsman is not qualified to serve as an EMT. Better attention to the 
certification and licensure process is needed.
    The American Legion supports the passage of all three bills on this 
slate of legislation.

                               __________
    Chairman Miller, Ranking Member Filner and distinguished Members of 
the Committee:
    On behalf of the 2.4 million members of The American Legion I thank 
you for this opportunity to submit The American Legion's views on the 
legislation being considered by the Committee today. We appreciate the 
efforts of this Committee to address the different needs of the men and 
women who are currently serving and those who served during past 
conflicts.
          H.R. 2433: Veterans' Opportunity to Work Act of 2011
    To amend title 38, United States Code, to make certain improvements 
in the laws relating to the employment and training of veterans, and 
for other purposes.
    With the growing unemployment numbers facing both our younger and 
older generations, it is imperative that our great Nation gives back to 
the men and women who have given much to this country. Younger veterans 
currently face an unemployment rate of approximately 13.3 percent, the 
number of unemployed veterans aged 35-60 is far greater in terms of raw 
numbers. While unemployment seems to remain relatively steady for the 
general population, America's veterans face unemployment that has 
continued to grow for the past several years. As the largest veterans' 
service organization serving veterans from all eras, The American 
Legion applauds the Committee for seeking to restore employment and 
training opportunities to veterans of all eras. We understand the 
struggles that veterans from all ages face when either returning to 
work after military service or just getting back to work after being 
eliminated from their past employment. It is well documented that 
veterans who have any sort of education generally have lower 
unemployment rates as opposed to those who do not possess any higher 
education.
    Recent transitioning servicemembers are provided with a robust 
education benefit, which earns them up to 36 months of tuition and 
fees, a housing allowance and a books stipend, based on their 
eligibility. Yet older veterans who have fallen on tough times are 
forced to fend for themselves seeking alternative employment. These 
veterans often have families and greater financial responsibilities. 
Additionally, these older veterans are not eligible for most education 
benefits like the new generation of veterans possess. These groups of 
veterans are reviewing ways to re-define themselves and their 
employment. Factory jobs that were eliminated during the economic 
recession might not return and these veterans are faced with an 
obsolete vocation and need to transition into thriving career fields.
    H.R. 2433 also seeks to provide all servicemembers with the 
specific transitional training when leaving military service. The 
American Legion has supported, now and in the past, a policy of the 
service branches making Transition Assistance Program (TAP) mandatory 
for all servicemembers exiting the military. With the Departments of 
Labor, Defense and Veterans Affairs making the much needed changes to 
the TAP program, we believe this provision is essential to give all 
transitioning servicemembers the tools and resources they need to 
successfully integrate into the civilian workforce.
    America's servicemembers are the most skilled and highly trained 
individuals of any other Nation, yet when they are transitioning most 
of their military training is not properly equated to its civilian 
counterpart. In general, they must either return to school to get their 
civilian credentials or choose a different career path. These 
employment barriers exist for transitioning servicemembers who seek 
employment in line with their military occupational specialty (MOS). 
Surely a truck driver who drove convoys through the deserts of Iraq is 
qualified to drive the roads of the American Midwest; or the corpsman 
who patched up wounded in remote provinces of Afghanistan should be 
recognized as capable of performing as an Emergency Medical Technician 
(EMT) in any American city.
    The American Legion commends the Committee for seeking to perform a 
formal study not only to identify the top 10 MOS's, but to analyze 
initiatives that are currently available to servicemembers while in 
service and how to use those initiatives for all service branches; 
consequently, impacting a wider range of men and women. In addition, 
The American Legion recommends that all MOS's that have a civilian 
counterpart be included in this formal study. Expanding credentials to 
servicemembers creates a more professional workforce and is aligned 
more fully with recruiting and retention of servicemembers. By 
improving the knowledge and skill of servicemembers, we will give them 
improved chances for employment after exiting the military and 
incentives/reasons should they chose to stay in the service.
    The American Legion also supports the re-enactment of the 
credentialing work study group. Previously, the credentialing work 
group provided Federal agencies with support and guidance on how to 
move in promoting employment for transitioning servicemembers. The 
credentialing work group would help in fostering new ideas in the area 
of credentialing and provide options for overcoming barriers to 
employment.
    The American Legion supports this bill.

                               H.R. 1941

    Hiring Heroes Act of 2011-Amends the Wounded Warriors Act to extend 
until January 1, 2015, the authority of the Secretary of Veterans 
Affairs (VA) to provide the same rehabilitation and vocational benefits 
to members of the Armed Forces with severe injuries or illnesses as are 
provided to veterans.
    H.R. 1941 accomplishes many of the same tasks as H.R. 2433. The 
goal of this legislation is to: reduce unemployment for recently 
transitioned servicemembers and place them in training; expand 
Vocational Rehabilitation programs for those who have exhausted their 
unemployment benefits; follow up on employment status after 
rehabilitation training, making Transition Assistance Program 
mandatory; provide grants to non-profits for veterans training, 
mentoring and placement; create a study to examine the employment 
barriers that transitioning servicemembers face when acquiring civilian 
credentials; and utilize a direct hire for veterans who have recently 
transitioned from service with an honorable discharge.
    Veterans returning from Iraq and Afghanistan are facing double 
digit unemployment figures; this bill's goal is to eliminate some of 
the employment barriers that exist for recently returning 
servicemembers. With less than 1 percent of the population currently 
serving, H.R. 1941provides a valuable tool and resource for those who 
are exiting the military and are trying to return to a ``normal'' state 
of life, including the number one issue they face: employment. As 
stated previously, the unemployment figures for recently returning 
servicemembers has been steadily increasing. This trend says that as a 
country, we should be providing every tool available to knock down 
those barriers that exist. Education Rehabilitation is one of the 
sharpest tools available to help veterans, active duty, Guard and 
Reserve components search for and locate employment. In almost every 
situation, education gives a leg up against the competition to veterans 
and civilians alike. With the employment climate being competitive, 
providing additional training resources is critical in drastically 
reducing the unemployment rates for returning veterans.
    The American Legion supports the idea of utilizing Vocational 
Rehabilitation for those who have exhausted their unemployment 
benefits, but sees a potential problem of the number of counselors 
available to meet this new demand. Vocational Rehabilitation and 
Employment counselors already carry a heavy workload with the current 
case load. The addition of new veterans would need to be counteracted 
with the hiring of new, qualified counselors to meet the fresh demand. 
In addition, The American Legion supports the bolstering of follow-up 
on participants in the Vocational Rehabilitation and Employment 
program. In too many cases, veterans exit the program before finishing, 
thereby mandating a re-visit on a veteran's case, the metric of success 
would guide the overall program into a new direction.
    The American Legion's policy regarding Transition Assistance 
Program has been to recommend the program be made mandatory. The 
American Legion commends the Committee for proposing this legislation.
    Servicemembers exit the military fulfilling a certain Military 
Occupational Specialty (MOS) then return to their home of residence to 
find out, despite their duties and qualifications in their respective 
MOS, they are not qualified to provide the same support in a civilian 
counterpart. This problem is systemic from what is provided at the 
military training centers to what additional training a veteran might 
need in order to receive the civilian credential. Providing individual 
assessments at the TAP program might provide the veterans with 
additional resources, but we need to examine how we can bridge the 
credentialing gap between the military and civilian divide to better 
improve the employability of transitioning servicemembers.
    The American Legion commends the Committee for proposing a study of 
10 MOS's to identify employment barriers, but would suggest a 
comprehensive study of all MOS's that have a civilian counterpart. This 
expansion will make a great impact in identifying the employment and 
credentialing barriers that exist for transitioning servicemembers.
    The American Legion further commends the Committee on bringing a 
non-competitive way to bring recently transitioned veterans into the 
Federal workforce. However, we are concerned that if this provision 
makes it through the legislative process, it would have to be properly 
communicated to those who are transitioning through TAP.
    The American Legion supports this bill.

                                H.R. 169

    To require the Secretary of Veterans Affairs to include on the main 
page of the Internet Web site of the Department of Veterans Affairs a 
hyperlink to the VetSucess Internet Web site and to publicize such 
Internet Web site.
    Helping our wounded warriors and service-connected disabled 
veterans is and should maintain a high priority for the Department of 
Veterans Affairs. Giving them the proper tools and resources gives this 
group of veterans a way to gain an education and then enter a job 
market that fits their ability to perform. On too many occasions, The 
American Legion is informing service-connected or wounded warriors 
about the benefits available through the VetSuccess program. This 
legislation would enable one more way for veterans who visit www.va.gov 
to find the information about the VetSuccess program and then make an 
informed decision about their education and employment path.
    The American Legion once again commends the Committee for 
aggressively taking on the issue of veterans' unemployment. Veterans 
facing unemployment rates at two-thirds higher than the national 
average is a national tragedy; it is clear from the work of this 
Committee that this issue needs to be resolved. The American Legion 
urges Congress to act swiftly to pass this legislation to help put our 
American heroes back to work. Furthermore, The American Legion reminds 
Congress of the essential role veterans' groups and Congressional 
oversight will play in ensuring that once this legislation is signed 
into law, it is implemented as intended and actually works to benefits 
those deserving veterans.

                                 <F-dash>
 Statement of John L. Wilson, Assistant National Legislative Director, 
                       Disabled American Veterans

    Chairman Miller, Ranking Member Filner and Members of the 
Committee:
    On behalf of the Disabled American Veterans (DAV) and our 1.2 
million members, all of whom are wartime disabled veterans, I am 
pleased to offer our statement for the record on three bills under 
consideration today.
H.R. 2433--Veterans Opportunity to Work Act of 2011
    This bill addresses several areas important to veterans. Section 
101 establishes a 3-year retraining program, providing up to 12 months 
of monthly compensation for eligible veterans. To be eligible, veterans 
must be between 35 and 60 years of age and pursue education or training 
through an accredited community college or technical school that leads 
to either an associate's degree or certification in a high-demand 
civilian occupation. Special consideration will be given to those 
veterans who have been unemployed for at least 26 continuous weeks.
    This program sounds similar to the Servicemembers Occupational 
Conversion and Training Act (SMOCTA), which was established in 1993 in 
response to the downsizing of the military and its impact on veterans, 
particularly those who had no readily transferable skills. SMOCTA 
provided assistance in the form of reimbursements to employers to 
offset the cost of training recently separated servicemembers. It also 
provided funds for assessments, development of training plans, and 
supportive services for trainees.
    This provision is in concert with the intent of DAV Resolution No. 
100, which supports efforts to eliminate employment barriers that 
impede the transfer of military job skills to the civilian labor 
market.
    Section 201 would require the Secretaries of Labor, Defense, 
Homeland Security, and Veterans Affairs to contract with businesses 
that provide Transition Assistance Program (TAP) participants with 
counseling, employment and training opportunities and other services as 
they plan to leave their respective branches of the military. While TAP 
participants should be provided the best in both information and 
delivery of services during this important time, we are also aware that 
contracts have been let by the Departments of Defense, Labor and 
Veteran Affairs to modernize their segments of this program.
    While we appreciate the interest in further improvements to this 
program, requiring that TAP be contracted out may be too prescriptive 
at this time. Therefore we recommend mandates to contract out these 
services be held in abeyance until such a time that the changes 
currently underway can be fully assessed.
    Section 202 would make participation in TAP mandatory for all 
military servicemembers except for urgent operational requirements. 
This is in line with DAV Resolution No. 230, which acknowledges the 
criticality of TAP attendance for military personnel being discharged 
from the service. The Department of Defense (DoD) has generally been 
opposed to mandatory attendance. This opposition should be overcome by 
this section's additional language, which provides waivers in the face 
of operational requirements. While the Services naturally have their 
focus on their mission, an equally strong case can be made that making 
TAP attendance mandatory may make the transition to civilian employment 
smoother and reduce the unemployment benefits that DoD would otherwise 
have to pay.
    In accordance with DAV Resolution 304, we would also recommend that 
this section be amended to include mandatory attendance for members of 
the National Guard and Reserve, who are not typically afforded the 
opportunity to attend.
    Section 203 would require contractor-provided reports on course 
participation. As with section 201, while we appreciate the interest in 
further improvements to this program, this requirement may be too 
prescriptive at this time. Therefore, we recommend mandates to have 
contractor-provided reports be held in abeyance until such a time that 
the changes currently underway can be fully assessed.
    Section 204 directs the Secretaries of Labor and Defense to track 
how long TAP participants are unemployed after leaving the military, 
their initial salaries, or how long they attend college or a technical 
school during the first 12 months after discharge. Although DAV does 
not have a resolution on this matter, we are not opposed to its 
favorable consideration. Tracking data such as this may provide 
valuable insights into current and future course structure and methods 
of instructions.
    Section 301 would reauthorize and mandate the licensure and 
certification demonstration project that was recommended in title 38, 
Section 4114. The Veterans Benefits, Health Care and Information 
Technology Act of 2006 asked, but did not require, that the Department 
of Labor (DoL) Assistant Secretary for Veterans' Employment and 
Training carry out a demonstration project that would identify the 
equivalencies between at least 10 military occupational specialty-
related skills and civilian occupations, as well as ways to eliminate 
barriers between military training and civilian licensure or 
credentialing for those military occupational specialties. This section 
of H.R. 2433 would adjust the parameters of the demonstration project 
to evaluate at least five but not more than 10 military specialties.
    The important distinction of making such a demonstration project 
mandatory is critical as our Nation searches for ways to reduce the 
unemployment rates that afflict our veterans. This provision is in line 
with DAV Resolution No. 100, which supports efforts to eliminate 
employment barriers that impede the transfer of military job skills to 
the civilian labor market.
    Section 302 would modify the reporting requirements of the DoL with 
the addition of data on veteran job counseling, training, placement 
programs and earnings as well as those who participated in an 
education, certificate or licensure course of study. While DAV does not 
have a resolution on this matter, we are not opposed to adoption of 
this provision.
    Section 303 would require DoL, in concert with State workforce 
agencies, to implement new performances measures to evaluate the 
priority of services provided to eligible veterans as compared to the 
overall customer base. The further clarification and reporting to 
ensure priority of service is in line with DAV Resolution 234, which 
addresses the role of Disabled Veterans' Outreach Program Specialists 
(DVOPS) and Local Veterans' Employment Representatives (LVERs).
    Section 304 establishes a requirement that all those who completed 
a course of study provided by the National Veterans' Employment And 
Training Services Institute be given a pass/fail final exam and the 
results of the exam provided to the organization that employs the 
participants. DAV has no resolution on this matter.
    Section 305 directs the establishment of a 3-year pilot program to 
assist unemployed veterans with skills training leading to 
qualification for employment. Up to 10 States that have the highest 
national unemployment rates could participate in the program. While 
this pilot program may provide important assistance to unemployed 
veterans, it would do so at the expense of DoL's State grants program, 
which funds DVOPS and LVERs. Specifically, it would allow participating 
States to use up to 25 percent of State grant funding to cover the cost 
of the pilot program. This means that the 10 States with the highest 
unemployment levels could reduce DVOP and LVER staff funding by 25 
percent in order to provide the training.
    In accordance with DAV Resolution 101, which calls for adequate 
funding for all veterans' employment and training programs, we would 
recommend that this section be amended to exclude funding from State 
grant programs and provide additional funding to support this pilot 
program.
    Section 306 mandates that the sole duty of DVOPS and LVERs will be 
to assist eligible veterans in finding suitable employment. In 
addition, audits will be performed on a regular basis to ensure this is 
the case. DAV has long held that DVOPS and LVERs have been placed in 
the difficult position of wanting to assist veterans but being directed 
to perform other tasks such as working on public assistance related 
programs, including food stamps. DAV supports this provision, which is 
in line with DAV Resolution 234.
    Section 307 directs the DoD and DoL to enter into a contract to 
complete the DoD/DoL Credentialing Work Group study with a focus on 
reducing barriers to certification and licensure for transitioning 
members of the military as well as veterans.
    DAV has long been concerned with the issue of the transferability 
of military training into the civilian job market. It is our view that 
DoD provides critical training to active duty personnel to ensure their 
proficiency in the military specialty. Unfortunately, while this 
training meets the needs of the military, it does not meet the 
licensure or certification needs of the States in which servicemembers 
wish to live and work once they leave the military. Additional 
information on how to improve upon the employment prospects of veterans 
is welcome. This provision is in line with DAV Resolution No. 100, 
which supports efforts to eliminate employment barriers that impede the 
transfer of military job skills to the civilian labor market.
    Section 401 clarifies the employment benefits covered under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA). 
USERRA protects servicemembers' reemployment rights when returning from 
a period of service in the uniformed services, including those called 
up from the reserves or National Guard, and prohibits employer 
discrimination based on military service or obligation. This section 
would stipulate that such protections extend to any advantage that is 
earned as a result of that employment to include rights and benefits 
offered by employers.
    We recommend this section be amended to include medical treatment 
for service-connected conditions in accordance with DAV Resolution 141. 
While USERRA requires employers to release employees to perform 
military duty, and employers are required to make reasonable 
accommodations regarding these disabilities, currently employers are 
not specifically required by law to allow veterans with service-
connected disabilities to be absent from the workplace to receive 
treatment for these disabilities. Amending this section to expand 
employment protections would resolve this discrepancy.
    Section 501 extends the Department of Veterans Affairs' (VA's) loan 
guaranty program for an additional 10 years for the purchase or 
construction of cooperative housing units. Programs to provide 
cooperative housing are an important resource in the multifaceted 
effort to end veterans' homelessness. Therefore, in accordance with DAV 
Resolution 223, we support the extension of the guaranty of loans for 
the purchase or construction of cooperative housing.
    Section 502 reauthorizes the Homeless Veterans Reintegration 
Program (HVRP). The HVRP is an important program focusing on employment 
of homeless veterans, which provides assistance for those with 
significant problems including substance-use disorder, post-traumatic 
stress disorder (PTSD), serious social problems and legal issues. In 
accordance with DAV Resolution 223, we support this provision to 
provide sustained funding to improve services for homeless veterans.
H.R. 1941--Hiring Heroes Act of 2011
    This bill provides enhancements to several programs impacting 
veterans.
    Section 2 provides a 2-year extension, from December 31, 2012 to 
December 31, 2014, of a program that provides rehabilitation and 
vocational benefits to severely wounded members of the Armed Forces 
under the Wounded Warrior Act.
    Extending this benefit provides servicemembers with disabilities 
important assistance in identifying the training requirements and 
resources they may need in order to achieve their rehabilitation and 
employment goals.
    This is line with DAV Resolution No. 307, which supports 
strengthening of the Vocational Rehabilitation and Employment (VR&E) 
program to meet the demands of disabled veterans.
    Section 3 would expand the authority of the VA to pay employers to 
provide on-the-job training to veterans who have not been rehabilitated 
to the point of employability. Presently, the VA can make payments to 
employers for providing on-the-job training to veterans who have been 
rehabilitated to the point of employability in individual cases when it 
is determined that these payments are necessary help a veteran obtain 
needed on-the-job training or to begin employment. This provision 
extends this flexibility to veterans who have not been rehabilitated to 
the point of employability. Although DAV has no applicable resolution, 
we are not opposed to its passage.
    Section 4 would provide up to an additional 24 months of vocational 
rehabilitation and employment services to veterans who have exhausted 
both these benefits and State-provided unemployment benefits and begin 
the new additional vocational rehabilitation program within 6 months of 
the date that the unemployment benefits begin. DAV has no applicable 
resolution but is not opposed to its passage.
    Section 5 of the measure requires VA to engage, on a periodic basis 
for up to 1 year, with each veteran who has participated in its VR&E 
program, to determine whether the veteran is employed. This provision 
is in line with DAV Resolution No. 307, which calls for VR&E to provide 
for placement follow-up with employers for at least 6 months.
    Section 6 of this measure would make participation in TAP mandatory 
for all military servicemembers, as does Section 202 of H.R. 2433. DoD 
has generally been opposed to mandatory attendance in the past. 
Opposition to this section of the bill could be overcome by amending it 
to include additional language which provides waivers of 
servicemembers' attendance in the face of operational requirements. 
Mandatory attendance is in line with the intent of DAV Resolution No. 
230, which recognizes the importance of TAP and the Disabled Transition 
Assistance Program for those servicemembers transitioning to civilian 
status.
    Section 7 would require the DoL to contact all TAP participants 
twice over a 180-day period to determine their employment status. 
Although DAV does not have a resolution on this matter, we are not 
opposed to its favorable consideration.
    Section 8 creates a competitive grant program for nonprofit 
organizations that provide mentorship and job training programs that 
are designed to lead to job placements. Although DAV does not have a 
resolution on this matter, we are not opposed to its passage.
    Section 9 requires that each servicemember receive an 
individualized assessment of jobs they may qualify for when they 
participate in TAP. Although DAV does not have a resolution on this 
matter, the provision could benefit transitioning servicemembers. 
Therefore, we are not opposed to its favorable consideration.
    Section 9 also requires the DoD, the DoL and VA to jointly contract 
for a study to identify any equivalencies between military occupational 
specialty-related skills and the qualifications required for various 
positions of civilian employment in the private sector. Then all those 
participating in TAP will be provided an individualized assessment of 
their military occupation as it relates to civilian employment 
opportunities.
    This provision is in concert with the intent of DAV Resolution No. 
100, which supports efforts to eliminate employment barriers that 
impede the transfer of military job skills to the civilian labor 
market.
    Section 10 modifies Federal hiring practices to encourage the 
hiring of separating servicemembers and would allow them to begin the 
Federal employment application process prior to separation. This is in 
line with the intent of DAV Resolution 305, which supports veterans' 
preference in public employment.
    Section 11 would authorize DoL Veterans Employment and Training 
Service to conduct outreach efforts through DVOPS and LVERs to 
unemployed veterans and assist them in finding employment. While DAV 
does not have a resolution on this matter, we are not opposed to its 
favorable consideration.
    Section 12 would direct DoD to establish a pilot program to provide 
separating servicemembers, who are on terminal leave, work experience 
with civilian employees and contractors of the DoD to facilitate the 
transition of those members from service in the Armed Forces to 
employment in the civilian labor market. DAV has no resolution on this 
matter but is not opposed to its adoption.
    Section 13 directs, as does H.R. 2433, Section 301, that DoL 
conduct a licensure and certification demonstration project. The 
important distinction of making such a demonstration project mandatory 
is critical as our Nation searches for ways to reduce the unemployment 
rates that afflict our veterans. This provision is in line with DAV 
Resolution No. 100, which supports efforts to eliminate employment 
barriers that impede the transfer of military job skills to the 
civilian labor market.
H.R. 169
    This bill would require the Secretary of Veterans Affairs to 
include on the main page of the VA's Web site a hyperlink to the 
VetSucess Web site and to publicize 
the Web site. DAV has no resolution on this matter but is not opposed to
 its passage.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
       Statement of Tom Tarantino, Senior Legislative Associate,
                Iraq and Afghanistan Veterans of America

    Madam Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, thank you for allowing me to submit testimony 
sharing our members' views of on these important issues.
    My name is Tom Tarantino and I am the Senior Legislative Associate 
with IAVA. I proudly served 10 years in the Army beginning my career as 
an enlisted Reservist, and leaving service as an Active-Duty Cavalry 
Officer. Throughout these 10 years, my single most important duty was 
to take care of other soldiers. In the military they teach us to have 
each other's backs. And although my uniform is now a suit and tie, I am 
proud to work with this Congress to continue to have the backs of 
America's servicemembers and veterans.
    IAVA would like to thank this Committee for its work on veteran 
unemployment, and would like to offer our comments on several of the 
bills that the Committee is currently considering.

------------------------------------------------------------------------
    Bill #             Title/Desc.            Sponsor        Position
------------------------------------------------------------------------
H.R. 2433      Veterans Opportunity to     Miller         Support
                Work Act
------------------------------------------------------------------------
H.R. 1941      Hiring Heroes Act of 2011   Bishop         Support
------------------------------------------------------------------------
H.R. 169       Publicizing VetSuccess      Stearns        Support
                Program
------------------------------------------------------------------------

H.R. 2433
    IAVA is proud to endorse H.R. 2433. The most pressing concern for 
new veterans in 2011 is unemployment. With 13.3 percent unemployment 
for veterans in June 2011 and a rate of 12.3 percent for the year 
overall, unemployment is one of the single greatest challenges faced by 
veterans. Even though employment is a concern for every American in the 
current economic environment, the average unemployment rate for 
veterans is 25 percent higher than the rate for civilians. IAVA 
supports H.R. 2433, the Veteran Opportunity to Work Act of 2011, 
because of the significant steps it takes to help increase veteran 
employment.
    The first step towards a successful transition to the civilian 
workforce is a successful Transition Assistance Program (TAP). Building 
on the reforms underway at the Department of Labor (DoL), H.R. 2433 
makes TAP mandatory for all separating servicemembers. Additionally, 
this bill wisely requires that DoL collect metrics on the effectiveness 
of the program.
    Additionally, in order to help a veteran transition from the 
military to the civilian workforce, we must know how their skills 
translate in to the civilian market. H.R. 2433 addresses this head on 
by studying how 10 high density Military Occupational Specialties 
(MOSs) can translate into licenses and certifications in the civilian 
market. Requiring the DoL to contract with an organization of State 
Governors as well as private industry leaders to conduct this study 
will put decision makers and experts in front of this problem and 
promises to yield results where we have failed in the past. Hopefully, 
this effort will be the beginning of programs that allow military 
veterans to use the skills, training, and experience acquired through 
military service in civilian certification processes.
    Throughout H.R. 2433, there are provisions that also collect 
metrics and enhance performance standards. This is a necessary 
component to establish not just historical perspective or current 
performance of any program, but to determine the most effective course 
of action in the future.
    IAVA is pleased to support this bill. We thank Chairman Miller for 
his leadership and applaud the work of the Committee and their staff as 
a whole to address the problem of veteran unemployment in strong and 
creative ways.
H.R. 1941 Hiring Heroes Act of 2011
    IAVA is pleased to support H.R. 1941, the Hiring Heroes Act of 
2011. H.R. 1941 is a robust bill that contains provisions that utilize 
the combined resources of the Department of Defense (DoD), Department 
of Labor (DoL) and Department of Veterans Affairs (VA) to combat this 
problem.
    An essential first step is ensuring that all transitioning 
servicemembers attend a Transition Assistance Program (TAP). Nearly 20 
percent of all separating servicemembers fail to attend a TAP class. 
TAP classes provide important information of job search skills and 
strategies as well as veteran benefits. Requiring TAP for all 
separating servicemembers will mean that veterans are made aware of VA 
programs for educational assistance or vocational training as well as 
transitional medical benefits that will help ease their transition to 
the civilian world. While requiring TAP attendance will not be the 
panacea to veteran unemployment, it will provide a baseline of 
knowledge for separating servicemembers and guarantee that they have at 
least a general exposure to the full range of benefits to which they 
are entitled. It is a low cost and effective first step toward a 
solution.
    Understanding how military jobs, billets, and certifications 
translate into the civilian market and then directly translating 
military credentials and licenses into those used by civilian employers 
are necessary steps in reducing veteran unemployment. Military skills 
and experience in skilled occupations from air traffic controller to 
operating room specialist to jet pilot are often lost when 
servicemembers become civilians. Because military training and 
experience is not necessarily recognized for civilian licensure, 
barriers to entry into analogous civilian jobs in the form of costs for 
required (often duplicative) education and time to achieve requirements 
are high and those skills are lost. H.R. 1941 recognizes this loss to 
society and our economy and seeks to prevent it by establishing 
civilian equivalency for military jobs. This is a wise and frugal 
investment; the expense to train has already been borne by the 
military. It is a far costlier choice to allow servicemembers' skills 
to disappear.
    Other aspects of H.R. 1941 are important in easing the transition 
from military to civilian employment and will, we believe, lessen the 
staggering 13.3 percent veteran unemployment rate posted for June of 
2011. The ability to allow direct appointments into civil service jobs 
and establishing a pilot program to allow the DoD to place 
servicemembers 180 days from discharge into DoD civilian jobs or jobs 
with DoD contractors while on terminal leave are two forward thinking 
ideas that represent ``out of the box'' solutions that will help ease 
veteran unemployment at low-to-no extra cost to the taxpayer.
H.R. 169 Publicizing VetSuccess
    IAVA supports H.R. 169. The VetSuccess Program is an excellent 
resource that offers a centralized location to find answers to common 
questions about VA resources for employment, education, health care and 
more. However, no matter how well resourced or executed a program is, 
if the population it serves is unaware that it exists, the program will 
not be successful. One of the most common criticisms of benefits 
programs is that veterans do not know the benefits exist. If we are to 
ensure that the VetSuccess program is successful, the least we can do 
is to prominently display it on the VA Web site (where many veterans 
initially begin searching).
    For example, one of the most valuable steps a veteran can take to 
be successful in the job market is to earn a college degree. The Post-
9/11 GI Bill has already opened the doors to success for thousands of 
veterans across the country that would have otherwise been out of 
reach. VetSuccess on Campus, the VA program that places VA personnel 
dedicated to educational benefit counseling on college campuses and 
helps mitigate the challenges faced by transitioning veterans, could 
play a crucial role in ensuring that student veterans receive their 
benefits in a timely and uncomplicated fashion without their academic 
success being jeopardized by benefit complications. It could also 
ensure that educational institutions are informed and educated on the 
procedures and terms of the GI Bill, and that the VA is not burdened 
with erroneous or unnecessary certifications and paperwork. However, we 
have found that many veterans do not know that the resources exist to 
help them navigate the labyrinthine processes they encounter.
    This is a perfect example of the benefit of H.R. 169. Publicizing 
the resources available before a veteran begins the journey through the 
bureaucratic maze will help ensure faster access to benefits for the 
veteran and less extra, and often unnecessary, work for program 
administrators. H.R. 169 will help ensure the success of VetSuccess by 
the simplest of means.

                                 <F-dash>

                           Military Officers Association of America
                                                    Washington, DC.
                                                      July 14, 2011

The Honorable Jeff Miller
Chairman, Committee on Veterans Affairs
United States House of Representatives
Washington, DC 20515

Dear Chairman Miller:

    On behalf of the 370,000 members of the Military Officers 
Association of America (MOAA), I am writing to thank you for your 
leadership in introducing H.R. 2433, The Veterans Opportunity to Work 
Act.
    H.R. 2433 would re-open Vietnam Era GI Bill educational benefits to 
certain veterans who have been chronically unemployed, mandate 
attendance in the Transition Assistance Program (TAP), require the 
Defense and Departments of Labor to track outcome measures for TAP 
participants, re-authorize a pilot program to link military acquired 
skills to civilian jobs through licensing and certification, and for 
other purposes.
    MOAA recommends including a provision in the bill to require 
outreach by the VA to unemployed veterans who may be eligible for the 
GI Bill benefits authorized in Title I of the legislation. We would 
also recommend adoption of Vocational Rehabilitation and Employment 
(VR&E) program adjustments and other employment-related features in the 
Hiring Heroes Act of2011, H.R. 1941.
    MOAA pledges its full support for early enactment of H.R. 1941 and 
respectfully requests including this letter in the record of any 
hearing to consider or mark-up this important legislation.

            Sincerely,

                              VADM Norbert R. Ryan, Jr., USN (Ret.)
                                                          President
                                 <F-dash>
      Statement of Robert L. Simoneau, Deputy Executive Director,
            National Association of State Workforce Agencies
    NASWA has long advocated for additional training resources 
dedicated to veterans as contained in H.R. 2433, the ``Veterans 
Opportunity Act of 2001.'' The following summarized our comments:

    <bullet>  NASWA supports the veterans retraining assistance program 
as described in Title I of H.R. 2433.
    <bullet>  NASWA supports extending the requirement for TAP 
participation all armed forces.
    <bullet>  NASWA asks the Committee to consider extending the 
provision of TAP to National Guard and Reserve members.
    <bullet>  NASWA supports Section 4114 of Chapter 41, Title 38, 
Credentialing and Licensure of Veterans demonstration project, and 
supports the changes outlined in H.R. 2433.
    <bullet>  NASWA supports a joint recommendation with NGA on Common 
Measures, but plans to study and provide recommendations for revised 
performance measures.
    <bullet>  NASWA supports additional training resources, especially 
those dedicated to serving veterans.
    <bullet>  NASWA supports the provisions in H.R. 169 and suggest 
changing the term, ``JobCentral'' to ``the National Labor Exchange 
(NLX), powered by JobCentral.''
    <bullet>  In regard to H.R. 1941, NASWA is supportive of efforts to 
provide additional services to veterans who have exhausted their 
unemployment benefits under State law in H.R. 1941.

                               __________
    Chairman Miller, Ranking Member Filner and Members of the 
Committee, on behalf of the National Association of State Workforce 
Agencies (NASWA), I thank you for the opportunity to submit written 
testimony and to appear before you to discuss the legislation being 
addressed today.
    The members of our Association are State leaders of the publicly-
funded workforce development system vital to meeting the employment 
needs of veterans. This is accomplished through the Disabled Veterans' 
Outreach Program (DVOP) and the Local Veterans' Employment 
Representatives (LVER) programs, as well as other programs and 
initiatives offered through the publicly-funded workforce system.
    NASWA serves as an advocate for State workforce programs and 
policies, a liaison to Federal workforce system partners, and a forum 
for the exchange of information and practices. Our organization was 
founded in 1937. Since 1973, it has been a private, non-profit 
corporation, financed by annual dues from member State agencies, 
grants, and private sector alliance funds.
    NASWA thanks the Committee for development of legislation to 
enhance services available for military members and veterans, their 
families, and to improve the transition of military members to civilian 
lives and careers. Helping veterans make a successful transition from 
their service in the military to successful civilian careers remains a 
significant challenge. I would now like to turn to the specific 
provisions of your proposed legislation.

                               H.R. 2433
                  ``Veterans Opportunity Act of 2011''

Title I_Retraining Veterans
    NASWA has long advocated for additional training resources 
dedicated to veterans. Although the Workforce Investment Act (WIA) and 
other employment and training programs funded through the U.S. 
Department of Labor provide priority of services for veterans, the 
purchasing power of those funds is limited and decreasing. Section 168 
of WIA, Veterans Workforce Investment Program (VWIP), dedicates 
training resources to veterans, but only a few States receive VWIP 
grants, and only a few local areas receive funding.
    We acknowledge the Servicemen's Readjustment Act of 1944, the ``GI 
Bill of Rights,'' revamped by the 1984 bill, the ``Montgomery GI 
Bill,'' and especially the Post-9/11 GI Bill of 2008, are excellent 
sources of education and training resources for veterans. The Post-9/11 
GI Bill significantly enhances educational benefits to cover various 
school expenses, including books and supplies. It also provides for the 
ability to transfer educational benefits to spouses or children.
    Not every veteran can benefit from or take advantage of the GI 
Bill. It is difficult to tell how the proposed training in Title I of 
H.R. 2433 would be funded and implemented, but the clause, ``Payments 
of retraining assistance under this section shall be made by the 
Secretary of Labor through the Secretary of Veterans Affairs'' sounds 
similar to the Servicemembers Occupational Conversion and Training Act 
or ``SMOCTA'' program. NASWA has several times recommended Congress 
consider refunding the SMOCTA program, authorized in the National 
Defense Authorization Act for Fiscal Year 1993 (P.L. 102-484), or a 
similar job training program. We believe one of the reasons SMOCTA 
worked so well is the program was administered jointly by the U.S. 
Departments of Labor, Veterans Affairs, and Defense. Funds were 
provided by the Department of Defense.
    State workforce agencies considered SMOCTA to be one of the best 
programs to serve returning military personnel. SMOCTA was established 
in response to the impact on veterans who had been affected by the 
downsizing of the military, especially personnel who had no readily 
transferable skills. SMOCTA provided assistance in the form of 
reimbursements to employers to offset the cost of training recently 
separated servicemembers for stable and permanent positions that 
involve significant training. Besides the reimbursements to employers, 
SMCOTA provided funds for assessments, development of training plans, 
and supportive services for the trainee.
    H.R. 2433 focuses retraining assistance on the pursuit of a program 
of education as defined in Section 3452(b) of Title 38, United States 
Code; however, it also allows training on-the-job as covered under 
Chapter 36 of Title 38.
    NASWA supports the veterans retraining assistance program as 
described in Title I of H.R. 2433. It promotes the inclusion of on-the-
job training and alternate education programs as outlined in section 
101 (b) Retraining Assistance of the legislation. We also appreciate 
that special consideration is provided for veterans who have been 
unemployed for at least 26 continuous weeks. Our members often cite the 
need for additional resources for older veterans. The requirement for 
these training funds to be used for a veteran who is at least 35 years 
old but not more than 60 years old should help address this issue.
    Although we realize this is authorization legislation, we are 
concerned whether additional appropriation of funds would be available 
for such training services. If additional funds are made available, it 
will be important those funds also cover administrative costs.
Title II_Improving the Transition Assistance Program
    The Transition Assistance Program (TAP) consists of comprehensive 
workshops at selected military installations nationwide. Many of these 
workshops have been conducted by State staff under the DVOP or LVER 
programs. While States have varying opinions regarding the move to 
contract administration of TAP workshops to private vendors, we 
understand the intent of ensuring TAP instruction is provided uniformly 
across the Nation. NASWA encourages the continued involvement of DVOPs 
or LVERs in TAP workshops, to assist in connecting the transitioning 
member to the local workforce center during and after the workshop.
    NASWA supports the change to require the participation of all 
members of the armed forces eligible for assistance provided by TAP. 
The benefits of participation in TAP have been proven and have been 
acknowledged by most transitioning members who attend the workshops. 
The U.S. Marine Corps' policy to require participation in TAP has 
resulted in an average 85 to 90 percent participation rate, allowing 
for waivers or exemptions. We support extending the requirement for TAP 
participation to the all armed forces.
    Many of our States have developed and expanded TAP workshops to 
include National Guard and Reserve units. We ask the Committee to 
consider extending the provision of TAP to individuals in these units 
transitioning from active duty to civilian life. Although many of these 
individuals, but not all, are job-attached, there still are many other 
provisions of TAP workshops that would benefit them.
    The requirement for the Secretary of Labor to contract an 
appropriate entity to conduct an audit of the TAP program seems 
prudent. Section 203 of H.R. 2433 amends Section 144 of Title 10, 
United States Code, to indicate the Secretary of Labor shall use funds 
made available for the State grant program authorized under Section 
4102 of Title 38. We recommend the audit contract not be funded from 
allocations made to States for the DVOP and LVER programs, which would 
reduce the ability of States to provide direct services to veterans.
    Our only concern with Section 204, TAP Outcomes, is this section 
greatly expands the number of individuals potentially attending TAP. If 
State workforce agencies have the responsibility to track TAP 
participants, the reporting and tracking burdens placed on States will 
be significant. Current tracking and reporting systems used by the 
States often use antiquated computer systems and are difficult to 
change. In addition, establishing a method to build and implement an 
assessment system could require substantial resources. NASWA urges 
Congress to provide funding to make these changes.
    One problem we often hear from our members is that the Department 
of Defense (DoD) cannot or will not share any personal information 
regarding transitioning members. The method to assess outcomes must 
include sharing of personal information of transitioning members 
between the Department of Labor and DoD; if DoD is not forthcoming with 
this information, expansion of the TAP is not likely to achieve the 
Committee's goals.
Title III_Improving the Transition of Veterans to Civilian Employment
    Often military experience and training do not transfer to civilian 
occupations, or more likely, are not understood or accepted by civilian 
employers or State or local licensing or credentialing entities. 
Unfortunately, this often results in military members unable to obtain 
employment in occupations they are proficient in, but lack the civilian 
credentials to obtain. Also, when pursuing education or training 
requirements for a credential or license, they typically discover they 
need to repeat the same type of training or classes they had in the 
military.
    This is a serious barrier to many transitioning members, which 
keeps them from finding employment in the industry or occupation where 
they want to work. Through our National Labor Exchange (NLX) employer 
partners, we learned one of the most critical obstacles to the 
employment of veterans is their inability to secure formal credentials 
and certifications, even though they have received nearly equivalent 
training while in the military. Veterans must spend resources, 
including valuable time, to acquire formal civilian credentials when 
many already possess the skills.
    NASWA supports Section 4114 of Chapter 41, Title 38, Credentialing 
and Licensure of Veterans demonstration project, and supports the 
changes outlined in H.R. 2433. Our only concern is with the change in 
Section 4114(h) Funding. The change instructs the Assistant Secretary 
to carry out the demonstration project by ``using not more than 
$180,000 of the funds in each fiscal year that are appropriated . . . 
to be derived from amounts available to carry out Sections 4103A and 
4014 of this title.'' Although NASWA supports the credentialing and 
licensure demonstration project, we are concerned that the funds for 
the DVOP and LVER programs are again being diverted from direct 
services to veterans.
    Section 302, Inclusion of Performance Measures in Annual Report on 
Veteran Job Counseling, Training, and Placement Programs of the 
Department of Labor, adds a number of performance measures for the 
provisions under Chapter 41, Title 38.
    NASWA's current policy is to support the NASWA and National 
Governors Association's (NGA) proposed common measures for the 
reauthorization of WIA. The NASWA/NGA proposal recommends measuring the 
percentage of program participants who are employed during the second 
quarter after exit, the percentage of program participants employed 
during the fourth quarter, the median earnings of program participants 
during the second quarter after exit, and the percentage of program 
participants who obtain an education or training credential during 
participation or within 1 year after exit.
    NASWA supports common measures for all programs, including 
veterans' programs in the workforce system. Although NASWA currently 
supports the NASWA/NGA proposal, we recognize the workforce system in 
general, and performance measures in particular, can be improved. One 
example suggested by a NASWA member is to establish measures at the 
point of entry or during participation, rather than after exit. NASWA 
will work with its members to study this and other ideas, and make 
recommendations in the future.
    We are concerned with staff time required to implement and then 
track these measures, and with the cost and programming time to change 
computer-based reporting systems. Computer modifications to implement 
these additional performance measures could be quite complicated and 
expensive. If State workforce agencies are required to perform these 
computer modifications within existing budgets, it would diminish 
direct services to veterans. If the additional performance measures are 
added, we recommend the U.S. Department of Labor include the changes in 
its redesign of consolidated reporting and provide the States with 
programming options and funding to retrofit State reporting systems.
    The additional language to clarify Priority of Service for Veterans 
in Department of Labor Job Training Programs is a subtle difference, 
but because there still seems to be confusion in implementing Priority 
of Service; we appreciate the clarification. The only concern we have 
with the additional reporting criteria for the Secretary's Annual 
Report on Priority of Service is the potential increase in workload and 
costs for local and State workforce staff to track the information 
required for the assessment and the Report.
    It is not clear what the overall purpose is for conducting a final 
pass-fail examination to evaluate the individual's performance in 
receiving training as described in Section 304, Evaluation of 
Individuals Receiving Training at the National Veterans' Employment and 
Training Services Institute.
    The intent of the training is to increase the knowledge skills and 
abilities (KSA) of staff who undertake the training. The curriculum is 
designed to cover specific segments of KSAs staff need to accomplish 
their work. As with any training program, trainees come from different 
backgrounds and experiences, therefore having an assessment system that 
measures the gain in KSAs achieved by each student makes sense, but 
these need to be targeted to specific areas. A single final pass-fail 
grade may not be attainable, nor achieve the intent of the Committee.
    The participants of the various classes start at different 
knowledge and experience levels. There are a number of different 
classes taught at the Institute and we are not sure if all classes 
would have the same requirement, including those for managers and 
supervisors. Much of each class is skill-based and requires practice in 
the classroom.
    Although NASWA does not have an official position on the 
requirement for testing, we do question the value of a pass-fail 
examination. Each State has the responsibility for evaluating 
employees' performance. If a sponsoring State or other entity receives 
a report that an employee failed the final examination, it is unclear 
whether the expectation is termination of the employee, reassignment to 
the same training, or other action. This could be in conflict with a 
State policy.
    NASWA supports additional training resources, especially those 
dedicated to serving veterans. The pilot program to use State grant 
funds to enter into grants with the ten States with the highest rates 
of unemployment in the Nation to provide training to unemployed 
veterans sounds great. However, the legislation says the State may use 
up to 25 percent of the State grant for the training program. This 
means that the ten States with the highest unemployment levels would 
need to reduce its DVOP and LVER staff funding by 25 percent in order 
to provide the training. If the funding for sections 4103A and 4004 
would be increased significantly, this would be a great option. We 
often hear from our members that they wished the State grant would 
provide and allow for training veterans; however, this recommendation 
is based on additional funding. A 25 percent reduction in the funding 
of DVOP and LVER staff in a State would have a significant adverse 
impact on services to veterans.
    We understand and support the intent of Section 306, Requirements 
for Full-Time DVOPs and LVERs; however, States and local workforce 
centers should still have some flexibility in order to maintain 
efficient delivery of services. In small offices, a DVOP or LVER may 
need to cover the telephones or greet customers when no other staff 
members are available. At limited times, DVOPs or LVERs serve military 
members (not a veteran), non-eligible spouses, or possibly a veteran 
who does not want to be identified as such on the records.
    NASWA supports Section 307, Report on Findings of the DoD and USDoL 
Credentialing Work Group. This study of ten military occupational 
specialists has been in the process for some time. An examination of 
current initiatives and programs to promote credentialing of members of 
the Armed Forces and identify best practices that can be leveraged by 
all services to increase the transferability of military education, 
training, experience, and skills would help to reduce barriers to 
certification and licensure for transitioning members. This study would 
enhance the efforts to reauthorize and improve the demonstration 
project on credentialing and licensure of veterans described under 
Title III, Section 301 or H.R. 2433.
    Funding cuts and efforts to improve the workforce system through 
automation have allowed States to serve more workers and employers, but 
has disrupted the ability to provide in-person, targeted reemployment 
services. While nearly all Unemployment Insurance (UI) claimants, 
including veterans, file for unemployment insurance via telephone or 
Internet, there is often limited in-person contact with one-stop career 
centers. NASWA is working with the U.S. Department of Labor to improve 
this connection.
    During a recent hearing before this Committee, NASWA Executive 
Director Rich Hobbie mentioned a concept for the employment of 
veterans. The concept would require veterans collecting Unemployment 
Compensation for Ex-Servicemembers (UCX) to register with their local 
one-stop career center as a condition of receiving UCX and receive 
reemployment services. This process could be voluntarily piloted in a 
few States.
    This approach would be targeted and timely, providing early 
intervention and information on the full array of job openings and 
employment and training services for recently discharged veterans. It 
also enhances the Jobs for Veterans Act, taking advantage of the 
Priority of Service provision to focus on veterans most likely to have 
difficulty finding employment.
    If the Committee is interested, NASWA is willing to provide 
background information and suggestions for legislative language.
Title IV_Improvements to Uniformed Services Employment and Reemployment 
        Rights
    NASWA supports the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) and has no concerns on Section 401.
Title V_Extension of Certain Expiring Provisions of Law
    NASWA supports Section 502, the extension of the Homeless Veterans 
Reintegration Programs (NVRP). The NVRP programs provide important 
resources to homeless veterans and to avert veterans from becoming 
homeless. Our members work closely with HVRP grant recipients.

                                H.R. 169

     To require the Secretary of Veterans Affairs to include on the
        main page of the Internet Web site of the Department of
        Veterans Affairs a hyperlink to the VetSuccess Internet
           Web site and to publicize such Internet Web site.
    Section 1. Promotion of the VetSuccess Internet Web site.
    NASWA supports the provisions in H.R. 169 for hyperlinks on the 
Department of Veterans Affairs' Web site for VetSuccess, USA Jobs 
Internet Web sites, JobCentral Web site and any other appropriate 
employment Internet Web sites.
    We suggest changing the term, ``JobCentral'' to ``the National 
Labor Exchange (NLX), powered by JobCentral.'' NASWA in partnership 
with the DirectEmployers (DE) Association created the NLX, which allows 
NASWA and its State and business partners to have a direct involvement 
in making job connections for our Nation's veterans by creating a free 
electronic labor exchange service.
    Promoting awareness of the VetSuccess Web site in national media 
outlets and conducting outreach to veterans of recent wars to inform 
such veterans of the Web site are sound business initiatives.
    Although the list of Web sites in the legislation is not inclusive, 
we recommend the Web sites listed in H.R. 169 include the ``Key to 
Career Success'' Web site, which lists all one-stop career centers in 
the country and includes many other resources. The site is available at 
http://www.careeronestop.org/MilitaryTranstion/findLocalServices.aspx.

                               H.R. 1941

                     ``Hiring Heroes Act of 2011''
    Section 4. Training and Rehabilitation for Veterans with Service-
Connected Disabilities who have Exhausted Rights to Unemployment 
Benefits Under State Law.
    NASWA is supportive of efforts to provide additional services to 
veterans who have exhausted their unemployment benefits under State 
law. We also suggest earlier emphasis on reemployment of veterans who 
are likely to exhaust their unemployment benefits. We suggest 
legislation be clear whether the State workforce agency or the 
Department of Veterans Affairs would be responsible to determine 
eligibility for this program. State workforce agencies have 
responsibility for the UI programs in their State; the role of the UI 
program should be delineated.
    Section 5. Assessment and Follow-up on Veterans who Participate in 
Department of Veterans Affairs Training and Rehabilitation for Veterans 
with Service-Connected Disabilities.
    This section directs the Secretary to contact such veteran for 
follow-up at 180-day intervals. NASWA suggests legislation be clear 
whether the State workforce agency or the Department of Veterans 
Affairs' would be responsible for conducting the follow-up. Currently, 
DVOP staff conducts the follow-up for Chapter 31 participants referred 
to the State workforce agency for placement services.
    Section 6. Mandatory Participation of Members of the Armed Forces 
in the Transitional Assistance Program of the Department of Defense.
    As stated in our comments for Title II of H.R. 2433, NASWA supports 
the change to require the participation of all members of the armed 
forces eligible for assistance provided by TAP.
    Section 7. Follow-up on Employment Status of Members of Armed 
Forces who Recently Participated in Transitional Assistance Program of 
Department of Defense.
    NASWA interprets this section to mean the State workforce staff, 
primarily the DVOP, would be required to conduct the follow-up activity 
for all Transitional Assistance Program (TAP) participants. This could 
result in a substantial increase in workload. Tracking former 
participants could be very difficult, and the more time that elapses 
after participation, the harder it is to find individuals.
    Section 8. Collaborative Veterans' Training, Mentoring, and 
Placement Program.
    This section includes authorizing appropriations of additional 
funds to carry out the program as described in Section 8. NASWA would 
be concerned if the program used existing State grants funds. We 
appreciate the requirement for grant recipients to collaborate with 
DVOPs, LVERs, and the appropriate State and local board as defined in 
the Workforce Investment Act. However, collaboration takes time and if 
not well-defined, can mean a significant increase in workload for the 
DVOPs, LVERs and other staff.
    Section 9. Individualized Assessment for Members of the Armed 
Forces Under Transition Assistance on Equivalence Between Skills 
Developed in Military Occupational Specialties and Qualifications 
Required for Civilian Employment with the Private Sector.
    As stated in our comments for Title III of H.R. 2433, NASWA 
supports efforts to improve the ability of veterans to use their 
military experience and training to obtain required civilian 
credentials and licenses. A study to identify any equivalence between 
the skills developed by members of the Armed Forces through various 
specialties and the qualifications required for various civilian 
positions should be beneficial to understanding the differences in 
requirements and to assist in veterans obtaining civilian credentials 
and licenses.
    Also, it makes sense to use the results of the study to implement 
individualized assessment of all TAP participants of the various 
positions of civilian employment in the private sector for which such 
member may be qualified as a result of the skills developed by such 
member through the member's military occupational specialty.
    Section 11. Outreach Program for Certain Veterans Receiving 
Unemployment Compensation.
    NASWA supports the focus to provide outreach to covered veterans 
and provide them with assistance in finding employment. Past 
reemployment programs that provided resources to outreach and assist UI 
claimants to obtain employment have been very successful.
    We reiterate the concept we proposed in response to Title III of 
H.R. 2433. The concept would require veterans collecting Unemployment 
Compensation for Ex-Servicemembers (UCX) to register with their local 
one-stop career center as a condition of receiving UCX and receive 
reemployment services. This process could be voluntarily piloted in a 
few States.
    This approach would be targeted and timely--providing early 
intervention and information--on the full array of job opportunities 
and employment and training services for recently discharged veterans. 
It also enhances the Jobs for Veterans Act, taking advantage of the 
Priority of Service provision to focus on veterans most likely to have 
difficulty finding employment.
    If the Committee is interested, NASWA is willing to provide 
background information and suggestions for legislative language.
    Section 13. Enhancement of Demonstration Program on Credentialing 
and Licensing of Veterans.
    NASWA supports a demonstration program on credentialing and 
licensing of veterans. Credentialing and licensing after military 
service is a significant barrier for many veterans in finding 
employment in their field of experience and training.
    NASWA and its members remain dedicated to improving the efficiency 
of the labor market and its labor exchange function, and improving the 
employment opportunities of our Nation's veterans. We are willing to 
assist the Committee and the U.S. Department of Labor in any way 
possible.
    Thank you for the opportunity to address these important issues.

                                 <F-dash>
               Statement of Paralyzed Veterans of America

    Chairman Miller, Ranking Member Filner, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to offer our views on H.R. 2433, the ``Veterans 
Opportunity to Work Act of 2011;'' H.R. 1941, the ``Hiring Heroes Act 
of 2011;'' and H.R. 169. The employment challenges facing average 
Americans is certainly no secret, but the challenges facing veterans, 
particularly disabled veterans, are even greater. PVA is pleased to see 
that the Committee has made employment of veterans one of its highest 
priorities. In fact, PVA has taken on veterans employment for severely 
disabled veterans as one of our primary missions by creating our own 
vocational rehabilitation program focused on actually getting veterans 
into a career, not just a job, and keeping them employed.
    Recent statistics about veterans' unemployment are humbling to say 
the least.
    Unemployment is particularly a problem for veterans who have served 
since September 11, 2011. In fact, according to the Bureau of Labor 
Statistics, the unemployment rate for post-9/11 veterans rose to 12.1 
percent at the end of May from 10.9 percent at the end of April. 
Meanwhile, the unemployment rate for non-veterans remained unchanged at 
9.1 percent during that same period. Moreover, the unemployment rate 
for post-9/11 veterans spikes to nearly 20 percent for male veterans 
ages 18 to 24.
    And yet, the statistics for severely disabled veterans are even 
worse. Currently, approximately 85 percent of veterans with a severe 
disability are unemployed. The reasons for this are many, ranging from 
the veterans fear of reentering the workplace to employers simply being 
unwilling to take on the responsibility of accommodating veterans with 
special needs in the workplace. With these thoughts in mind, an agenda 
that focuses on employment for veterans of all ages, whether disabled 
or not, is critical, and we applaud the Committee for meeting this 
challenge head on.
      H.R. 2433, the ``Veterans Opportunity to Work Act of 2011''
    PVA fully supports H.R. 2433, the ``Veterans Opportunity to Work 
(VOW) Act of 2011.'' PVA is intrigued by the provision to create a 
veterans retraining assistance program. We are unclear as to why the 
program created by this provision would be limited to veterans over the 
age of 35. While we understand that a significant number of veterans in 
the age bracket proposed by this legislation (35 to 60) are chronically 
unemployed, we believe that this program could be beneficial to all 
veterans. That being said, given the vast array of programs available 
to post-9/11 veterans (many of whom are younger than 35), we appreciate 
the fact that the Committee proposes to offer this innovative 
assistance to older veterans.
    PVA appreciates the emphasis placed on improving the Transition 
Assistance Program (TAP) in this legislation. However, we recommend 
that the proposed legislation be clarified to include veterans 
participating in the Disabled Transition Assistance Program (DTAP). We 
have argued over the years that while TAP is questionably effective, 
the DTAP has been completely forgotten. In fact, too often disabled 
servicemembers are not even aware that there is a TAP available 
specifically for them. Additionally, we believe that the Department of 
Labor (DoL) has done a poor job of promoting and conducting DTAP.
    We also fully support the requirement that participation in the TAP 
be made mandatory for all servicemembers prior to discharge. While we 
understand that the legislation includes the caveat that TAP will not 
be mandatory if a ``documented urgent operational requirement prevents 
attendance,'' we believe that such occurrences rarely, if ever, occur. 
In fact, in the past, servicemembers primarily did not attend TAP 
because their unit commanders placed no importance on the program and 
did not readily provide them the opportunity to attend. Fortunately, we 
believe this culture is changing, but it has not been completely 
overcome. Given the difficulty that recently discharged servicemembers 
have achieving meaningful employment, it only makes sense that they be 
required to participate in TAP or DTAP.

    Although PVA appreciates the focus on assessing outcomes of TAP, we 
believe that this assessment can be taken a step further. Often, the 
problem with employment tracking is that it does not follow the 
individual far enough into the future to ensure that they are retaining 
employment for an extended period of time. As such, we believe that 
DoL, the VA, and the Department of Defense should develop an in depth 
assessment that tracks veterans well beyond discharge.
    PVA also supports the provision to reauthorize the demonstration 
project on credentialing and licensure of veterans. Credentialing 
standards, such as education, training, and experience requirements, 
are developed based on traditional methods for obtaining competency in 
the civilian workforce. As a result, many transitioning military 
personnel who have received their career preparation through military 
service find it difficult to meet certification and licensing 
requirements due to the lack of civilian recognition of military 
training and experience. However, we are unclear as to why the 
consultation requirement with ``Federal, State, and industry 
officials'' is being changed.
    PVA also fully supports the provisions to require State employment 
offices receiving Federal grants to maintain a full-time Disabled 
Veterans' Outreach Program (DVOP) specialist and a full-time Local 
Veterans' Employment Representative (LVER) whose responsibilities are 
to only serve the employment needs of eligible veterans. Too often, 
State employment offices take advantage of DVOP and LVER staff to 
fulfill other requirements not related to serving veterans. This has 
long been a complaint of veterans' service organizations. We appreciate 
the fact that the Committee has recognized this problem and is now 
considering legislation to prevent this from happening.
    Lastly, we would like to offer our strong support for the 
reauthorization of the DoL Homeless Veterans' Reintegration Program 
(HVRP). The HVRP is a valuable program focusing on employment of 
homeless veterans. This program has achieved wonderful success since 
its inception approximately 25 years ago. The HVRP provides help for 
those veterans with significant problems including substance-use 
disorder, severe PTSD, serious social problems, legal issues and HIV. 
The specialized services needed for these veterans and provided by HVRP 
are often their only hope. The HVRP is perhaps the most cost-effective 
and cost-efficient program in the Federal Government. And yet in spite 
of the success of HVRP, it remains severely under-funded. 
Reauthorization of this program would ensure that homeless veterans who 
need a high level of support get it.

              H.R. 1941, the ``Hiring Heroes Act of 2011''

    PVA strongly supports H.R. 1941, the ``Hiring Heroes Act of 2011.'' 
With veterans' national unemployment rate higher than civilian 
unemployment rates for all age categories, the Federal Government must 
assist these men and women as they try to assimilate back into the 
civilian world. It is estimated that over 27 percent of young veterans 
coming home from Iraq and Afghanistan are unemployed. The ``Hiring 
Heroes Act of 2011'' is a proactive effort by the various agencies, VA, 
DoL, and DoD, to actively assist these newly discharged servicemembers 
with identifying a career path and obtaining employment they desire. 
The ``Hiring Heroes Act of 2011'' is the first legislation of its kind 
to require broad job skills training for all servicemembers returning 
home.
    Military service to our Nation is preparation for civilian work 
opportunities. Today, most military occupations do not offer that 
benefit since many military occupational specialties are 
nontransferable skills. If all provisions included in the ``Hiring 
Heroes Act of 2011'' are fully developed, properly executed, and 
available to all servicemembers, this effort will provide a strong 
recruitment tool for all branches of service.

                                H.R. 169

    PVA supports H.R. 169. Having readily available information 
pertaining to employment opportunities on the Internet is essential for 
veterans seeking employment in the 21st Century. This is particularly 
true of the newest generation of veterans who rely heavily on internet 
and online social media for information. The internet may be the most 
valuable tool for veterans who are continuing their education or 
looking for employment.
    While creating a hyperlink directed towards veterans employment is 
seemingly a trivial step, it highlights the importance of this issue. 
Additionally, having readily available and easy access to other 
important Web sites such as VetSuccess, USA Jobs, Job Central, and 
other relevant Web sites would certainly improve information sharing 
for veterans seeking employment opportunities. PVA believes that 
determining the information to be made available through this hyperlink 
should be coordinated between the VA and the Department of Labor, 
Veterans Employment and Training Service. We often hear of the 
difficulty veterans face when trying to navigate the vast array of 
information available when seeking employment. We believe the 
provisions of this legislation can help ease their search by placing 
these important links on the main page of the Web site of the 
Department of Veterans Affairs.
    Mr. Chairman and Members of the Committee, once again PVA would 
like to thank you for placing emphasis on one of the greatest 
challenges facing our Nation's veterans.
    Meaningful employment is a vital part of improving transition for 
servicemembers as well as fulfilling our obligation to the men and 
women who served in the past. Moreover, employment holds the key to 
finally overcoming homelessness among veterans. We look forward to 
partnering with you to put veterans back to work. We would be happy to 
respond to any questions that you might have.

                                 <F-dash>
 Statement of Ryan M. Gallucci, Deputy Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States

    MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this Committee for the opportunity to present its views on these 
bills.
    H.R. 169, To require the Secretary of Veterans Affairs to include 
on the main page of the Internet Web site of the Department of Veterans 
Affairs a hyperlink to the VetSuccess Internet Web site and to 
publicize such Internet Web site.
    The VFW generally supports the intent of H.R. 169. However, we 
believe that the problem this bill seeks to rectify goes beyond VA. 
Recently, the Office of Personnel Management published its report on 
the 2009 Employment of Veterans in the Federal Government initiative, 
or Feds Hire Vets. Though the report demonstrated some success in the 
initiative, the gains in veteran hires were underwhelming. Numbers 
across agencies were inconsistent, while traditionally military-
friendly departments, such as the departments of Defense, Homeland 
Security, and Veterans Affairs still comprise nearly 80 percent of 
total veterans employed.
    After reviewing the numbers, the VFW decided to look at how each 
Federal executive agency chose to implement the tasks of the Feds Hire 
Vets program through their Web sites, which the VFW believes is the 
most easily accessible point of entry for job-seekers. The VFW found 
that information for veteran job-seekers was not readily available on 
many agency Web sites, and those that included the information often 
directed job-seekers into a loop that was difficult to navigate, and 
eventually guided job-seekers to USAJOBS.
    Though the VFW does not necessarily support a legislative solution 
to issues of Web site layout and design, we support the notion that 
Federal agencies should practice consistency in their messaging to 
veteran job-seekers. The VFW believes that veterans should be able to 
easily find resources like VetSuccess and USAJOBS on the landing pages 
of Federal agencies, and we hope that Veteran Employment Program 
officers will choose to implement this recommendation as a best 
practice.

H.R. 1941, Hiring Heroes Act of 2011
    The VFW supports H.R. 1941, the Hiring Heroes Act of 2011, and 
considers this bill a critical and overdue piece of legislation that 
will help our Nation's heroes reenter and remain competitive in the 
workforce. During recent difficult economic times, young veterans of 
the wars in Iraq and Afghanistan have been disproportionately affected 
by a stagnant job market, which is why VFW believes Congress should 
take every step necessary to ensure that our Nation's heroes have 
viable careers available to them when they leave the military. The VFW 
generally supports the provisions of H.R. 1941, but we would like to 
focus on several of the bill's sections in our testimony.
    First, the VFW agrees that TAP must be mandatory for all 
servicemembers leaving the military. This is a missed opportunity to 
ensure that all servicemembers have a viable baseline from which to 
work once they reenter the civilian workforce. The VFW also believes 
that consultation with VA should be included in all TAP programs, 
ensuring that veterans transitioning out of the military are at least 
aware of the benefits and services to which they are entitled.
    The VFW also agrees that direct hiring authority for Federal 
agencies and offering civilian work experience for potential civil 
service employees while on terminal leave will cut down on red tape for 
veterans seeking careers in the Federal workforce. Allowing qualified 
veterans a direct path to a civil service career also helps Federal 
agencies fulfill their obligations to employ veterans.
    Finally, the VFW supports offering two additional years of VocRehab 
benefits for unemployed veterans who have exhausted all of their State 
and Federal benefits. The intent of VocRehab is to ensure that veterans 
who were disabled in the line of duty would be trained and employable 
in a new career field. If a veteran has used their VocRehab benefits, 
yet remains unemployed, then their initial VocRehab program clearly 
failed. To the VFW, VA is obligated to ensure that veterans who 
participate in the program truly receive the job skills they need to 
remain competitive in the civilian workforce.
    The VFW also has a suggestion for improving H.R. 1491. Section 9 of 
the bill has the right objective; making the transition from military 
to civilian life easier by allowing servicemembers to apply the skills 
learned from their MOS to the civilian workforce. The problem with 
Section 9 is the approach; calling for a study and report requiring 
coordination between the Secretaries of Defense, Veterans Affairs, and 
Labor. This approach wastes time on bureaucracy, rather than helping to 
place the servicemember in a civilian occupation. Replacing Section 9 
with ongoing private sector initiatives--two of which the VFW follows 
at Fort Bragg and in Illinois--would streamline this transition by 
cutting out bureaucracy. Some of these initiatives utilize mathematical 
algorithms through which servicemembers can simply enter their MOS to 
populate a list of viable civilian careers; others identify and fill 
State credentialing gaps; and industry experts continue to develop ways 
to translate such data sets into usable information to guide veterans 
on their educational and professional training needs. The VFW is eager 
to discuss these initiatives further with Members of the Committee 
following this hearing. The VFW believes that the private sector 
already has the capacity to bring the departments of Defense, Labor and 
Veterans Affairs into the 21st century through these ongoing 
initiatives without wasting additional resources on a duplicative 
study. Starting over with another study could cause a setback on gains 
already made by companies that have identified such gaps and are 
already working to close them.

H.R. 2433, Veterans Opportunity to Work Act of 2011
    The VFW supports H.R. 2433, the Veterans Opportunity to Work Act of 
2011, which is yet another long overdue piece of legislation to help 
veterans find meaningful employment during difficult economic times. 
The VFW generally supports the provisions of this bill, which will 
create substantive new programs for veterans, while also codifying 
reporting requirements for the departments of Defense, Labor and 
Veterans Affairs to ensure that new and ongoing initiatives are 
producing the desired result of placing veterans in viable careers once 
they separate from the military.
    The VFW supports the proposal to create a new Veterans Retraining 
Assistance Program, allowing veterans who have exhausted both their 
education benefits and unemployment benefits to take advantage of an 
additional 12 months of training, honing the skills necessary to 
reenter the competitive job market. This new program would serve an 
often overlooked demographic within the veterans' community--workers 
ages 35 to 60--who are struggling to make ends meet during difficult 
economic times, but either do not qualify for or have exhausted 
comprehensive benefits packages like the Post-9/11 GI Bill or Chapter 
31 Vocational Rehabilitation benefits.
    As the VFW testified in relation to the extension of additional 
Chapter 31 benefits to unemployed veterans who have participated in the 
VocRehab program, VA education benefits were designed to allow veterans 
to cultivate the skills necessary to compete in the civilian workforce. 
If veterans have taken advantage of these programs, but remain 
unemployable, then the programs clearly failed and further assistance 
should be made available. Veterans have been hit disproportionately 
hard by the economic downtown. However, the VFW knows that our Nation's 
war-fighters still bring tremendous intangibles to the workplace. The 
VFW views this short-term benefit as a stop-gap measure to ensure that 
those who served our Nation have the resources they need to help 
stimulate our economy.
    One of the VFW's top priorities for the last few years has been 
mandating TAP programs for separating servicemembers across the armed 
forces. This bill not only mandates TAP, but calls on concerned 
agencies to also compile data on program outcomes such the length of a 
veteran's unemployment following separation, starting salaries upon 
finding employment, and status of educational and vocational training 
programs.
    Another overlooked statistic when discussing veterans' transition 
into the civilian workforce is underemployment. The VFW believes that 
many times veterans with years of relevant work experience as military 
professionals are treated as either entry level or even unskilled 
workers once they enter the civilian workforce. This is unacceptable, 
and the VFW believes that tracking starting salaries for TAP 
participants is a critical first step in rectifying this injustice.
    The VFW believes that by mandating TAP, creating reporting 
criteria, including VA in TAP programs, and possibly integrating 
several of the follow-up provisions from H.R. 1941, Congress can ensure 
that veterans not only receive a baseline of resources to assist in 
their transition off of active duty, but that concerned agencies will 
have a vested interest in demonstrating program success.
    Ensuring successful implementation of ongoing educational and 
employment programs seems to be a consistent goal of H.R. 2433, such as 
calling for DVOPs and LVERs to be evaluated upon completion of their 
training. The VFW supports this evaluation and the requirements that 
all full time DVOPs and LVERs must only perform tasks related to their 
specific function. The VFW has consistently heard of DVOPs and LVERs 
crisscrossing their responsibilities, ultimately diluting the caliber 
of services delivered to veterans eligible for each of the unique 
programs. Implementing auditing requirements whereby States could lose 
funding for DVOPs and LVERs for failure to comply will help ensure 
mission success.
    The VFW also supports the pilot program allowing States to allocate 
up to 25 percent of DVOP and LVER funding for individual job training. 
The VFW believes that this keeps with the intent of DVOPs and LVERs of 
assisting eligible individuals in finding gainful employment, and VFW 
supports the caveat that all requests must be made to VA on an 
individual basis. If existing programs cannot help a veteran become 
employable, the VFW believes this last ditch effort is a proper use of 
available resources to ensure that the unique needs of the veteran will 
be met.
    Finally, the VFW supports the approach H.R. 2433 takes to 
successfully correlating military service to civilian job skills. 
Though this bill also calls for the completion of the DoD, DoL, VA 
study, it includes the caveat that existing programs addressing this 
issue should be leveraged. As we have testified in the past, private 
industry groups are already working to address this issue with 
quantifiable success. We believe it is the responsible course of action 
to ensure that we are not duplicating effort.
    The VFW views both H.R. 1941 and H.R. 2433 as critical pieces of 
stand-alone legislation that can each help veteran job-seekers 
successfully find viable careers after military service. The VFW 
believes that the new benefits programs established by both bills will 
help different sectors of unemployed veterans find viable work, and we 
believe the provisions included to offset costs are fair. The bills 
only minimally overlap when discussing issues such as mandatory TAP and 
credentialing of military job skills in the civilian sector. The VFW 
welcomes the opportunity to work with the Committee on how to improve 
either bill or create a single, comprehensive bill that includes 
provisions of both. However, the VFW must reiterate that unemployed 
veterans need a comprehensive veterans' employment package yesterday, 
which is why we urge Congress to move quickly in passing these 
necessary programs and reforms, and the VFW stands ready to assist in 
accomplishing that goal.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

                                 <F-dash>

                                         Veterans of Modern Warfare
                                                    Washington, DC.

    Good Morning Mr. Chairman and Distinguished Member of this 
Committee.
    Thank you for inviting Veterans of Modern Warfare to address you 
today.
    As you know the national unemployment level is over 9 percent. 
Among Veterans, especially this generation of Veterans it's even 
higher.
    House Resolutions 169,1941 and 2433 are examples of our governments 
understanding and appreciation of our service to this country. Through 
these bills either the continuation of good programs or the mandating 
of specific provisions of established programs will help Veterans 
entering the private sector. Through the TAP program and or other 
programs in these bills, the Department of Labor will provide to the 
returning Veteran the support and training programs necessary to 
reinstitute their place in society. Through tax incentives, employers 
will be incentivized to hire and train this generation of returning 
Warriors.
    Veterans of Modern Warfare applauds the sponsors of these bills. A 
great deal of publicity has been shed on the 21st Century 9/11 GI Bill. 
Which is a wonderful piece of legalization. Unfortunately, as you know, 
not every Veteran is a candidate or has the desire to attend a 4-year 
college. The passage of House Resolutions 169, 1941 and 2433 will 
reassure and support this generation of Veterans returning to our 
society.
    Veterans of Modern Warfare thank and encourage our Legislators to 
continue sponsoring bills that remind Veterans and America, that their 
sacrifices and service is appreciated now and forever in the hearts and 
minds of our country.
    ``A country that doesn't stand by it's Veterans, will one day fall, 
for lack of the Veteran''

            Respectfully,

                                                   Joseph F. Morgan
                                  President/Chief Executive Officer
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011

Hon. Jack Quinn
President
Erie Community College
121 Ellicott Street
Buffalo, NY 14203

Dear Jack:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on September 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member

JL:ds

                               __________
                 Responses from Erie Community College
    Question 1: Is there a difference in needs between a veteran that 
recently separated from service and one who separated over 15 years 
ago?

    Response: The comparison of the veteran of today and the veteran of 
15 or more years ago can be made by looking at two main points that 
impact veterans and 2-year community colleges; economy, operational 
tempo, readjustment, and TBI.
    The economic indicators from 1996 and prior show a more robust 
economy than experienced today. An 8 month recession had ended by March 
1991, unemployment in 1996 peaked at 5.4 percent, with veterans 
experiencing a 3.9 percent unemployment rate.\1\ In 2011, we are 2 
years removed from a defined recession, however recent stock market 
swings indicate otherwise. Current unemployment is at 9.1 percent with 
veterans experiencing a 15 percent unemployment rate.\2\ Veterans of 
today will need educational assistance to become more employable in 
today's job market along with tax incentives for employers to hire and 
retain work ready veterans.
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics http://www.bls.gov/.
    \2\ U.S. Bureau of Labor Statistics http://www.bls.gov/.
---------------------------------------------------------------------------
    The effects of Operational Tempo from multiple deployments over a 
10 year sustained war, coupled with readjustment issues stemming from 
the deployments and undiagnosed Traumatic Brain Injuries (TBI) are 
placing a greater stress on today's veterans verses those of 15 years 
ago.
    The Gulf War had ended by February 1991 and conflicts in Somalia, 
Bosnia and Kosovo were limited in time, scope, and total troop 
deployments. Contrasting that the current veteran has faced a sustained 
multi theater 10-year conflict, with many facing multiple deployments 
and for the first time since WWII an extensive use of the Reserve and 
National Guard. In relation to education this increased OP Tempo has 
resulted in many veterans either breaking the educational path or 
indefinitely delaying it due to time away from school.
    The Department of Veterans Affairs indicated that 313,670 veterans 
of the current conflict have been treated for mental health issues as 
of December 2010.\3\ A Rand Corp study in 2008 showed 13.8 percent of 
1,938 veterans surveyed using the pre-established PTSD checklist (PCL; 
9) showed signs of PTSD. Based on the more than two million troops 
deployed in both OIF and OEF by the end of 2009, the survey supported 
the numbers seeking counseling at VA Hospitals. By comparison the same 
survey applied to veterans of the 1991 Operation Desert Strom indicated 
a 10.1 percent rate of PTSD equating to approximately 30,000 veterans 
with PTSD based on troop deployments.\4\ The number of veterans who 
suffer from readjustment disorders, depression and PTSD will place a 
greater strain on community based counseling services as these veterans 
return to the workforce or to school. Community Colleges with smaller 
class sizes and a less intimidating campus sprawl have proven to be the 
choice of veterans according to VA data. Today's veteran continues to 
look for the atmosphere and support that he or she was accustomed to in 
the military, an atmosphere and system of support more readily 
accessible on a Community College campus.
---------------------------------------------------------------------------
    \3\ Bob Brewin, ``Half the Afghanistan and Iraq veterans treated by 
VA receive mental health care,'' Broken Warriors, Examining the 
invisible wounds of war series, March 2011. http://www.nextgov.com/
nextgov/ng_20110322_2917.php.
    \4\ Jaimie L. Gradus, DSc, MPH, ``Epidemiology of PTSD.'' U.S. 
Department of Veterans Affairs, National Center for PTSD. http://
www.ptsd.va.gov/professional/pages/epidemiological-facts-ptsd.asp.
---------------------------------------------------------------------------
    According to the 2008 Rand report, probable Traumatic Brain 
Injuries (TBI) has been reported in 19 percent of the troops surveyed. 
About 68 percent of the more than 33,000 wounded in action in Iraq 
experienced blast-related injuries.\5\ The rate of psychological and 
neurological injuries suffered by current conflict veterans is on par 
with veterans of the Vietnam War.\6\ How does this impact the veteran 
returning to school? A veteran suffering from neurological injuries as 
a result of a TBI will present mood changes, difficulty concentrating, 
memory, attention, or thinking as well as restlessness, or 
agitation.\7\ These symptoms will transfer directly to the classroom 
setting where veterans will struggle in larger settings. The small 
class size of the Community College creates a more welcoming feel for 
veterans who can receive greater one on one attention, tutoring, and 
ease of transition to an academic setting.
---------------------------------------------------------------------------
    \5\ Lucille Beck and Barbara Sigford, ``Update on Health Care: VA 
TBI Screening Program,'' Department of Veterans Affairs, September 
2008.
    \6\ National Institute of Neurological Disorders and Stroke, 
``Traumatic brain injury: hope through research,'' Bethesda (MD): 
National Institutes of Health; 2002 Feb. NIH Publication No.: 02-158. 
See: http://www.cdc.gov/ncipc/factsheets/tbi.htm.
    \7\ Matthew J. Friedman, MD, PhD, and Paula P. Schnurr, PhD, ``PTSD 
Treatment: Research and Dissemination,'' National Center for PTSD.

---------------------------------------------------------------------------
    Question 2: Is legislation necessary to make TAP mandatory.

    Response: As discussed during the question and answer period and in 
my written testimony, the Transition Assistance Program (TAP) developed 
by the DoD is critical in helping military members and their families 
make a smooth transition from a military career to the civilian sector. 
While all branches of the Armed Services state that the Pre-separation 
counseling is required, only the Marine Corps, Navy and Air Force 
describe the program as congressionally mandatory for all personnel. So 
to answer the question, no new legislation is needed as TAP is already 
considered mandatory by 60 percent of the branches. Under the guise of 
``Commanders Intent,'' the process used by the Marine Corps has been 
further refined to provide personnel with a better skill set on 
separation. A uniformed approach across all branches modeled after the 
Marine Corps Transition Assistance Management Program (TAMP) and 
further follow up through the TurboTap Web site www.turbotap.org would 
better serve personnel and Commanders during this period.

    Question 3: Tina Terhune was eligible for Chapter 30 of the 
Montgomery GI Bill?

    Response: The term of eligibility is 10 years. Unfortunately, her 
eligibility ran out on 6/26/10 and she was only able to use it for one 
summer semester

    Question 4: How many high demand associate degrees and/or 
certificates are offered at Erie Community College?

    Response: The Buffalo and Erie County Workforce Investment Board 
distributes a list of ``Demand Occupations'' each year. Currently, ECC 
offers 32 degree, certificate and/or non-credit training opportunities 
that would be considered ``high demand'' based on this list.

They are:
    Autobody Repair
    Automotive Technology
    Building Analyst
    Building Envelope Professional
    Business Administration
    Business Administration (Transfer)
    CNC Precision Machining
    Clinical Laboratory Technician
    Computer Applications for the Office
    Computer Science
     Construction Management Engineering Technology
    Dental Assisting
    Dental Hygiene
    Financial Services
    Green Building Technology
    Health Information Technology
     Heating, Ventilating, AC and Refrigeration
    Human Services
    Information Technology
     Liberal Arts and Science--Social Science
    Medical Office Assistant
    Medical Office Practice
     Mental Health Asst--Alcohol Counseling
     Mental Health Asst--Substance Abuse
    Nursing
    Occupational Therapy Asst.
    Office Assistant
    Office Management
    Paralegal
    Radiation Therapy Technology
    Respiratory Care

------------------------------------------------------------------------
                           T Chart Comparison
-------------------------------------------------------------------------
Veteran separated over 15 years ago       Recently separated Veteran
------------------------------------------------------------------------
Economic

More robust economy                  Economic downturn
Five years since previous Recession  Two years since last official
GDP decline 1.4 percent through       Recession
 Recession                           GDP decline 5.1 percent through
National unemployment 5.4 percent     Recession
Veteran unemployment rate 3.9%       National unemployment 9.1 percent
                                     Veteran unemployment 15%
========================================================================
Operational Tempo/Deployments

Operation Desert Storm ended 5       Current conflicts are approaching
 years prior                          10 years of sustained multi front,
Conflicts from 1993-1999 were         multi deployment operations
 limited in duration, scope of
 mission and overall troop
 deployment

Approximately 300,000 troops         More than 2 million deployed by the
 deployed                             end of 09
========================================================================
Female Veterans

Number had steadily declined since   Comprise 20 percent of current
 WWII                                 force
                                     Fastest growing population of
                                      homelessness
                                     Female veterans divorce rate at
                                      9.2%
========================================================================
National Guard and Reserve
 Deployments

In 1996 large scale deployments had  Largest call up of National Guard
 ceased                               and Reserve since WWII
Most unit or individual deployment   Duration of deployment exceeds 1
 were short duration peace keeping    year
 or humanitarian missions            Causes issues with education and
                                      career
========================================================================


------------------------------------------------------------------------
                      T Chart Comparison--Continued
-------------------------------------------------------------------------
Veteran separated over 15 years ago       Recently separated Veteran
------------------------------------------------------------------------
Mental Health needs

10 percent of Operation Desert       313,760 have sought treatment at
 Strom veterans diagnosed with PTSD   the VA for mental health issues as
 or depression; 30,000 veterans       a result of current conflicts
                                      Traumatic Brain Injuries on par
                                      with Vietnam War. 68 percent of
                                      wounded in Iraq are from blast
                                      injuries.

========================================================================
GI Bill
                                     Increase in veterans and dependant
                                      accessing GI Bill has dramatically
                                      delayed access to tuition and
                                      housing allowance
------------------------------------------------------------------------

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011

The Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans' Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on September 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds
                               __________
  Committee on Veterans' Affairs, U.S. House of Representatives, Post-
  Hearing Questions for Curtis L. Coy, From the Honorable Bob Filner, 
  Legislative Hearing on H.R. 2433, H.R. 1941, and H.R. 169, July 15, 
                                  2011
    Question 1: What is VA's anticipated cost for adding 132 additional 
FTE to administer the Veterans Retraining Assistance Program?

    Response: In our testimony, VA indicated the need for 132 FTE to 
administer the Veterans Retraining Assistance Program if the claims 
were received evenly throughout the year. However, we would expect to 
receive the bulk of the workload at the beginning of each fiscal year, 
and therefore VA would need 62 permanent FTE and additional temporary 
employees to administer this program.
    Assuming VA receives 65 percent of the total claims payable in the 
first 90 days of each fiscal year (FY), the need in FY 2012 would be 62 
permanent FTE and 77 temporary FTE. In FY 2013, the need would grow to 
62 permanent FTE and 104 temporary FTE. In FY 2014, the need would be 
62 permanent FTE. The administrative costs are estimated to be $9.4 
million the first year and $20 million over 3 years. These costs 
include payroll and benefits for the new employees, office supplies, 
equipment, and additional rent costs.
    In addition to VBA administrative costs, IT costs are estimated to 
be $851,000 the first year and $1.1 million over 3 years.

    Question 2: How much time would VA need to hire and train the 132 
FTE?

    Response: VA anticipates that it will take 6 months to hire and 
train the permanent and temporary employees once an agreement with the 
Department of Labor and processing system are in place.

    Question 3: Does VA have a National advertising plan to publicize 
benefits nationwide?

    Response: VA is developing a national advertising plan. This will 
be a comprehensive campaign based on market research and strategic 
analysis that uses clear, accurate, consistent, and targeted messaging 
to educate Veterans, their families and interested groups on VA's 
benefits and services.
    The National Veterans Outreach office has been charged with two 
roles in advertising benefits: (1) Review Departmental advertising 
efforts over $10,000 in scope and recommend approval or disapproval; 
and, (2) Develop a national advertising strategy (explained below).
    The plan will emphasize the use of partnerships including the Ad 
Council (www.adcouncil.org), a private, non-profit organization that 
marshals volunteer talent from the advertising and communications 
industries, the facilities of the media, and the resources of the 
business and non-profit communities, to deliver critical public service 
announcements to the American public. The campaign will leverage 
advertising technology and the voice of partners to deliver VA's 
message.
    VBA's Benefits Assistance Service (BAS) works closely with VA's 
National Veterans Outreach office to develop outreach products and 
campaigns to enhance access to VA benefits. BAS promotes national 
awareness of self-service activities available through eBenefits. In 
collaboration with the rest of VA, BAS is committed to providing 
streamlined benefits to Servicemembers, Veterans, and their dependents.

    Question 4: How much money has VA spent in the past 3 years on 
advertising?

    Response: VA issued its first national ``Interim Advertising 
Policy,'' August 5, 2010, to provide direction, set standards and 
delegate responsibility for advertising.
    Prior to the issuance, VA administrations and offices were largely 
prohibited from conducting ``marketing and advertising.'' As a result, 
there wasn't a specific entity with responsibility of tracking 
advertising within VA. Advertising was largely permitted for the 
recruitment of health care professionals. Thus, information on 
expenditures have not been collected.
    However, VA is establishing methods to standardize and track 
advertising. The National Veterans Outreach Office was established 
within the Office of Public and Intergovernmental Affairs (OPIA) in FY 
2010 to assess and standardize how outreach is being conducted 
throughout VA, and to further develop the process for oversight and 
tracking of advertising campaigns over $10,000.
    The Office is also providing project management of significant 
marketing and advertising contracts, and is working to develop a system 
to track department-wide performance measures for VA's outreach 
programs.
    In FY 2010, the Office of Public and Intergovernmental Affairs 
(OPIA) developed the ``What Lies Ahead,'' and ``Care Package,'' public 
service announcements as a part of national Veterans awareness campaign 
targeting OIF/OEF Veterans at a cost of $5 million.
                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011

Robert Madden
Assistant Director, National Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Robert:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could 
answer the enclosed hearing questions by the close of business on Septem
ber 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely

                                                         BOB FILNER
                                          Ranking Democratic Member

JL:ds
                               __________
                                                    American Legion
                                                    Washington, DC.
                                                      July 19, 2011

Honorable Bob Filner, Ranking Member
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Ranking Member Filner:

    I respectfully submit the following responses to your additional 
questions from the Full Committee hearing on H.R. 2433, H.R. 1941, and 
H.R. 169 conducted on July 15, 2011:

    Question 1: According to resolution #342, the Legion seeks 
elimination of the VA Home Loan Funding fee. How do you reconcile your 
support for a bill that extends the fees at a higher rate when they 
were going to decrease?

    Response: While The American Legion would like to see the 
elimination of the VA funding fee, there are programs that are needed 
and required now. Ultimately, The American Legion would like to see the 
elimination of the VA Home Loan Funding Fee for veterans.

    Question 2: Since States have the biggest role to play in licensure 
and credentialing, what are the top 3 things that can be done to assist 
veterans with licensure and credentialing?

    Response: The lack of attainment of both State licenses and 
national certifications can be a significant barrier for transitioning 
servicemembers and veterans. It is important to note that State 
licensing and national certification are two separate things and 
reducing barriers in these areas requires different strategies. 
Promoting State licensing of servicemembers and veterans is an 
important policy goal, but attention should also be provided to issues 
related to national certification. With regard to State licensure, the 
top three things that can be done to alleviate barriers include:

    1.  Ensuring that States pass legislation and change regulations to 
allow licensing bodies to recognize equivalent military training and 
experience. (The States of WA, CO, UT, VA, and MD currently have 
legislation that does this that can serve as models for other States.)
    2.  Demonstrate to State licensing agencies (and national 
certification bodies) the equivalency of military training and 
experience by conducting gap analyses between military training and 
experience and State licensing requirements and reporting this 
information systematically to the State licensing agencies.
    3.  Encourage States to grant reciprocity for servicemembers, 
veterans, and spouses who have attained licenses in the same occupation 
that are attained in other States. This would allow servicemembers and 
spouses to get licensed in one State during their military service and 
then, when they transition out of the service to a different State that 
license will be recognized and they will not have to attain a new 
license in order to practice.

    It is important to note that The American Legion believes that 
national certification (e.g., certifications for automotive mechanics, 
dental assistants, IT personnel) is equally important as State 
licensing. Employers often require these certifications even when there 
is no comparable licensure requirement in the State. Moreover, civilian 
certifications provide concrete evidence that transitioning 
servicemembers' and veterans' skills are on par with their civilian 
counterparts. However, many servicemembers leave the military without 
these certifications. The American Legion recognizes that reducing 
barriers to certification requires a multi-faceted approach. The top 
three things that can be done to promote certifications are:

    1.  Ensure that all servicemembers have equal access to information 
on certifications (and licenses) related to their military occupations. 
To date, only the Army and Navy consistently disseminate complete 
information on credentialing to their servicemembers (through the Army 
and Navy Credentialing Opportunities On-Line or COOL initiatives). 
While the Air Force has a web-based tool (called CERT), it is not 
nearly as comprehensive as the COOL initiatives. Moreover, the Marine 
Corps does not have anything to disseminate information on 
certifications and licenses to its servicemembers.
    2.  Promote funding of certifications and licenses. This can be 
accomplished in three ways:

        <bullet>  Require the military services to fund credentials for 
        certifications and licenses directly related to the 
        servicemember's military occupational specialty. Currently the 
        Navy is the only service that has exercised its authority under 
        the National Defense Authorization Act (NDAA) for 2006, which 
        authorized the expenditure of appropriated funds for 
        servicemembers to pay for commercial credentials.
        <bullet>  Ensure that the VA promotes the GI Bill licensure and 
        certification benefit to servicemembers and veterans. Many 
        servicemembers and veterans are unaware that the GI Bill will 
        reimburse up to $2,000 per test for licensure and certification 
        exams. The VA needs to increase awareness of this benefit.
        <bullet>  Ensure that the VA publicizes to licensure and 
        certification agencies the need to get their certifications and 
        licenses approved by the VA for GI Bill payment. Currently, 
        data from the Army and Navy shows that less than 50 percent of 
        the certifications and licenses that are related to Soldiers' 
        and Sailors' military occupations have been approved for GI 
        Bill payment.

    3.  Promote Accreditation of Certification Programs. The lack of 
accreditation of certification programs means that servicemembers and 
veterans may spend money on certifications that do not have relevant 
value. Unlike in higher education where accreditation of institutions 
and programs is prevalent, there is currently no systematic monitoring 
of the quality of certification programs. Two agencies currently 
accredit certification programs--the American National Standards 
Institute (ANSI) and the National Commission on Certifying Agencies 
(NCCA); however, the vast majority of certification programs have not 
been accredited. Army and Navy data show that less than 10 percent of 
certifications related to their military occupations have been 
accredited by either organization. Accreditation of certification 
programs is of benefit to military servicemembers, veterans, and 
civilians, but it can be costly for certification agencies and there is 
no major incentive for them to get accredited. Therefore, The American 
Legion recommends that the Department of Labor seriously consider 
providing grants to certification agencies that elect to get 
accredited.

    Question 3: Is the Legion supportive of taking money from one group 
of veterans to pay for benefits for another group of veterans?

    Response: The American Legion supports increasing veteran's 
benefits that provide valuable solutions to problems that face veterans 
from all eras of service. When financing a veteran's benefit, the 
financing should not be taken from a current benefit in order to pay 
for the newly created one, instead funding should come from a direct 
source that does not interfere with another veteran's benefit.

    Question 4: What are the top 5 employment barriers facing veterans 
today?

    Response: The American Legion has identified the following 
employment barriers facing veterans:

    1.  Difficulty in translating military training and experience to 
civilian jobs. A recent Society of Human Resource Management survey 
determined that 70 percent of civilian hiring managers cited their 
inability to translate military training and experience to their 
civilian jobs as a major challenge in hiring veterans.
    2.  Lack of attainment of civilian occupational credentials while 
in the military. Civilian credentials are instrumental in ensuring 
civilian employers that transitioning servicemembers' and veterans' 
skills are on par with their civilian counterparts. They are also often 
required by civilian employers or by government agencies in order to 
perform certain occupations.
    3.  Lack of a centralized database of veterans' resumes. It is 
often difficult for employers to locate/identify qualified 
transitioning servicemembers and veterans to fill their job vacancies. 
Employers--particularly small business--often see the cost of using a 
private sector recruiter that specializes in hiring of ex-military as 
too prohibitive. A publicly funded talent bank that is heavily promoted 
to veterans and employers would help match qualified veterans with 
civilian jobs.
    4.  Deployments. The multiple deployments of veterans have taken 
them out of the job market and networking opportunities, which amounts 
to tremendous difficulties with obtaining and/or sustaining meaningful 
employment. Due to the recession, there are limited amount of jobs with 
heavy competition to fill them. Employers are skeptical to say the 
least in hiring veterans (National Guard and Reservists), because of 
the inevitable deployments, which has a major impact on business 
productivity, particularly small businesses. Furthermore, the longer a 
veteran is out of work, it becomes more of a challenge to find gainful 
employment, due to the private sector tending to assume that the 
veteran's skills have considerably diminished.
    5.  Stigma of PTSD & TBI (invisible wounds). There is a significant 
portion of combat veterans who have been diagnosed with PTSD and/or 
TBI. These invisible wounds have been well-documented since the two 
wars have progressed, which has caused an immediate concern to the 
private sector regarding the capability of combat veterans with these 
diagnoses in a civilian work environment. Currently, these invisible 
wounds are being researched/studied to provide employers and the public 
more details regarding how these mental disabilities effect veterans' 
work habits and ability to be productive in a work and/or family 
dynamic. Additionally, due to the fact that employers have a modest 
understanding about veterans' benefits, they have serious concerns 
regarding health care costs of hiring veterans with PTSD and TBI, along 
with other physical disabilities. These invisible wounds have set 
tremendous obstacles for veterans who are seeking employment.

    Question 5: Should the Transition Assistance Program (TAP) be 
completely contracted out?

    Response: The American Legion is supportive of making the 
Transition Assistance Program (TAP) mandatory; similar to the way the 
United States Marine Corps requires their troops to attend the TAP 
program. The TAP program is undergoing significant changes that have 
not been implemented. The American Legion has been advocating for an 
innovative and comprehensive TAP program, conducted by trained and 
effective leaders. At this time, The American Legion does not have a 
position on whether or not TAP should be contracted out; however, we're 
strongly recommending sweeping changes to be made to the TAP program 
that benefits servicemembers who are reintegrating into civilian life.

    Question 6: The government provides programs to help separating 
veteran's transition back into their communities. How long should the 
government continue to provide such services after servicemembers 
separate from the military?

    Response: The American Legion strongly believes that the government 
should provide assistance and/or services for these transitioning 
servicemembers as long as they require help. The government along with 
the private sector should be focused on providing the most proficient 
programs that provide education, training, employment and business 
opportunities, so veterans can productively move onto their next phase 
in life without incurring severe difficulties. It is the obligation of 
the government and the servicemember, in partnership with entities such 
as The American Legion, to create objectives and strategies which will 
significantly assist veterans with their journey to a seamless and 
successful transition. This is not a one-topic issue but, as we have 
learned, this is a multi-faceted issue which if not properly addressed 
can bring about: high unemployment rates, homelessness and other 
transitional issues. The American Legion will continue to support and 
advocate for effective government programs that enhance the employment 
and business opportunities for servicemembers as they transition from 
the Armed Forces.

    Question 7: Section 203 and Section 4114 of H.R. 2433 direct the 
Department of Labor to use funds made available for the State grant 
program. Are you concerned that this directive may reduce funds to the 
States to provide direct services for veterans?

    Response: The American Legion supports conducting the research, 
analysis, and reporting required in H.R. 2433 related to the Transition 
Assistance Program (Section 203) and credentialing (Section 4114) and 
is not concerned that it will take away funds for providing direct 
services to veterans. The American Legion recognizes the importance of 
funds for direct services to veterans; however, we also recognize the 
importance of conducting periodic evaluation and review of existing 
programs and identifying new methods of reducing employment barriers 
for transitioning servicemembers and veterans. If this type of research 
is not conducted, it is difficult to ensure that the existing services 
provided meet the needs of today's veterans.

    Question 8: If DoD needs to share information With NASWA does your 
Organization have any privacy or security concerns?

    Response: The American Legion does not have a position or 
resolution on this topic, therefore will decline comment.

    Question 9: The pilot program, established by H.R. 2433, authorizes 
25 percent of State funds to be used by States to enter into grants 
with the ten States with the highest unemployment which would 
essentially mean a 25 percent reduction in funding for Disabled 
Veterans Outreach Program Specialists (DVOPS) and Local Veterans' 
Employment Specialists (LVERS). Do you support this reduction to the 
States with the worst unemployment and how helpful do you think this 
will be?

    Response: The American Legion does not support this reduction. 
DVOPs and LVERs play an important role in providing direct assistance 
to veterans who are disabled and/or other eligible veterans seeking 
employment. The American Legion seeks legislation that will transfer 
all DVOPs and LVERs from the State Agencies to DoL-VETS for supervision 
and oversight in order to ensure that the individuals employed to serve 
veterans are not used for other programs.

    Question 10: In your testimony you mention that older veterans have 
great financial responsibilities and often have families. Do you think 
that younger veterans may be in the same position?

    Response: Yes. The context was not only to look at the younger 
generation who are searching for jobs and who might have education 
eligibility or other forms of Federal financing, but to also look at 
the population of older veterans who are in a forced transitional 
phase. These older veterans might have been working at a job for 10-20 
years and have had to reinvent themselves to gain a new job skill or 
vocation. Typically an older veteran tends to have a wife, children, a 
home and possibly greater debt. Veterans of all ages are serving in the 
war, but those who have come before the younger generation are not to 
be forgotten when discussing the employment of veterans.
    Thank you for your continued commitment to America's veterans and 
their families.

            Sincerely,

                                  Robert Madden, Assistant Director
                                       National Economic Commission

cc: Chairman Stutzman
                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011
Tom Tarantino
Senior Legislative Associate
Iraq and Afghanistan Veterans of America
777 North Capitol Street, NE
Washington, DC 20002

Dear Tom:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on September 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member

JL:ds
                               __________
      House Committee on Veterans Affairs, Legislative Hearing on
    July 15, 2011, Questions for Tom Tarantino, Senior Legislative 
  Associate, Iraq and Afghanistan Veterans of America, August 15, 2011
    Question 1: Section 203 and Section 4114 of H.R. 2433 directs Labor 
to use funds made available for the State grant program. Are you 
concerned that this directive may reduce funds to the States to provide 
direct services for veterans?

    Response: IAVA staff could not find section 4114 of H.R. 2433. 
However, under section 301 of H.R. 2433, Title 38 section 4114 is 
discussed. IAVA does not believe that this provision would have a 
substantial negative impact upon services for veterans. IAVA has 
championed the cause of translating military training into civilian 
credentials and we believe that this provision will prove tremendously 
valuable to veterans. If IAVA has any criticism of this provision it is 
that it does not cover more military occupational specialties.
    Section 203 of H.R. 2433 establishes the conduct of an audit of the 
program once every 3 years by a veteran-owned small business. While 
IAVA clearly would like all funds dedicated for veterans programs to go 
directly to those programs, we also understand the need to collect 
metrics on the success and effectiveness of those programs. IAVA has 
long championed increased collection of information on veterans and 
veterans programs; one of the issues we face in our efforts to help our 
Nations heroes is a dearth of useful information. The nature of the 
requirements of section 203 appear to be of minimal impact, and IAVA 
does not believe that this requirement will have a significant negative 
impact upon the execution of the VA's mission or individual programs.

    Question 2: The pilot program, established by H.R. 2433, authorizes 
25 percent of State funds to enter into grants with the ten States with 
the highest unemployment would essentially mean a 25 percent reduction 
in funding for Disabled Veterans Outreach Program Specialists (DVOPS) 
and Local Veterans' Employment Representatives (LVERs). Do you support 
this reduction to the States with the worst unemployment and how 
helpful do you think this will be?

    Response: The likely effectiveness of this program is beyond the 
resources of this office to quantify. While a reduction in funding for 
DVOPS and LVERs seems, on the surface, drastic and counterproductive to 
the goal of helping veterans gain employment, increasing grants to the 
States with the highest rates of unemployment appears, on the surface, 
to be a good approach to a worthy goal. The real question is: How 
effective is the current system and will the new system be more 
effective? IAVA supports any measure that results in a more efficient 
and effective system that quickly delivers fair and accurate benefits 
to veterans. However, IAVA does not support attempts to reduce the VA's 
ability to effectively deliver fair and accurate benefits to veterans.

    Question 3: Should a State ever lose its funding for its State 
grant program that provides direct services for veterans?

    Response: If the program is ineffective and wasteful, then ``Yes.'' 
IAVA's primary concern is the quick and effective delivery of fair and 
accurate benefits that help veterans. If programs are effective and 
helping veterans, then they should be continued. IAVA believes that any 
program that does not meet that standard should be restructured, 
rethought, and potentially cut in favor of better ideas.

    Question 4: What more should VA be doing to publicize their 
benefits to veterans and families?

    Response: Mandatory attendance of the Transition Assistance Program 
(TAP) by all separating servicemembers will go a long way towards 
informing veterans and their families of what the VA has to offer. IAVA 
has long advocated for this measure and we continue to push for 
mandatory TAP. President Obama's recently proposed veterans employment 
initiative, S. 951 sponsored by Sen. Patty Murray, H.R. 1941 sponsored 
by Rep. Bishop and H.R. 2433 sponsored by Rep. Miller show that there 
is bipartisan support for this common sense measure. IAVA supports the 
adoption of mandatory TAP attendance for all servicemembers.

    Question 5: Currently, what grade would you give VA on their 
efforts to inform veterans about their benefits?

    Response: While IAVA has long championed improvement within the 
administration and delivery of VA programs and services, IAVA believes 
that ``grading'' the VA is counterproductive. Higher grades could lead 
to complacency, a false sense that all is well and there is no 
improvement to be found. Lower grades needlessly fuel outside criticism 
and call for shifting spending away from the VA instead of improving 
their delivery. In addition, painting the depth and breadth of the VA 
programs with a single stroke does not recognize that there are both 
exceptional programs and those in need of improvement. IAVA recognizes 
that the VA and its employees strive to provide help to our Nation's 
heroes but we reserve the right to provide constructive criticism at 
the appropriate time in the appropriate forum.

    Question 6: Are you concerned that H.R. 2433 excludes veterans that 
qualify Chapter 30, 31, 33, and 35 but not veterans eligible for Title 
32, Chapters 1606 and 1607?

    Response: There are no chapters 1606 or 1607 in Title 32 of the 
U.S. Code. There are however, chapters 1606 and 1607 of Title 10 U.S.C. 
that deal with educational assistance for members of the Select 
Reserve. IAVA does note that not excluding these chapters is 
inconsistent, but does not object to their exclusion. Since the House 
Veterans Affairs Committee does not have jurisdiction over issues 
pertaining to Title 10 U.S.C., I can only speculate that they were left 
out to avoid any jurisdictional issues with the legislation.

    Question 7: Community college associate degree programs are for an 
average of 2 years. Do you have any concerns that the retraining 
program is only for 12 months?

    Response: The purpose of the bill is to address retraining, not 
initial study for an associate, technical, or baccalaureate degree. 
Therefore, the period of time to complete retraining should not be as 
long because prerequisites will have already been dispensed with.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011

Bob Simoneau
Deputy Executive Director
National Association of State Workforce Agencies
444 North Capitol Street, NE, Suite 142
Washington, DC 20001

Dear Bob:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on September 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds
                               __________
     Committee on Veterans' Affairs, U.S. House of Representatives,
Post-Hearing Questions for Bob Simoneau, From the Honorable Bob Filner, 
  Legislative Hearing on H.R. 2433, H.R. 1941, and H.R. 169, July 15, 
                                  2011
    Question 1: How can we help employers understand the qualifications 
veterans and servicemembers have to offer?

    Answer: With limited resources, State Workforce Agencies (SWA) 
attempt to make labor exchange services as efficient as possible. SWAs 
and local one-stop career centers work closely with unemployed veterans 
to gain a sense of their skills, and they assist them either to apply 
directly for available jobs, or if needed, they offer intensive 
services up to and including training.
    The SWAs have used web services, such as the National Labor 
Exchange (NLX) and the MOS crosswalk page at O*Net, where employers and 
veterans can relate the Military Occupational Classification with the 
private sector Occupations. Today much of the interaction between job 
seekers and employers occur thru Web sites.
    The Transition Assistance Program (TAP) can help veterans learn how 
to communicate with employers in ways employers understand, and make 
connections for potential employment. Requiring all of the armed 
services to mandate transitioning members to attend TAP would help 
prepare them for connecting with employers.
    Promotional efforts to demonstrate the value of hiring a veteran 
and to better define the qualifications of a veteran or servicemember 
need to be increased. Congressional support for such efforts would help 
to maintain this as a priority.
    The employer tool kit developed by the U.S. Department of Labor 
Veterans Employment and Training Service (VETS) is an excellent start, 
but may need to be marketed better to employers. The link is in a 
prominent spot on the VETS Web site, but could be identified better 
with an icon or something to attract attention. VETS could promote the 
tool kit more directly with employer groups and associations. The tool 
kit is available at: (http://www.americasheroesatwork.gov/forEmployers/
HiringToolkit). Many other groups and agencies also have developed 
employer tool kits.

    Question 2: Do you think that employers are looking for a labor 
pool of applicants with marketable and transferable job skill that 
veteran's lack?

    Question 2(a): What types of jobs are most veterans likely to 
qualify for and do those jobs exist or are there enough of those jobs?

    Answer: To answer this question with any specificity we would need 
to discuss the skills of specific categories of veterans. For example, 
if we look at the education levels of veterans, we find veterans have a 
wide range of educational backgrounds. In the four categories shown in 
Appendix A, veterans have an education distribution equal to or better 
than the general population.
    We do not have data on unsuccessful matches between the veteran job 
seeker and available jobs; real-time labor market information and 
analysis may help, but the ability to do this is just now emerging 
among States.
    We have information on veterans who get training under the 
Workforce Investment Act. The data show more than 28,000 veterans 
received services in program year 2010, including training, to help 
them gain skills needed to obtain new jobs.

    Question 3: What grade would you give employers for understanding 
the Uniformed Services Employment and Reemployment Rights Act (USERRA)?

    Question 3(a): What grade would you give to employers for USERRA 
compliance?

    Answer: NASWA and the SWAs are not involved directly with USERRA. 
VETS, especially the State Directors for Veterans Employment and 
Training (DVETs), have the primary responsibility for the USERRA 
program. Also, representatives for the Employer Support for the Guard 
and Reserve (ESGR) assist in processing initial USERRA questions and 
complaints. Workforce system staff members, especially DVOPs and LVERs, 
are knowledgeable about the basic criteria under USERRA, and refer 
veterans to the DVET in their State, or to ESGR representatives.
    NASWA does not have specific data on program understanding by 
employers; anecdotal evidence would indicate a good deal of 
understanding. The Society of Human Resource Managers (SHRM) conducted 
a survey in 2010; the results are shown in Appendix B.
    Although the SHRM survey is based on a relatively small sample of 
employers, it demonstrates a need to improve education of employers 
about their responsibilities under USERRA. There is heavy employer 
involvement in membership in DirectEmployers, which partners with NASWA 
to run the National Labor Exchange and VetCentral.
    There is evidence from VETS that the number of official complaints 
filed against employers has remained relatively constant for the last 5 
years, which may indicate at least there is not a growing problem. In 
2010, there were 1,438 new USERRA cases, plus 244 carry over cases. 
This compares with the following caseloads:

    2005--1,252 cases
    2006--1,434 cases
    2007--1,365 cases
    2008--1,426 cases
    2009--1,431 cases

    According to VETS, approximately one third of the meritorious cases 
each year are resolved, one third of the cases are not supported by 
evidence, and one third of the cases are withdrawn or were not eligible 
under USERRA.
                               Appendix A
                Educational Attainment by Veteran Status
                          Percent distribution

------------------------------------------------------------------------
                                              Some college
                   Less than a   High school  or associate     College
 Veteran status    high school  graduate, no     degree       graduate
                     diploma       college
------------------------------------------------------------------------
Nonveterans           14.3          30.8          27.6          27.2
------------------------------------------------------------------------
Veterans               7.4          32.7          32.8          27.1
------------------------------------------------------------------------
Gulf War-era II        1.5          29.2          45.9          23.4
 veterans
------------------------------------------------------------------------
Gulf War-era I         1.5          28.0          41.4          29.1
 veterans
------------------------------------------------------------------------
WWII, Korean War      10.2          32.3          28.9          28.6
 and Vietnam-era
 veterans
------------------------------------------------------------------------
Source: Bureau of Labor Statistics, Current Population Survey, annual
  averages 2009, at: www.bls.gov/spotlight/2010/veterans.

                               Appendix B
[GRAPHIC] [TIFF OMITTED] T8453A.001


                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      July 26, 2011

Ryan M. Gallucci
Deputy Director, National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, NE
Washington, DC 20002

Dear Ryan:

    In reference to our Full Committee legislative hearing on H.R. 
2433, H.R. 1941, and H.R. 169 that took place on July 15, 2011, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on September 7, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member

JL:ds
                               __________
            STATEMENT OF RYAN M. GALLUCCI, DEPUTY DIRECTOR,
         NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS
         OF THE UNITED STATES, RESPONSE TO QUESTIONS SUBMITTED
       BY RANKING MEMBER FILNER, COMMITTEE ON VETERANS' AFFAIRS,
   UNITED STATES HOUSE OF REPRESENTATIVES WITH RESPECT TO SUBMITTED 
           SEPTEMBER 7, 2011, H.R. 169, H.R. 1941, H.R. 2433
    Question 1: You recommend replacing Section 9 of H.R. 2433 with 
private sector initiatives. Can you give us a brief summary of these 
private sector initiatives?

    Response: Several initiatives that the VFW has been following 
closely include the Military Pipeline, Helmets to Hardhats and the 
Teamsters' initiatives on credentialing health care professionals and 
commercial drivers. Military Pipeline is an independent program, 
currently being tested at Ft. Bragg, which allows servicemembers and 
veterans to correlate their military job skills to potential civilian 
career fields. Using mathematical algorithms, the proprietary software 
also allows veterans to learn of credentialing gaps for career fields 
they may wish to pursue. The program's developers are also looking for 
ways to responsibly steer servicemembers and veterans down viable 
career paths, once credentialing gaps have been established. Helmets to 
Hardhats is another program which seeks to streamline the process 
through which servicemembers can quickly transition from military 
service into construction-related jobs. Though Helmets to Hardhats is 
operated as an online opt-in program for veterans interested in 
construction-specific careers, the portal has an established network of 
regional outreach coordinators to assist veterans in pursuing union and 
non-union construction careers, as well as apprenticeships. Finally, 
the Teamsters currently operate two separate pilot programs designed to 
close credentialing gaps for two of the military's most highly trained, 
yet underemployed MOSs, health care professionals and truck drivers. 
The Teamsters are currently working in the State of Illinois to close 
credentialing gaps for servicemembers trained in these fields and 
looking to pursue these kinds of careers in the civilian job market. 
These four initiatives only scratch the surface, as countless others 
are underway across the country. The VFW believes that credentialing 
gaps have already been thoroughly identified through private sector 
initiatives, and rather than funneling more taxpayer money into 
additional studies of the phenomenon, the interests of veterans would 
be better served by reviewing private sector programs and investing in 
infrastructure that is already working to fix the credentialing gap.

    Question 2: Is VFW supportive of taking money from one group of 
veterans to pay benefits for another group of veterans?

    Response: The VFW does not support taking money from one group of 
veterans to pay for benefits for another group of veterans. However, 
the VFW respectfully disagrees with the premise that failing to lower 
interest rates on VA home loans is tantamount to increasing fees or 
lowering benefits for a certain group of veterans. The VA home loan 
benefit remains one of the best veterans' benefits available, and 
continues to offer the best rates in the housing market exclusively for 
veterans. Since the law was passed, authorizing a rate reduction, the 
needs of American veterans have shifted drastically, no longer making 
such a rate reduction a viable course of action.

    Question 3: You state that another study could cause setbacks on 
claims already made. Is there such a thing as too many audits and 
studies?

    Response: The VFW believes that too much time is wasted on 
government studies when need has already been identified. H.R. 1941 
proposes another study on closing civilian credentialing gaps, 
requiring coordination between DoD, VA, and DoL. The VFW believes that 
such studies are duplicative and would waste time, while veterans 
continue to remain unemployed. The VFW would support the aforementioned 
private sector initiatives in lieu of more studies. However, the VFW 
does support proper auditing measures with regard to veterans 
employment programs. For example, we fully support proper auditing of 
TAP program outcomes, as included in both H.R. 1941 and H.R. 2433, and 
auditing of the pilot program to use DVOP and LVER funds for individual 
training.

    Question 4: You state that if veterans take advantage of a Federal 
program and remain unemployed, then the program failed. If a veteran 
gets a college degree and remains unemployed like many of his or her 
civilian counterparts is that a failure of the program?

    Response: The VFW believes that chronic unemployment clearly 
demonstrates a failure in academic planning, or a failure to cultivate 
the necessary skills to compete in the job market. However, I must 
clarify my statement on the extension of certain benefits offered by 
H.R. 1941 and H.R. 2433. The VFW believes that the VA is obligated to 
extend VocRehab benefits, which are included in H.R. 1941, because the 
premise behind VocRehab is that veterans are unemployable and must be 
retrained due to service-connected disabilities. The VFW believes that 
the extension of Chapter 30-style benefits, which are included in H.R. 
2433, would be a critical tool to help veterans reenter the job market, 
should they become and/or remain unemployed at the ages of 35-60. For 
this particular demographic, careers may have disappeared as the job 
market has evolved. Extension of this benefit is not an obligation of 
VA, but, rather, a temporary, responsible, stop-gap measure to help 
this particular group of veterans find viable careers and stimulate the 
economy during difficult economic times.

    Question 5: What role should the veteran and the VA play in 
determining what type of training is most beneficial for the veteran?

    Response: The veteran deserves the opportunity to determine his or 
her career path and the opportunity to develop a responsible course-of-
action to succeed in that industry. VA should have the ability to offer 
sound advice to veterans on how to make this happen. The VA also has an 
obligation to ensure that requisite education and training is conducted 
through credible institutions in a timely manner. Over the last few 
months, the VFW has learned that vetting processes for institutions 
accepting VA education benefits are irresponsibly lax, allowing 
predatory institutions of higher learning to take advantage of veterans 
eligible for taxpayer-funded benefits. Such institutions should be 
ineligible to receive Federal education dollars, and the VA should be 
able to offer sound counsel to veterans seeking to utilize their 
benefits.

    Question 6: You state that veterans with years of relevant work 
experience are treated as either entry level or even unskilled once 
they enter the civilian workforce. What can be done to remedy this 
issue?

    Response: The VFW believes that many times this is the result of 
military skills not translating well to the civilian job market. The 
VFW supports Department of Defense efforts to close credentialing gaps, 
ensuring that separating servicemembers are employment-ready once they 
leave active duty. The VFW also supports outreach efforts to private 
industry to help demonstrate the value of prior service military 
employees.

    Question 7: Section 203 and Section 4114 of Hr. 2433 directs the 
Department of Labor to use funds made available for the State grant 
program. Are you concerned that this directive may reduce funds to the 
States to provide direct services for veterans?

    Response: The VFW believes that this provision in H.R. 2433 gives 
leverage to DVOPs and LVERs in the States hardest hit by the economic 
downturn to accomplish their mission of employing veterans. The VFW 
believes that the 3-year pilot program includes proper safeguards to 
ensure that funds are used responsibly when they are set aside for 
individual training. The pilot program specifically lays out 
eligibility criteria and auditing criteria to prevent fraud. Should 
this pilot program come to fruition, VFW would monitor progress closely 
and make further recommendations to this Committee on the viability of 
expanding the program beyond the original 10 States.

    Question 8: If DoD needs to share veteran information with the 
National Association of State Workforce Agencies does your organization 
have any privacy or security concerns?

    Response: The VFW is unclear as to what this question pertains to 
with regard to the included legislation, and cannot speak on behalf of 
NASWA. However, we believe that DoD could help to remedy the current 
veterans' employment crisis by offering home-of-record information to 
State employment offices. We believe that this could pose challenges to 
DoD with regard to personally identifiable information, but we also 
believe that DoD has the capability to ensure that PII beyond home-of-
record could be redacted from any records turned over to State 
operators. The VFW believes that for State employment officers to be 
able to properly accomplish their mission, they must first know how 
many veterans they have been tasked to serve.

    Question 9: In your written testimony you mentioned that after 
reviewing the OPM report on the 2009 Employment of Veterans in the 
Federal Government, the numbers were inconsistent. Do you think that a 
direct-hire authority for Federal agencies will help?

    Response: The VFW supports direct hiring authority for veterans 
transitioning off of active duty. We believe that this would encourage 
agencies consistently proven to hire a low percentage of veterans to 
tap this group of competent workers. Today, veterans who seek to take 
advantage of their 5 point preference must have a DD-214 in hand to 
start the often-lengthy Federal hiring process. The prospects are even 
worse for service-disabled veterans who must wait for their VA claims 
to be adjudicated before starting the hiring process. The resultant lag 
time in completing the hiring process can lead to significant financial 
hardships, and can result in the Federal agencies losing prime 
candidates to leaner private industry employers. If a veteran meets 
core competencies, they should be able to simply take off the uniform 
on Friday, and put on a suit on Monday, avoiding unnecessary hurdles 
and the potential financial hardships that come with the current 
Federal hiring system.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
